<html>
<title> - OVERSIGHT OF THE JOINT PLANNING AND DEVELOPMENT OFFICE</title>
<body><pre>[Senate Hearing 109-1142]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1142

                    OVERSIGHT OF THE JOINT PLANNING 
                         AND DEVELOPMENT OFFICE

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
67-066 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
JOHN McCAIN, Arizona                     Virginia, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          BYRON L. DORGAN, North Dakota
OLYMPIA J. SNOWE, Maine              BARBARA BOXER, California
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
JOHN ENSIGN, Nevada                  FRANK R. LAUTENBERG, New Jersey
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        E. BENJAMIN NELSON, Nebraska
JIM DeMINT, South Carolina           MARK PRYOR, Arkansas



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2006....................................     1
Statement of Senator Burns.......................................     1
Statement of Senator Lott........................................    50
Statement of Senator Rockefeller.................................    11
    Prepared statement...........................................    11
Statement of Senator Stevens.....................................     2
Statement of Senator Snowe.......................................    30
    Prepared statement...........................................    30

                               Witnesses

Blakey, Hon. Marion C., Administrator, Federal Aviation 
  Administration.................................................     3
    Prepared statement...........................................     6
Dillingham, Gerald L., Ph.D., Director Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................    17
    Prepared statement...........................................    19
Dobbs, David A., Assistant Inspector General for Aviation and 
  Special Program Audits, Department of Transportation...........    31
    Prepared statement...........................................    33
Porter, Dr. Lisa J., Associate Administrator for Aeronautics 
  Research, National Aeronautics and Space Administration........    11
    Prepared statement...........................................    13

                                Appendix

Aerospace Industries Association of America, prepared statement..    61
Air Line Pilots Association, International, prepared statement...    63
Bunce, Peter J., President/CEO, General Aviation Manufacturers 
  Association (GAMA), prepared statement.........................    64
Cote, Dave, Chief Executive Officer, Honeywell prepared statement    66
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    61
Response to written questions submitted by Hon. Daniel K. Inouye 
  to Hon. Marion C. Blakey.......................................    68

 
                    OVERSIGHT OF THE JOINT PLANNING 
                         AND DEVELOPMENT OFFICE

                              ----------                              


                         TUESDAY, JULY 25, 2006

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Conrad Burns, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We'll call the Committee to order. There are 
some folks on the way. It is a very busy morning this morning. 
I think there was a series of about 15 to 17 hearings this 
morning, all over the Hill and so people will be coming and 
going. Ranking Member is on his way and I think I'll get my 
statement out of the way before he gets here and then we'll 
start taking testimony.
    I'd like to thank everybody for coming today and I'd like 
to welcome Senator Rockefeller back, if it--well, he has had a 
back operation and he is kind of struggling with his health 
right now, but he is a brave man and a strong man and we sure 
appreciate everything that he contributes to this committee and 
I'll talk to this empty chair for awhile. I won't pay him any 
compliments once he gets here. I accused--I don't think he has 
a watch in is office. He just runs his office with a calendar 
and today is Tuesday.
    The Vision 100, the Century of Aviation Reauthorization Act 
of 2003, we directed the FAA to develop a comprehensive plan 
for the Next Generation Air Traffic Control Systems. That 
system needs to accommodate the growth in airline passengers as 
well as the innovation of unmanned aerial systems, among 
others. The JPDO, which I call ``jump-do,'' was created to 
leverage the expertise and resources within the Department of 
Transportation, the Department of Defense, the Department of 
Commerce and Homeland Security, as well as NASA and the White 
House. The question is whether that leveraging is equating into 
an integrated, manageable pool of resources. Is it essential? 
The involved agencies and industry work together to solve the 
complex challenges involved in the next generation system.
    The second question is, can it be done sooner than 2025, as 
currently planned? We have serious competition in Europe and it 
will be a race on time and resources to fully modernize and 
establish the future system. This topic will be especially 
important in the upcoming months, as we work on the next FAA 
reauthorization bill. Congress is going to have to make some 
tough decisions in order to meet the projected increases in air 
traffic volumes, in hands of system safety infrastructure and 
increase the efficiency of the air traffic control system. I 
want the agencies involved, those on the panel and those in the 
audience, to be on notice that we'll be keeping your feet to 
the fire on modernizing this system. Every agency, from the FAA 
to the Department of Defense, needs to keep their eye on the 
ball, as this committee will keep a close eye on the progress. 
We can no longer afford to simply maintain the status quo. The 
economic importance and safety improvements associated with a 
modern and efficient air system are boundless. While the 
Committee understands this is an incremental process and not a 
turn-of-the-switch procedure, it will be turning its attention 
and spotlight your way in the coming year. Again, I want to 
thank everybody for coming today.
    As I looked at this challenge that we have before us and of 
course, with the Chairman of the Full Committee here, knowing 
how important this is, that this is going to take many 
agencies, it is going to take probably a series of hearings 
that we've never seen before, to get Congress to move and to 
engage Congress, not just a little bit but also into the 
challenge that we have before us. We know that we've got to do 
things differently now. New technologies are here. New 
technologies will happen while we're in the process. We have to 
be very agile and very versatile in order to take advantage of 
those and it will take people, not only of vision but also 
courage before we really re-do this whole system and make it 
move us into a new era of air traffic control, for passenger 
safety, not only how it relates here on a terrestrial means, so 
to speak, but also how it interlaces with our travel in space. 
So it involves people that think big and broad and deep. So I 
thank you for coming this morning and now I turn to my good 
friend from Alaska and the Chairman of the Full Committee, 
Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Senator Burns. I'm 
pleased you are holding the hearing. I'm glad to see these 
witnesses here to discuss this office and nice to see you back, 
Administrator Blakey. We've discussed a lot--the situation in 
Alaska. Seventy percent of our cities can be reached only by 
air, year-round and we have to have a modern system to assure 
safety, not only for our people traveling but the medical 
evacuation process that we use is by air. When I first became 
Chairman of the Appropriations, the first hearing that I held 
was in Alaska on safety and I'm delighted that the FAA has been 
a partner in really improving the situation in Alaska. At that 
time, I found out that one out of every 11 pilots in our state 
was losing his or her life in commercial aviation. I think that 
programs like Capstone and the Five Star Medallion Program, 
which Administrator Blakey, you have participated in, have 
really helped a great deal in bringing us a new concept of 
safety. Now we have to make sure that we have planning for the 
development of new systems and staying ahead of the game as we 
go. So, I look forward to working with the Chairman and to 
listen to your statements here this morning. I am delighted you 
took the time to be with us today, Marion. Thank you.
    Senator Burns. Thank you, Mr. Chairman. I appreciate you 
being here today and now we'll call on the Administrator of the 
FAA, the Hon. Marion Blakey. Thank you for coming this morning. 
I look forward to your comments.

  STATEMENT OF HON. MARION C. BLAKEY, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Blakey. Is the red light on? There we are, thank you. 
Thank you, Chairman Burns and Chairman Stevens, for all the 
ongoing attention you all give to these vitally important 
matters in aviation. I do appreciate the opportunity to testify 
about the future of aviation and how we are going to advance 
it. It is a pleasure to discuss the Joint Planning and 
Development Office and the Next Generation Air Transportation 
System. We have testified before this committee several times 
about the creation of the JPDO. I'll start thinking of it as 
``jump-do,'' Mr. Chairman, and its drive to create the NextGen 
System. To be sure, this is a very ambitious undertaking, 
requiring strong support from Congress as well as our 
stakeholders and our colleagues in the Executive Branch, if we 
are to be successful. We all know how important it is to 
modernize our aviation system but I'd like to leave you today 
with a clear sense of the progress we're making in achieving 
that goal. These two charts that I have up here on each side of 
the table, I think present a startling picture, not only of 
where we are but of what is certain to come.
    These charts are Exhibits A and B and they tell the tale of 
why we must modernize, and what will happen if we fail to.
    [Senator Rockefeller enters.]
    Ms. Blakey. Good morning, Senator Rockefeller. I'm just 
illustrating the charts that we have on each side as to why we 
have a case for modernization. These graphics essentially show 
the density of traffic. They highlight operational hotspots 
when congestion can lead to inefficiencies and frankly, not 
just inefficiencies but genuine safety concerns across the 
national airspace system. The chart on the left represents 
today. It is your left, my right here. The right shows 2025, 
with three times the traffic level we have now. The warmer 
colors, as you would expect, yellow and red, show the busiest, 
most complex flows of traffic. Cooler colors--green, blue, 
gray--represent flows that are less congested. In 20 years it 
is pretty obvious: the hotspots dominate. Bottom line? If we 
fail to modernize, we can't handle the traffic density you're 
looking at. The red and to some degree, the yellow, literally 
cannot be handled by human intervention. That is only going to 
be handled through automation and obviously, we are going to 
have to be able to move ahead and avoid that.
    The FAA and the JPDO are tackling this challenge on two 
fronts: focusing on the 2025 end state while delivering near 
term operational benefits. Using advanced technology to make 
existing capacity work more efficiently, we can provide relief 
today while helping to lay the foundation for the NextGen 
System.
    Last year, we accelerated the development of some of the 
key building blocks for the NextGen System. These include 
Automatic Dependent Surveillance Broadcast or ADS-B band 
network-enabled operations. ADS-B you all have heard me talk 
about before. I'm a true believer. It is a revolutionary 
technology that uses GPS to transmit real-time surveillance 
data to controllers and to pilots, substantially improving 
situational awareness and allowing smaller separate distances 
between aircraft while maintaining the highest level of safety.
    As Chairman Stevens knows all too well, it has been very 
successfully demonstrated in Alaska through the Capstone 
Program and we are moving forward now with nationwide 
deployment. Aircraft equipped with ADS-B have had a 
consistently lower accident rate than non-equipped aircraft. In 
fact, in the years from 2000 to 2005, the rate of accidents for 
ADS-B-equipped aircraft in Alaska, dropped by almost 50 
percent. Network-enabled operations--they also show similar 
promise, especially in making our NextGen System more secure. 
As the demand for aviation continues to increase, it is clear 
that everyone in the system must have clear lines of 
communication. With NEO, as we call it, the left hand always 
knows what the right hand is doing and we are able to minimize 
duplication so that everyone pulls in the same direction. This 
is especially important when we are thinking about security in 
the sensitive airspace around the Capitol, where the concept 
has already been demonstrated successfully. We showed how you 
could connect seven systems from a series of Federal agencies, 
including FAA, DOD and DHS and how sharing information--and 
this is from Legacy Systems, I would point out--in real-time, 
helps agencies respond to a security incident much more quickly 
and effectively. When you are justifying an expense to the 
taxpayer, it just makes good business sense to show how the 
major players are pooling their brainpower and developing and 
deploying together. The JPDO, of course, is not an implementing 
or an executing agency so the FAA is working closely with our 
counterparts to develop an implementation schedule for the 
operational changes required as these NextGen technologies are 
deployed. Rather than starting from scratch, we will use the 
FAA's highly successful Operational Evolution Plan, the OEP as 
it is known, as a framework. The OEP was created long before 
the NextGen initiative began as a 10-year rolling plan to 
develop new capacity for our busiest airports. It has helped to 
add runways and redesign airspace in areas where the taxpayer 
would get the biggest bang for the buck. And, I'm happy to say, 
over the years, time and again, it has worked. We've deployed 
12 new runways since 1999 and I want to repeat that because 12 
new runways since 1999 is huge by any standards and there are 
more on the way. We are now, therefore, expanding the focus of 
this very successful plan, the OEP, to include the NextGen 
System so we will have a seamless approach. Now we are calling 
it the Operational Evolution Partnership--the bridge from the 
OEP today to the NextGen System of tomorrow. But the label, of 
course, is honestly unimportant. What is important--the bottom 
line, is that this is a successful way to deploy and its new 
construct will serve as the roadmap from today's NAS to 
tomorrow's NextGen System.
    Over the last few years, we have gone to great lengths to 
operate the FAA like a business and I know you all have heard 
me talk about this time and again. That does mean setting very 
specific goals and measuring our success. For the first time 
this year, we will be incorporating progress toward the NextGen 
System into our flight plan in a much more robust way. The 
current 5-year business plan for the FAA was released just last 
week for public comment, as we do every year and it includes 
several major initiatives to support the NextGen 
transformation. Progress reports on each goal and milestone are 
posted monthly to the web and we've linked the bonuses for the 
FAA employees to the achievement of these goals. When you tie 
success to a paycheck, success tends to happen and I'm 
confident it will continue to do so.
    So how do you tie all these pieces together? One of the 
major deliverables for the JPDO include one of the critical 
elements in defining the NextGen System itself. It is the 
development of an agreed concept of operations, CONOPS. This 
document will provide the basic operational description of how 
the NextGen System will work. It will help us develop the 
requirements and capabilities associated with the air 
transportation system of 2025. It is essentially a sketch of 
things to come and underscores how the new system will improve 
upon what we have today. Make no mistake; the concept of 
operations will guide investment decisions, both in research 
and systems deployment.
    I am pleased to announce that the first phase of the 
Concept of Operations was released yesterday. It is on our 
website, of course, that is the primary way to access it but I 
did bring a copy of the document with me today as well. We're 
looking for comment. We're looking for stakeholders to provide 
additional input, although they have provided substantial input 
already on other phases. As we receive their comments, they 
will be released over the next several months. We expect to 
complete it by early next year in a final form.
    The importance of developing a modernized system is also 
quite clear to policymakers in Europe, where a comparable 
effort, as you all well know, is underway. I am also happy to 
say that last week at Fernborough, where Chairman Stevens and I 
were both over there for various activities having to do with 
our European counterparts, we were able to reach an agreement 
with the European Commission, to coordinate our modernization 
programs. This agreement provides the framework for developing 
a more effective, performance-based air navigation system 
between the United States and Europe. It is the right thing for 
safety. It is the right thing for efficiency and if we've 
learned anything, a seamless sky can supercharge our economy 
and Europe knows that as we do. So, we both have a great deal 
of energy behind that and in signing this agreement with 
Jacques Barrot, I think he was as pleased as I was.
    With all of this said, let me emphasize that cost is going 
to be a vital factor in all of this. We cannot create the Next 
Generation System that is unaffordable. We are working, 
therefore, with the Next Generation Institute, which represents 
all of the commercial sector, all of our stakeholders, to hold 
several workshops, from their vantage point as well as ours, so 
that the critical assumptions and uncertainties underlying any 
cost benefit analysis, can be scrutinized and validated by the 
industry. The first of these workshops, focusing on commercial 
aviation, I'd have to say was surprisingly helpful to all 
involved. It set the stage for collaborative development of our 
assumptions about operations and equipage. We will also be 
meeting with the general aviation community and with the 
airport communities in the next couple of months.
    Today, we are making technological advancements and laying 
the groundwork for the NextGen System. No question about it, a 
lot of challenges remain. We know, for example, if we are to 
see the benefits of the Next Generation System fully realized, 
the FAA's financing system is going to have to be reformed. 
Nevertheless, we remain focused, knowing that our plan for the 
Next Generation System must succeed.
    Aviation continues to expand at an exponential rate. You 
can see that from these charts and we have no choice but to be 
ready. So with that, Mr. Chairman, I am concluding my 
testimony. Thank you for this opportunity.
    [The prepared statement of Ms. Blakey follows:]

      Prepared Statement of Hon. Marion C. Blakey, Administrator, 
                    Federal Aviation Administration
    Good morning Chairman Burns, Senator Rockefeller, and members of 
the Subcommittee. Thank you for the opportunity to testify today about 
the multi-agency Joint Planning and Development Office (JPDO) and the 
work we are doing together to develop and deploy the Next Generation 
Air Transportation System (NextGen) while providing operational and 
safety enhancements that deliver benefits to our customers today.
    Our Nation's air transportation system has become a victim of its 
own success. We created the most effective, efficient and safest system 
in the world. But we now face a serious and impending problem, one that 
the FAA and this committee are well aware of. Demand for air services 
is rising, and could as much as triple over the next two decades. While 
the industry downturn following the attacks of September 11 temporarily 
slowed the growth in the aviation industry that began in the late 
1990s, demand is growing rapidly. And we have to be ready to meet it.
    The warning signs are everywhere. Flight delays and cancellations 
have reached unacceptable levels. Other issues, ranging from 
environmental concerns to the complexities of homeland security are 
placing additional stresses on the system.
    If we fail to address issues such as increased capacity in a 
deliberate and focused way, we will suffocate the great engine of 
economic growth that civil aviation has become.
    The FAA and the JPDO have taken a dual track yet complementary 
approach, keeping our eyes focused on the NextGen Vision while using 
existing technology to provide important and tangible operational 
benefits now and in the future to users of the National Airspace System 
(NAS). We are finding ways to make existing capacity work more 
efficiently through advanced technology and operational improvements, 
with many of these efficiencies not only providing relief today but 
helping to lay the foundation for the Next Generation System.
    The JPDO now serves as a focal point for coordinating the research 
related to air transportation for agencies across the Federal 
Government, including the Departments of Transportation, Commerce, 
Defense and Homeland Security, as well as NASA and the Office of 
Science and Technology Policy. The initiative achieved important 
milestones in 2005 toward designing the NextGen system. The JPDO 
completed its internal organization and created eight government/
industry Integrated Product Teams (IPTs) to break this large and 
complex project into manageable strategies. These strategies focus on 
those aspects of aviation that hold the keys to capacity and efficiency 
improvements--airport infrastructure, security, a more agile air 
traffic system, shared situational awareness, safety, environmental 
concerns, weather and global harmonization of equipage, and operations. 
The Teams work closely with our stakeholders to ensure that they have 
an early window into the planning process and that we take full 
advantage of their expertise every step of the way. Further 
accomplishments to date are highlighted in the recently published 
``2005 Progress Report to the NGATS Integrated Plan'' that was 
transmitted to Congress on March 10 as required by Vision 100.
    We need the best minds in America across both the public and 
private sectors working on the task of creating a NextGen system. To 
achieve this, we have established a Next Generation Air Transportation 
System Institute (the NGATS Institute) that allows stakeholders to get 
directly involved in the transformation process. And, while the 
Aerospace Industries Association (AIA) is the host for the Institute, 
it is co-chaired by the presidents of the Air Line Pilots Association 
and the Air Transport Association and open for participation by all 
segments of the industry.
    What truly sets this new structure apart is that it minimizes 
duplication of effort and resources among Federal agencies and 
maximizes the input of the private sector toward a common goal--the 
creation of a NextGen system.
    One of the common misconceptions about the NextGen initiative, 
however, is that we have to wait until 2025 to start seeing the 
benefits. FAA is currently implementing a system known as Required 
Navigation Performance (RNP). RNP uses on-board technology that allows 
pilots to fly more direct point-to-point routes reliably and 
accurately. RNP is extremely accurate, and gives pilots not only 
lateral guidance, but vertical precision as well. RNP reaches all 
aspects of the flight--departure, en route, arrival, and approach. For 
example, in January 2005, in partnership with Alaska Airlines, we 
implemented new RNP approach procedures at Palm Springs International 
Airport, which is located in very mountainous terrain. Under the 
previous conventional procedures in use at Palm Springs, planes could 
not land unless the ceiling and visibility were at least 2,300 feet and 
three miles. With these new RNP procedures, air carriers with properly 
equipped aircraft can now operate with a ceiling and visibility as low 
as 734 feet and one mile. This lower landing minima has allowed Alaska 
Airlines to ``save'' 27 flights between January and November, 2005--
flights which would have otherwise had to divert to Ontario, 
California--an added distance of at least 70 miles. Given the current 
state of fuel prices, savings such as this can mean a great deal to an 
airline's bottom line, to say nothing of passengers' schedules and 
convenience.
    Establishing an initial Network-Enabled Operations (NEO) capability 
is a high priority for the JPDO and its member agencies, given its 
fundamental importance to the success of the NextGen System. Current 
efforts focus on identifying the network architecture and enacting 
standards for information and safety data sharing. The Department of 
Defense (DOD) has already invested considerable resources in 
information technology and telecommunication research focused on NEO 
and information access and sharing. FAA, as well as the Departments of 
Homeland Security (DHS) and Commerce, are committed to developing 
network-centric information architectures that draw on the lessons 
learned by DOD. The opportunity now exists to synchronize these 
efforts, especially in the areas of data interoperability and 
compatible network-to-network interface mechanisms, and two on-going 
DOD initiatives--the synchronization of DOD and DHS classified networks 
and DOD's development of its Net-Centric Enterprise Services--will 
serve as templates for this effort.
    The benefits of this technology are clear. In 2005, the JPDO, FAA 
and an industry team showed how network-enabled concepts developed for 
military customers can be applied to Air Traffic Management. The Joint 
Network-Enabled Operations Security Demonstration connected seven 
existing Air Traffic Management and security systems distributed over 
12 different locations. It showed how sharing information in real time 
across air traffic, air defense, and law enforcement domains could 
improve coordination and help agencies respond to a security incident 
more efficiently--thereby lessening the need for evacuations and 
scrambling fighter jets. The exciting part of the NEO demonstration is 
that it enabled communication between agencies' current networks, 
eliminating the need to throw out all the individual legacy systems and 
create a brand new mega-system, which would be prohibitively expensive. 
As a part of the ``spiral development process'' for NEO, an approach to 
systems development that makes continuous improvements and changes 
throughout the development process, the JPDO is planning a second joint 
agency NEO demonstration. In Fiscal Year 2007, the FAA will participate 
in the second NEO demonstration under the System Wide Information 
Management (SWIM) program. The President's budget proposal for Fiscal 
Year 2007 requests $24 million for SWIM. FAA's investment in the second 
NEO demonstration will allow us to apply lessons learned to the 
acquisition phase of SWIM. SWIM will provide a secure NAS-wide 
information web to facilitate a transition toward network-based air 
traffic operations and allow the FAA to lead and participate system-
wide in network-enabled operations with system users, global air 
navigation service providers and other government agencies.
    In its Fiscal Year 2007 budget request, the Administration proposed 
targeted investments, in addition to SWIM, to promote early 
implementation of core elements of the NexGen system. Additional 
initiatives that will serve as building blocks of the new system will 
be added to the mix as the Enterprise Architecture is fully developed 
and system requirements are established.
    One of our most promising initiatives with potential for broad 
operational applications is Automatic Dependent Surveillance-Broadcast 
(ADS-B), a technology that could replace ground-based radar systems and 
revolutionize air navigation and surveillance by providing radar-like 
separation procedures in remote areas that cannot currently be served 
by radar; by providing near real-time, in-the-cockpit, aeronautical 
information such as weather and notices to airmen; by enabling capacity 
gains by reducing existing separation standards in all domains and 
airspace classifications; by supporting increased capacity through 
user-executed airborne spacing, sequencing and separation operations; 
and by providing improved information for traffic flow management and 
fleet management--all while reducing our infrastructure costs. ADS-B 
uses GPS satellites and ground-based transmitters to allow aircraft to 
broadcast their positions with greater frequency and accuracy than our 
legacy radar systems. Moreover, with ADS-B, future pilots will see 
exactly what the air traffic controller sees. For Fiscal Year 2007, the 
President's budget includes $80 million for the FAA for the ADS-B 
program to begin moving toward nationwide deployment.
    The ADS-B system was the key enabling technology for the Capstone 
demonstration program in Alaska. Capstone is a technology-focused 
safety program that seeks near-term safety and efficiency gains in 
aviation by accelerating implementation and use of modern technology, 
in both avionics and ground system infrastructure, with the goal of 
reducing the exceedingly high accident rate in Alaska for small 
aircraft operations, which was nearly five times greater than the 
national average. Through 2005, the program achieved significant safety 
and efficiency results. The use of ADS-B information by the Bethel 
Airport Traffic Control Tower continues to provide benefits to all 
Bethel operators by enhancing the ability to better balance arrival 
flows and demand when weather conditions at the airport deteriorate 
below visual flight rules conditions. Aircraft equipped with ADS-B have 
had a consistently lower accident rate than non-equipped aircraft. From 
2000 through 2005, the rate of accidents for ADS-B-equipped aircraft 
dropped significantly--by 49 percent. That is real progress, and we 
will build on this success as we expand the use of ADS-B elsewhere in 
the country.
    One of the first uses of ADS-B technology outside of Alaska will be 
in the Gulf of Mexico. We have recently signed a Memorandum of 
Agreement (MOA) with the Helicopter Association International (HAI), 
helicopter operators and oil and gas platform owners in the Gulf of 
Mexico to improve service in the Gulf. Using ADS-B technology, 
helicopter operators will transmit critical position information to the 
Houston Center, enabling unprecedented Air Traffic Control services in 
the Gulf. This technology will also develop new air routes with 
improved separation standards for high altitude airspace.
    These new technologies and procedures are vital both to improving 
our air traffic system today and to building the NextGen system of 
2025. To ensure we deliver these benefits as quickly as possible, FAA 
is incorporating NextGen goals and targets into the agency's strategic 
planning process in a much more comprehensive way. The draft FAA Flight 
Plan for 2007-2011, released for public comment just last week, 
includes several major initiatives that support the transformation to 
the NextGen system. And we've added the NextGen symbol in the Flight 
Plan to easily identify each initiative that supports the modernization 
of the National Airspace System.
    As a result, the Flight Plan will now capture explicitly what we 
must do in the near term through the Integrated Product Teams to 
achieve the NextGen vision. In other words, it helps us to identify the 
pipeline and funding to implement new technologies and incorporate the 
operational concepts that will serve as the foundation for the NextGen 
system. This will provide both an internal process for ensuring 
commitments are met and an external process for communicating the FAA's 
progress to our stakeholders.
    We recognize that there are many challenges in converting the 
JPDO's vision of the NextGen system into reality. Because the JPDO is 
not an implementing or executing agency, the FAA and the other JPDO 
partner agencies must work closely with the JPDO to develop an 
implementation schedule for the operational changes required as new 
technologies are deployed to realize the NextGen vision. We intend to 
use the construct of our existing Operational Evolution Plan (OEP) to 
help us. However, we will expand the scope of the OEP from a ten-year 
rolling plan focused exclusively on capacity to a plan that will take 
us from the configuration of today's National Airspace System (NAS) to 
tomorrow's NextGen system. In the new Operational Evolution Partnership 
(OEP), JPDO transformational operating concepts will be identified, 
rigorously evaluated, prototyped, and tested so they can be ready for 
transition into the NAS. Required operational implementation schedules 
will be tracked, as well as dates by which initiatives must be funded 
in order to meet those schedules.
    The NAS and NexGen Enterprise Architectures will provide the 
backbone of this new OEP by specifying roadmaps for system and 
certification requirements, operational procedures, program phasing, 
and prototype demonstrations. This Operational Evolution Partnership 
will be the mechanism by which we inform our owners, customers, and 
aviation community of our plans and progress toward the JPDO vision, 
while assuring that the JPDO and the FAA are jointly on-track to 
deliver the NextGen system.
    Cost will be a vital factor: we cannot create a NexGen system that 
is not affordable. We are working with the NGATS Institute to hold 
several workshops with our stakeholders so that the critical 
assumptions and uncertainties underlying any cost benefit analysis can 
receive scrutiny and validation for future use. The first of these 
workshops, focusing on the commercial aviation sector, was very helpful 
and has set the stage for a collaborative development of our 
assumptions on such issues as operations and equipage. We expect 
similar such engagement as we meet with representatives from other 
segments of the industry, such as the General Aviation Community. Of 
course, even after we develop the basic assumptions, we will continue 
to work closely with the industry as we develop the cost models.
    Our vision of the NextGen system is not limited to increased 
airspace capacity. Rather, it is one which encompasses the whole air 
travel experience--from the moment the passenger arrives at the curb of 
his departure airport to his or her exit from their destination 
airport. The NextGen system includes security, safety, and efficiency 
of passenger, cargo and aircraft operations. Technology will change the 
way America flies, and aircraft will be able to use information 
technology in a more robust way, with enhanced cockpit, navigation and 
landing capabilities, and far more comprehensive and accurate knowledge 
of real-time weather and traffic conditions.
    The NextGen system will be more flexible, resilient, scalable, 
adaptive, and highly automated. The NextGen operational vision is not 
just related to the air traffic management system alone, but also 
includes the preservation and growth of airports, heliports, and other 
future landing and departure facilities to incorporate fully the 
emerging system's benefits. This system will be built on a far more 
robust information network than anything we have seen to date, ensuring 
that the right information gets to the right person at the right time, 
while keeping the Nation safe and the flow of traffic running smoothly. 
Finally, we will put more information directly into the cockpit of 
intelligent aircraft through sensors and satellites linked together 
through network communications.
    One of the major products for the JPDO, and indeed, one of the 
critical elements in defining the NextGen initiative itself, is the 
development of the Concept of Operations and the Enterprise 
Architecture. These documents define each NextGen function, what the 
requirements will be, and how it will evolve. They are absolutely 
essential to the future development of the NextGen system.
    The Concept of Operations is a document that provides the basic 
operational description of how the NextGen system will actually 
function. This kind of explanation, offered in one document, will be 
critical to developing the specific requirements and capabilities for 
our national air transportation system in 2025. In a sense, the Concept 
of Operations is like an architect's preliminary drawings--it outlines 
what the system will look like, how it will function, and what its 
capabilities will be.
    However, to adequately lay the groundwork and basic plans for the 
NextGen system requires another step in the process, developed 
concurrently with the Concept of Operations, and that's the Enterprise 
Architecture. The Enterprise Architecture represents the actual plan 
for how the NextGen system will be developed, much like a set of 
blueprints. This includes the systems that will be needed, the timing 
for their deployment, and how they will work together.
    Both of these documents, the Concept of Operations and the 
Enterprise Architecture, are essential to defining the NextGen system 
and will guide the future investment and capabilities, both in terms of 
research and systems development. The JPDO has made considerable 
progress on both products, and I am pleased to say that the first phase 
of the Concept of Operations was released this week on the JPDO 
website. It is now available for review and comment by our 
stakeholders, and we are anxious to receive their feedback. Other 
phases of the Concept of Operations will be released in the next few 
months, along with the Enterprise Architecture. We expect the completed 
versions of each set of documents to be complete by early next year.
    The importance of developing this system of the future is also 
quite clear to policymakers in Europe, where a comparable effort is 
well underway. This presents both a challenge and an opportunity to the 
United States. Creating a modernized, global system that provides 
interoperability could serve as a tremendous boost to the aerospace 
industry, fueling new efficiencies while creating jobs and delivering 
substantial consumer benefits. Alternatively, we could also see a 
patchwork of duplicative systems and technologies develop, which would 
place additional cost burdens on an industry already struggling to make 
ends meet.
    We are working to avoid that future by seeking out partnerships 
with our international counterparts. This year we have established 
steering groups with China, Japan, Canada and Mexico to facilitate 
cooperative activities on the design of the NextGen system. These 
groups are moving forward to pursue joint initiatives, such as ADS-B, 
SWIM, and Enterprise Architecture which are aligned with the required 
performance-based systems.
    In addition, I just returned from the Farnborough Air Show, where I 
concluded an agreement with Jacques Barrot, the Vice President of the 
European Commission, which formalizes cooperation between the NextGen 
initiative and its European counterpart, the Single European Sky Air 
Traffic Management Research (SESAR) program. The FAA and the EC intend 
to identify opportunities and establish timelines to implement, where 
appropriate, common, interoperable, performance-based air traffic 
management systems and technologies. This coordination will address 
policy issues and facilitate global agreement within international 
standards organizations such as ICAO, RTCA and Eurocontrol, and 
contribute greatly to the success of this critical initiative.
    Our overarching goal in the NextGen initiative is to develop a 
system that will be flexible enough to accommodate a wide range of 
users--very light jets and large commercial aircraft, manned and 
unmanned aircraft, small airports and large, business and vacation 
travelers alike, while handling a significantly increased number of 
operations with a commensurate improvement in safety, security and 
efficiency. Research will continue to help us find the right balance 
between a centralized satellite and ground system and a totally 
distributed system, where aircraft ``self-manage'' their flight with 
full knowledge of their environment.
    The current technological and operational improvements are positive 
steps down the road to building the NextGen system. If we are to see 
the benefits fully realized, however, it is absolutely imperative that 
we reform the financing system for the FAA. Over the next few years we 
will work to achieve better cost management; determine the best 
solution for our aging and deteriorating facilities; and, conduct 
research on convective weather to reduce flight delays associated with 
summer storms. We strive to improve efficiency, while searching for 
innovative ways to provide safer services even more efficiently. 
However, we need to establish the financing of our current and future 
operations based on actual costs and investment requirements that will 
realize tangible benefits and increasing efficiency. As we decide how 
to wisely invest in our future, we will continue to work closely with 
our customers, our employees, and of course, Members of Congress.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions the Committee may have.

    Senator Burns. Thank you and I would caution--you know, all 
the things that you took us to. Are these charts available to 
members of this committee?
    Ms. Blakey. They are.
    Senator Burns. They are?
    Ms. Blakey. Yes.
    Senator Burns. Today?
    Ms. Blakey. I hope we have them up there in color for you. 
We intended to.
    Senator Burns. It would help because I think there are 
probably a lot of Members of Congress that are not aware of the 
challenges that we face and these are pretty stark realities as 
we look here. Also, everything that you mentioned in there--let 
me warn that everything we do as we take off on this expedition 
is going to have to include the private sector. We can sure 
experience paralysis by analysis and we don't want to get into 
that kind of a situation either, because we know that we have 
to make progress.
    Senator Rockefeller has joined us today and I would assume 
that you have a statement and we would look forward to that 
before we call on Dr. Porter.

         STATEMENT OF THE HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Mr. Chairman, thank you for your usual 
courtesy. I do have a statement. I worked on it last night. It 
is quite long. I think the mood in the room would decline as I 
continued although it is a very positive statement and I also 
cannot stay all that long. I have to hear my favorite FAA 
Administrator, so I will decline your invitation with thanks.
    Senator Burns. Well, we've got the room leased for all day 
if you want to--no matter how--if you still wanted to make a 
statement.
    Senator Rockefeller. We'll just put it in the record.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    We all recognize that the U.S must significantly expand the 
capacity of our Nation's air transportation system to make sure that we 
continue to have the most effective, safe and secure aviation system in 
the world. The Administrator understands the great importance of 
meeting the challenge to modernize our airspace system, and I want to 
commend her for her continued leadership in this effort.
    This year is critical with the scheduled completion of needed 
roadmaps that will provide the blueprint for the future National 
Airspace System. As we head into FAA Reauthorization, the FAA and 
entire Administration must continue to communicate closely so that 
Congress can properly assist this effort in the coming months.
    I will be watching as the Next Generation Air Traffic System 
architecture is completed and the business case for this effort is 
developed. Too many times in the past, we have spent recklessly on the 
FAA's modernization efforts--often with exploding budgets providing 
mixed results at best. Adequate funding continues to be a major concern 
and we cannot afford to shortchange this effort. You must make clear 
what steps need to be taken and all of the stakeholders have to work 
together to make these plans become a reality.
    Furthermore, it is my understanding that the Administration will 
not be providing Congress with a proposal to change the financing of 
the agency's operations this year. I know that the Administrator has 
been working very hard to finalize this proposal, and I hope that the 
Administration decides very early next year on this or Congress will 
not have time to review this proposal.
    The improved efficiencies to be gained through airspace 
modernization will provide billions of dollars in increased 
productivity to U.S. and global businesses. Air carriers will see fuel 
costs reduced--aiding their bottom lines, and more direct routing will 
certainly lead to additional environmental and economic benefits.
    It is vital to our position as the global leader in the aviation 
industry that our modernization initiatives are a success, and I look 
forward to doing what I can to help you meet this goal.

    Senator Burns. Thank you very much, Senator. I appreciate 
that very much and I look forward to working with you as we 
work on this huge undertaking.
    We have with us this morning, Dr. Lisa Porter, Associate 
Administrator of Aeronautics Research, National Aeronautics and 
Space Administration. Thank you for coming this morning.

                STATEMENT OF DR. LISA J. PORTER,

       ASSOCIATE ADMINISTRATOR FOR AERONAUTICS RESEARCH,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Porter. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate this opportunity to appear before 
you today to discuss the status of the NGATS, the Next 
Generation Air Transportation System. NASA is committed to 
working with our partners at the JPDO to provide the high 
quality, cutting edge research and technical excellence 
required to develop the NGATS.
    The future air traffic management system must be scalable 
to support increased capacity as well as flexible to 
accommodate the wide variety of air vehicles that will fly 
within the system. New concepts and technologies must be 
conceived and developed that will completely transform the 
over-arching structure that will coordinate thousands of 
vehicles operating in the national air space at any given time. 
NASA's air space systems program will therefore focus on 
developing revolutionary concepts, capabilities and 
technologies that will enable significant increases in the 
capacity, efficiency and flexibility of our national air space 
system. We will develop and explore fundamental concepts and 
integrated solutions that will address the optimal allocation 
of ground and air automation technologies necessary for the 
NGATS. We will also develop and validate algorithms, concepts 
and technologies to enable high-capacity efficient and safe air 
portal systems for the ground and terminal area domains.
    However, it is critical to recognize that the challenges we 
face in developing the future air transportation system, are 
not limited to air traffic management alone. Increasing the 
capacity of the ATM system by factors of two or three will be 
nothing more than a theoretical exercise if we do not 
simultaneously address the substantial noise emissions 
efficiency and performance challenges facing the air vehicles 
of the future. These are issues that cannot be worked in 
isolation. A holistic approach to vehicle design will be 
required in order to address multiple and often conflicting 
design requirements. Therefore, a key focus of NASA's 
fundamental aeronautics program will be the development of 
physics-based, predictive design tools that will enable the 
rapid evaluation of new concepts and technologies and it will 
accelerate their application into a wide variety of future air 
vehicles. This capability will only be possible if we are 
dedicated to both the pursuit of cutting-edge research across 
the core aeronautics disciplines and the integration of that 
research to enable multidisciplinary tools and technologies. 
The noise emissions efficiency and performance of air vehicles 
are all interrelated through core disciplines, such as 
materials, structures, aerodynamics, acoustics, combustion and 
controls. Furthermore, as we look toward the future at the 
projected increases in air traffic and future system 
capabilities, we must make a firm commitment to conduct the 
research necessary to ensure that our high safety standards are 
not compromised. NASA's aviation safety program will therefore 
focus on developing cutting edge tools, methods and 
technologies intended to improve the intrinsic safety 
attributes of aircraft that will be operating in the evolving 
NGATS. We will conduct research that focuses on improving the 
inherent resiliency, life cycle durability and maintenance of 
modern aircraft and associated onboard systems. We will also 
pursue flight deck related technologies that will ensure that 
crew workload and situation awareness are both safely optimized 
and adapted to the future NGATS' operational environment.
    Finally, taking into account the advanced automation and 
autonomy capabilities envisioned by NGATS, we will pursue 
methodologies to enable an aircraft to automatically detect, 
avoid and/or safely recover from an off-nominal condition that 
could lead to a loss of control. NASA has interacted closely 
with the JPDO during the past several months to ensure proper 
alignment of our research plans with the needs of the NGATS. We 
have solicited input from the JPDO during both our preliminary 
technical planning last fall and our rigorous review process 
this past spring. We have employed a research program 
formulation process that put our researchers in charge of 
writing technical proposals with input from other government 
agencies and from the private sector, through a Request for 
Information, commonly referred to as a RFI. These proposals 
were reviewed by panels of government subject matter experts, 
including JPDO members, who evaluated the proposals based on 
their technical, management, resource and partnership plans. 
Our thorough proposal review process ensured that the proposed 
research plans were technically credible and well aligned with 
the NGATS vision. This level of coordination and cooperation 
will remain an ongoing element of our strategic partnership 
with the JPDO.
    Now, obviously a vision as revolutionary and ambitious as 
that of the NGATS will face some significant challenges in the 
coming months and years. Technically, the most important near-
term challenge is the development of the enterprise 
architecture. While each agency has been able to vector its 
research portfolio in the right direction according to the 
goals articulated in the NGATS vision, the establishment of 
detailed system requirements that flow from enterprise 
architecture, will allow each member agency to better refine 
its R&D plans. Given that every agency has budget constraints 
and always will, the establishment of an enterprise 
architecture will be critical to ensure that each agency can 
prioritize its R&D investments in the manner that provides the 
maximum return on investment for the JPDO. The JPDO intends to 
provide a preliminary enterprise architecture by the fall of 
2006.
    In conclusion, NASA's Aeronautics Research Directorate is 
investing in high-quality, cutting-edge research in areas that 
are appropriate to NASA's unique capabilities in order to 
enable the NGATS vision. We have aligned our research portfolio 
to meet this challenge with an efficient allocation of 
resources in an unwavering commitment to technical excellence.
    Once again, thank you for the opportunity to testify today. 
Mr. Chairman, members of the Subcommittee, I would be pleased 
to answer any questions that you may have.
    [The prepared statement of Dr. Porter follows:]

 Prepared Statement of Dr. Lisa J. Porter, Associate Administrator for 
  Aeronautics Research, National Aeronautics and Space Administration
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to appear before you today to discuss the status of the 
Next Generation Air Transportation System (NGATS). NASA is committed to 
working with our partners at the Joint Planning and Development Office 
(JPDO) to provide the high-quality research and technical excellence 
that is required to develop the NGATS.
    NASA's Aeronautics Research Mission Directorate (ARMD) is currently 
undergoing a comprehensive restructuring to ensure that we have a 
strategic plan in place that enables us to pursue long-term, cutting-
edge research for the benefit of the broad aeronautics community. The 
three principles guiding this restructuring are as follows: (1) We will 
dedicate ourselves to the mastery and intellectual stewardship of the 
core competencies of aeronautics in all flight regimes; (2) We will 
focus our research in areas appropriate to NASA's unique capabilities; 
and (3) We will directly address the fundamental research needs of the 
NGATS while working closely with our agency partners in the JPDO.
    Regarding the third principle, one of the research challenges that 
NASA will directly address will be that of Air Traffic Management 
(ATM). While our current ATM system has served the country well, there 
are critical shortcomings that prevent it from meeting anticipated 
future demands. The future ATM system must be scalable to support 
increased capacity as well as flexible to accommodate the wide variety 
of air vehicles that will fly within the system. New concepts and 
technologies must be conceived and developed that will completely 
transform the overarching structure that will coordinate thousands of 
vehicles operating in the national airspace at any given time.
    However, it is important to recognize that the challenges we face 
in developing the NGATS are not limited to ATM alone. For our air 
transportation system to continue to function, future air vehicles will 
need to address substantial noise, emissions, efficiency, and 
performance challenges. These are issues that cannot be worked in 
isolation--a holistic approach to vehicle design will be required in 
order to address multiple and often conflicting design requirements. 
Furthermore, as both the vehicles and the airspace system become 
increasingly complex, we must make a commitment to conduct the research 
necessary to ensure that our high safety standards are not compromised.
    Therefore, NASA's ARMD will conduct the long-term, cutting edge 
research that will be necessary to ensure revolutionary capabilities 
for both the air vehicles of the future as well as the air 
transportation system in which they will fly. Gone are the days when 
one can design innovative vehicles without consideration of the 
airspace, and the converse is, of course, equally true. We have four 
major programs--the Airspace Systems Program, the Aviation Safety 
Program, the Fundamental Aeronautics Program, and the Aeronautics Test 
Program--each of which contributes to the research needs of the future 
air transportation system, as described in more detail below. NASA has 
constructed a balanced research portfolio that draws upon our NASA-
unique capabilities to address ATM, vehicle, and safety-related 
research challenges--all of which must be worked in order for NGATS 
vision to be realized. Funding levels among the programs have been 
balanced to ensure that our intellectual stewardship of the core 
competencies of aeronautics is not compromised.
    ARMD has interacted closely with the JPDO during the past several 
months to ensure proper alignment of our research plans with the needs 
of the NGATS. Specifically, we have solicited input from the JPDO 
during both our preliminary technical planning last fall and our 
rigorous review process this past spring. ARMD has employed a research 
program formulation process that put NASA researchers in charge of 
writing technical proposals with input from other government agencies 
and the private sector through a Request for Information (RFI). These 
proposals were reviewed by panels of government subject matter experts, 
including JPDO members, who evaluated the proposals based on their 
technical, management, resource, and partnership plans. The researchers 
were provided detailed feedback from these reviews and used this 
feedback to further refine their proposals. The proposals then 
underwent a second review. Our thorough proposal review process ensured 
that the plans were technically credible and well-aligned with the 
NGATS vision. This level of coordination and cooperation will remain an 
ongoing element of the ARMD strategic partnership with the JPDO. In the 
final step, we used a NASA Research Announcement (NRA) as the means to 
solicit research proposals for foundational research in areas where 
NASA needs to enhance its core capability. The competition for the NRA 
awards is open to both academia and industry. The NRA was released on 
May 24th, and the initial proposals were due July 7th. The NRA will 
remain open to enable us to conduct an additional round of proposal 
evaluations later in the year.
    Finally, in addition to conducting research that directly addresses 
NGATS challenges, we have placed a strong emphasis on active 
participation in the JPDO, providing personnel, analysis tools, and 
funding to directly support its functions and activities. NASA is 
actively involved in all the organizational elements of the JPDO, from 
the Integrated Product Teams (IPTs) and the Evaluation and Analysis 
Division (EAD) up through the Senior Policy Committee (SPC), which 
oversees the work of the JPDO and is chaired by the Secretary of 
Transportation.
Airspace Systems
    The objective of the Airspace Systems Program (ASP) is to develop 
revolutionary concepts, capabilities, and technologies that will enable 
significant increases in the capacity, efficiency and flexibility of 
our National Airspace System (NAS)--an objective that is clearly 
aligned with the JPDO's vision of the NGATS. The ASP consists of two 
projects: the NGATS ATM: Airspace Project and NGATS ATM: Airportal 
Project.
    The Airspace Project will develop and explore fundamental concepts 
and integrated solutions that address the optimal allocation of ground 
and air automation technologies necessary for the NGATS. The project 
will focus NASA's technical expertise and world-class facilities on 
addressing the question of where, when, how, and the extent to which 
automation can be applied to moving aircraft safely and efficiently 
through the NAS. Research in this project will address Four-Dimensional 
(4-D) Trajectory Operations including advances in the science and 
applications of multi-aircraft trajectory optimization that solves the 
demand/capacity imbalance problem and manages the separation assurance 
requirement. We also will conduct research to explore Dynamic Airspace 
Configurations that address the technical challenges of migrating from 
the current structured, static homogenous airspace to a dynamic, 
heterogeneous airspace that adapts to user demand and changing 
constraints of weather, traffic congestion, and a highly diverse 
aircraft fleet. Ultimately, the roles and responsibilities of humans 
and automation touch every technical area and will be addressed 
thoroughly.
    Working in close collaboration with the Airspace Project, the 
Airportal Project will develop and validate algorithms, concepts, and 
technologies to enable high-capacity, efficient and safe airportal 
systems for the ground and terminal area domains of the National 
Airspace System (NAS). Currently, the growth of air traffic demand and 
fleet diversity is causing the operational volume at hub airports to 
rapidly approach their maximum capacity. The research in this project 
will develop solutions that safely integrate surface and terminal area 
air traffic optimization tools and systems with 4-D trajectory 
operations. These tools and systems will be aimed at mitigating the 
growing constraints at the Nation's hubs (adverse weather, noise, 
emissions, wake vortex hazards, etc.) and will contribute toward 
significant increases in airport throughput.
    Substantial leveraging of research across the two projects will 
occur in areas such as computational science and engineering, applied 
mathematics for system optimization, trajectory design and conformance, 
automation design, and adaptive air/ground automation. Ultimately, the 
results of the two projects will be integrated to ensure gate-to-gate 
solutions that are aligned with the NGATS needs.
Aviation Safety
    Through the vigilance of industry and government, the U.S. Air 
Transportation System is widely recognized as one of the safest 
transportation systems worldwide. Looking toward the future at the 
projected increases in air traffic and future system capabilities, this 
vigilance must continue to meet both public expectations for safety and 
the full realization of the NGATS. The Aviation Safety Program (AvSP) 
will help meet these future challenges by developing cutting-edge 
technologies intended to improve the intrinsic safety attributes of 
aircraft that will operate in the evolving NGATS. There are four 
projects in the AvSP: Integrated Vehicle Health Management (IVHM), 
Aircraft Aging and Durability (AAD), Integrated Intelligent Flight Deck 
(IIFD), and Integrated Resilient Aircraft Control (IRAC).
    The IVHM and the AAD projects will focus on improving the inherent 
resiliency, life-cycle durability, and maintenance of modern aircraft 
and associated onboard systems. The IVHM project will conduct research 
to advance the state of highly integrated and complex flight critical 
health management technologies and systems. Potential benefits include 
reduced occurrence of in-flight system and component failures, and 
onboard systems capable of self-detecting and self-correcting anomalies 
during a flight that could otherwise go unattended until a critical 
failure occurs. The AAD project will develop advanced diagnostic and 
prognostic capabilities for detection and mitigation of aging-related 
hazards. The research and technologies to be pursued will decrease the 
susceptibility of current and next generation aircraft and onboard 
systems to premature deterioration and failures, thus greatly improving 
vehicle safety and mission success.
    New capabilities envisioned for the NGATS such as Super Density 
Operations, Aircraft Trajectory-Based Operations, and Equivalent Visual 
Operations pose potential safety challenges for ensuring optimum crew 
workload distribution and application of advanced flight critical 
automatic and autonomous systems. The AvSP will conduct research on 
advanced vehicle-based capabilities to address potential unintended 
consequences that could compromise vehicle or system safety. The IIFD 
project will pursue flight deck related technologies that will ensure 
that crew workload and situation awareness are both safely optimized 
and adapted to the NGATS future operational environment. A key 
component of this research will be investigating methods to 
automatically monitor, measure, and assess the state of the crew 
awareness to their assigned task. The IRAC project will conduct 
research to advance the state of aircraft flight control automation and 
autonomy in order to prevent loss-of-control in flight, which is the 
accident category that currently has the highest number of aircraft 
accidents. Taking into account the advanced automation and autonomy 
capabilities as envisioned by NGATS, the research will pursue 
methodologies to enable an aircraft to automatically detect, avoid, 
and/or safely recover from an off-nominal condition that could lead to 
a loss of control. A key component of the research will be to develop 
technologies that would enable an aircraft control system to 
automatically adapt or reconfigure itself in the event of a failed or 
damaged component.
Fundamental Aeronautics
    The Fundamental Aeronautics Program (FA) is dedicated to the 
mastery and intellectual stewardship of the core competencies of 
aeronautics across all flight regimes. These regimes span rotorcraft 
and subsonic fixed wing vehicles, supersonics, and hypersonic flight.
    Future aircraft in the NGATS will need to be quiet and clean to 
meet stringent noise and emissions regulations. Additionally, these air 
vehicles will need to meet challenging performance requirements to make 
them economically viable alternatives to the existing fleet. A holistic 
approach to vehicle design will therefore be required in order to 
address multiple and often conflicting design requirements. This in 
turn requires substantial improvements in our current ability to 
predictively design aircraft.
    Today's design tools can be used for incremental improvements to 
existing engines and airframes. However, because they are based on 
empirical knowledge obtained over a long history of small design 
improvements, they cannot be used to design truly innovative engines 
and air vehicles. A key focus of FA will be the development of physics-
based Multidisciplinary Design Analysis and Optimization (MDAO) tools 
that will provide the ability to evaluate radically new vehicle 
designs. They will also enable the ability to assess, with known 
uncertainties, the potential systems impact of innovative technologies 
and concepts. Advancements at the system level will continue to be 
incremental without them. The development of such tools requires a firm 
commitment to both the pursuit of long-term, cutting-edge research 
across the core aeronautics disciplines and the integration of that 
research to enable multidisciplinary tools and technologies. The noise, 
emissions, efficiency and performance of air vehicles are all 
interrelated through core disciplines such as materials, structures, 
aerodynamics, acoustics, combustion, and controls.
    We must acknowledge that these future challenges are so substantial 
that we cannot falter in our commitment to conduct high-quality, 
cutting-edge research to address fundamental scientific and engineering 
issues in such areas as noise source characterization, combustion 
chemistry, alternative fuel chemistry, turbulence modeling, materials 
design, and active flow control. Only by taking a strategic and 
comprehensive approach to air-vehicle research will we be able to 
ensure the future of air transportation in this country.
Aeronautics Test Program
    NASA has established the Shared Capability Asset Program (SCAP), 
which includes the Aeronautics Test Program (ATP). The ATP ensures the 
long-term availability and viability of the set of aeronautics test 
facilities, working with the Department of Defense (DOD) and the U.S. 
aircraft industry, considers being of national strategic importance. 
Several of these facilities will be critical in supporting research 
that directly addresses the research needs of the NGATS. These include 
ground test facilities that are used to simulate adverse weather 
conditions, to measure engine and airframe noise, and to measure engine 
emissions.
Evaluation and Analysis
    In addition to conducting research that directly addresses the 
challenges of the NGATS, NASA provides a direct role in evaluating and 
analyzing proposed systems-level NGATS concepts and architectures. NASA 
personnel are key members of the JPDO Evaluation and Analysis Division 
(EAD), which is now an inherent entity within the JPDO. Many of the 
sophisticated simulations and models being used by the EAD to evaluate 
concepts to ensure that we will be developing a system that will most 
efficiently and effectively meet the needs of tomorrow's air 
transportation system have been developed by NASA. Likewise, NASA 
employs these tools to evaluate the impacts of its own research program 
upon the national objectives for transformation.
Challenges for the JPDO and the Way Ahead
    The JPDO's vision for the NGATS is revolutionary and ambitious, and 
therefore faces some significant challenges. Programmatically, the most 
obvious challenge is that of preserving the strong cooperation that 
currently exists among the member agencies for the next twenty years. 
Such cooperation is often personality-driven, but it must be sustained 
as individuals in each organization come and go. It is therefore 
imperative that the JPDO remains focused on close cooperation at all 
levels. Currently, this is accomplished at the technical level through 
the multi-agency IPTs and the joint architecture council. From an 
oversight perspective, a senior interagency board is in place to 
support the SPC and ensure that high-level leadership is engaged in all 
critical aspects of the NGATS development. All member agencies of the 
JPDO must remain committed to supporting these processes, and the 
processes themselves must continue to evolve as the NGATS development 
matures.
    A perhaps less obvious but equally important challenge is the 
necessity to not compromise technical integrity as the JPDO faces the 
reality of maintaining ``advocacy'' among stakeholders. In other words, 
the JPDO must be willing to adjust technical goals and milestones if 
research results determine that it is necessary to do so. The JPDO 
cannot succumb to political pressures of overselling or overstating 
system-level goals that are found to be technically or economically 
infeasible. A commitment to technical integrity will be critical to the 
long-term success of the JPDO.
    Technically, the most important near-term challenge is the 
development of the Concept of Operations and the Enterprise 
Architecture. This step is necessary to establish system-level 
requirements that are clear, verifiable, and attainable. While the 
capabilities articulated in the JPDO's NGATS vision have enabled each 
agency to vector its research portfolio in the right direction, the 
establishment of detailed system requirements will allow each member 
agency to better refine its R&D plans. Given that every agency has 
budget constraints, and always will, the establishment of an Enterprise 
Architecture will be critical to ensure that each agency prioritizes 
its R&D investments in the manner that provides the maximum return on 
investment for the JPDO. The JPDO intends to provide a preliminary 
Enterprise Architecture by the fall of 2006.
Conclusion
    In conclusion, NASA's ARMD is investing in long-term, cutting-edge 
research in areas that are appropriate to NASA's unique capabilities in 
order to enable the NGATS vision. We have aligned our research 
portfolio to meet this challenge with an efficient allocation of 
resources and an unwavering commitment to technical excellence.
    I would be happy to respond to any questions.

    Senator Burns. Thank you very much, Dr. Porter. We've been 
joined by Senator Lott, who has joined the Committee and is 
very active on this committee. Do you have a statement at this 
time or----
    Senator Lott. Not at this time, Mr. Chairman. I would like 
to hear the witnesses and then I'll have some questions.
    Senator Burns. Thank you very much. We are joined today 
also by Mr. Gerald Dillingham, Director of Civil Aviation 
Issues, U.S. Government Accountability Office, GAO. Gerald, 
thank you for coming today. We look forward to your testimony.

 STATEMENT OF GERALD L. DILLINGHAM, Ph.D., DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Dillingham. Thank you, Mr. Chairman, Senator 
Rockefeller, Chairman Stevens, Senator Lott, Senator Snowe. My 
testimony this morning focuses on the preliminary results of 
our study of JPDO's efforts to plan the Next Generation Air 
Transportation System and the challenges associated with that 
planning effort. I will also identify some key challenges 
related to implementation of the Next Generation System. As 
you've heard from the previous witnesses, the JPDO has made 
notable progress in carrying out its mandate to plan the Next 
Generation System. We generally agree with that assessment. Mr. 
Chairman, there are, however, some critical challenges that 
need to be addressed. High on the list is the appointment of a 
director for JPDO and a chairman of the Senior Policy 
Committee. JPDO has been without a permanent director for 
nearly 6 months and the recent departure of Secretary Mineta 
leaves another senior-level policymaking unit of JPDO without 
permanent leadership. We think a permanent and stable 
leadership is critical to maintaining program momentum and 
stakeholder commitment.
    Another challenge is that the JPDO lacks any real authority 
over agency budgets and generally relies on part-time 
volunteers. This situation could become a serious problem in 
the very near future, as the JPDO's need for staff and fiscal 
resources increases. Technology development presents another 
challenge. At this point, it is unclear which government or 
private sector organization will plan, conduct, and pay for the 
research to advance technologies that will be needed for the 
Next Generation from a fundamental level to a level that could 
be demonstrated in the national airspace system.
    Another challenge is one that the Administrator mentioned 
in her testimony, as well as Dr. Porter, that is the critical 
nature of the timing of the development and refinement of the 
enterprise architecture. The enterprise architecture is the 
blueprint for the Next Generation System that will determine 
the technologies that will make up and be used in the system as 
well as their development and implementation sequence. Mr. 
Chairman, the development of the enterprise architecture is 
also the first challenge I want to point out with regard to the 
implementation of the Next Generation System. The architecture 
will be an important element used in determining what the 
transformation to the Next Generation will cost. To date, only 
very preliminary cost estimates are available. One of these 
estimates indicates that the cost to both continue to operate 
the current national airspace system and transition to the Next 
Generation will require an increase of about $1 billion dollars 
a year between now and 2025, over FAA's current appropriations. 
Mr. Chairman, this estimate is considered by some analysts as a 
low estimate and the need comes at a time of severe resource 
constraints for the entire Federal budget. Our work on the 
current modernization program has shown that if an ATC 
technology received fewer resources than called for in the 
planning documents and those resources were not made available 
when needed, it was a contributing factor to delays in getting 
those technologies into the National AirSpace System as well as 
significant cost increases.
    Another challenge for the Next Generation implementation is 
for FAA to institutionalize the progress that it has made with 
regard to managing and acquiring major ATC systems. Although 
there is more work to be done, for the first time in over a 
decade, the agency met its acquisition performance goals for 
the past 2 years in a row. To its credit, FAA has also made 
cost control a key component of its management philosophy. FAA 
will be challenged to continue to find ways to cut operating 
costs. Mr. Chairman, we believe that based on well-designed 
business and safety cases, the cost savings initiatives that 
FAA has already identified could be expanded. For example, 
Congress and FAA could consider an independent mechanism, such 
as a BRAC-like commission, to re-examine the usefulness and 
cost effectiveness of FAA's existing infrastructure assets. 
This kind of initiative has the potential to identify 
significant cost savings opportunities without compromising 
system safety or efficiency--savings that could be used to 
offset the cost of the Next Generation System.
    Finally, FAA must insure that it has access to the 
personnel and skills that will be necessary to implement the 
Next Generation. This will be one of the government's most 
comprehensive and technically complicated initiatives in recent 
times. To ensure that it has the necessary expertise to 
implement the Next Generation, FAA should continue to explore 
options, including the use of lead systems integrators. Mr. 
Chairman, Senator Rockefeller, and members of the Subcommittee, 
these are all very difficult challenges but this transformation 
to the Next Generation is critical to the Nation's economic 
well-being. Failure or significant delays in implementation 
cannot be an option. Thank you.
    [The prepared statement of Mr. Dillingham follows:]

 Prepared Statement of Gerald L. Dillingham, Ph.D., Director, Physical 
      Infrastructure Issues, U.S. Government Accountability Office
    Mr. Chairman and Members of the Subcommittee:
    We appreciate the opportunity to participate in today's hearing to 
discuss the status of efforts by the Joint Planning and Development 
Office (JPDO) to plan for and coordinate the transformation of the 
Nation's current air traffic control (ATC) system to the ``next 
generation air transportation system'' (NGATS)--a system intended to 
safely accommodate an expected tripling of air traffic by 2025. 
Authorized in 2003, JPDO is housed within the Federal Aviation 
Administration (FAA), whose Air Traffic Organization (ATO) is 
responsible for modernizing and operating the Nation's current ATC 
system.\1\ According to Vision 100,\2\ the legislation that authorized 
JPDO, the transformation to NGATS will be completed by 2025 with the 
assistance of seven organizations that make up JPDO's senior policy 
committee: the Departments of Transportation, Commerce, Defense, and 
Homeland Security; FAA; the National Aeronautics and Space 
Administration (NASA); and the White House Office of Science and 
Technology Policy. As JPDO plans the transformation to NGATS and 
coordinates the related efforts of its partner agencies, FAA will be 
responsible for both implementing the transformation and safely 
operating the current ATC system 24 hours a day, 7 days a week.
    My statement today focuses on three key questions. (1) What is the 
status of JPDO's efforts to plan for NGATS? (2) What key challenges 
does JPDO face in moving forward with its planning efforts? (3) What 
key challenges does FAA face in transitioning from the current ATC 
system and in implementing NGATS? My statement is based on our analysis 
of documents provided by JPDO and its partner agencies; the 
perspectives of agency officials and stakeholders with whom we have 
spoken; the results of a panel of experts that we convened; and our 
review of relevant literature, including JPDO's December 2004 
integrated plan and March 2006 progress report. The statement also 
draws on our prior work on FAA's program for modernizing the national 
airspace system, which we have listed as a high-risk program since 
1995.\3\ To assess JPDO's framework for facilitating coordination among 
its partner agencies, obtaining the participation of non-federal 
stakeholders, and conducting technical planning for NGATS, we compared 
JPDO's practices with those that we have found to be effective in 
facilitating Federal interagency collaboration and enterprise 
architecture \4\ development.\5\ We also reviewed the National Research 
Council's 2005 report on JPDO, which provided a technical assessment of 
the research, development, and technology components of JPDO's 
integrated plan. Later this year, we expect to issue a report on our 
assessment of the status of JPDO's efforts to plan for the development 
of NGATS. We are performing our work in accordance with generally 
accepted government auditing standards.
    The following summarizes our findings to date:

  <bullet> JPDO has developed a framework for planning and coordination 
        with its partner agencies and non-federal stakeholders that is 
        consistent with the requirements of Vision 100 and with several 
        practices that our previous work has shown can facilitate 
        Federal interagency collaboration and enterprise architecture 
        development. Vision 100 established JPDO as a planning and 
        coordinating body and outlined elements for creating NGATS and 
        managing the related work. These elements, which make up JPDO's 
        framework, include an integrated plan that provides a vision 
        for NGATS, an organizational structure and processes for 
        leveraging the resources and expertise of Federal and non-
        federal stakeholders, and an enterprise architecture that 
        defines the specific requirements for NGATS.

  <bullet> JPDO faces leadership, leveraging, and commitment challenges 
        as it moves forward with planning for NGATS. Currently, two 
        leadership positions critical to JPDO's success are vacant: 
        JPDO has not had a permanent director for over 6 months, and 
        since the Secretary of Transportation resigned, the senior 
        policy committee has been without a permanent chairperson. In 
        addition, despite early successes in leveraging its partner 
        agencies' resources and expertise for NGATS initiatives, JPDO 
        may have difficulty continuing to do so because its partner 
        agencies have a variety of missions and priorities in addition 
        to NGATS, and JPDO does not yet have formal, signed agreements 
        with the agencies on their respective roles and 
        responsibilities. JPDO also faces the challenge of convincing 
        non-Federal stakeholders that the government is fully committed 
        to NGATS because, in the past, the government has discontinued 
        work on new technologies for the National Airspace System, 
        including one technology in which a non-federal stakeholder had 
        already invested.

  <bullet> FAA faces challenges in institutionalizing recent 
        improvements in its management and acquisition processes, as 
        well as in obtaining the expertise and resources needed to 
        implement NGATS. First, the successful implementation of NGATS 
        will depend on FAA's incorporating the improved processes into 
        its organizational structure and culture. Second, FAA may not 
        have the expertise needed to manage the NGATS implementation 
        effort. Our work has identified, and FAA is considering, two 
        approaches for addressing this challenge--contracting with a 
        lead systems integrator and obtaining technical advice from 
        federally funded research and development corporations. Third, 
        FAA will need resources to implement NGATS, some of which may 
        have to come from savings in operating and maintaining the 
        current ATC system.
Background
    In late 2003, recognizing that the current approach to managing air 
transportation is becoming increasingly inefficient and operationally 
obsolete, Congress created JPDO to plan NGATS, a system intended to 
accommodate the threefold increase in air traffic demand expected by 
2025. JPDO's scope is broader than that of traditional ATC 
modernization in that it is ``airport curb to airport curb,'' 
encompassing such issues as security screening and environmental 
concerns. Additionally, JPDO's approach will require unprecedented 
collaboration and consensus among many stakeholders--Federal and non-
federal--about necessary system capabilities, equipment, procedures, 
and regulations. Each of JPDO's partner agencies will play a role in 
the transformation to NGATS. For example, the Department of Defense has 
deployed ``network centric'' systems,\6\ originally developed for the 
battlefield, that are being considered as a conceptual framework to 
provide all users of the National Airspace System--FAA and the 
Departments of Defense and Homeland Security--with a common view of 
that system.
    Vision 100 required the Secretary of Transportation to establish 
JPDO within FAA to manage work related to NGATS. The Director of JPDO 
reports to the FAA Administrator and to the Chief Operating Officer 
within ATO. JPDO began operating in early 2004.
JPDO Has Made Progress in Planning for NGATS
    JPDO has developed a framework for planning and coordination with 
its partner agencies and non-federal stakeholders that is consistent 
with the requirements of Vision 100 and with several practices that our 
work has shown can facilitate Federal interagency collaboration and 
enterprise architecture development. This framework includes an 
integrated plan, an organizational structure, and an enterprise 
architecture.
As Required by Vision 100, JPDO Developed an Integrated Plan and 
        Reported on the Progress of That Plan
    Vision 100 calls for the development of an integrated plan for 
NGATS and annual updates on the progress of that plan. JPDO's partner 
agencies developed an integrated plan and submitted it to Congress on 
December 12, 2004. The plan includes a vision statement for meeting the 
predicted threefold increase in demand for air transportation by 2025 
and eight strategies that broadly address the goals and objectives for 
NGATS. In March 2006, JPDO published its first report to Congress on 
the progress made in carrying out the integrated plan.
    The integrated plan is consistent with effective collaboration 
practices we have identified. According to our research on Federal 
interagency collaborations, agencies must have a clear and compelling 
rationale for working together to overcome significant differences in 
their missions, cultures, and established ways of doing business. In 
working together to develop JPDO's integrated plan, the partner 
agencies agreed on a vision statement to transform the air 
transportation system and on broad statements of future system goals, 
performance characteristics, and operational concepts.
JPDO Developed an Organization for Involving Federal and Non-Federal 
        Stakeholders
    Vision 100 includes requirements for JPDO to coordinate and consult 
with its partner agencies, private sector experts, and the public. 
Accordingly, JPDO established an organizational structure to involve 
Federal and non-federal stakeholders throughout the organization. This 
structure includes a Federal interagency policy committee, an institute 
for non-federal stakeholders, and integrated product teams (IPT) that 
bring together Federal and non-federal experts to plan for and 
coordinate the development of technologies that will address JPDO's 
eight broad strategies.

  <bullet> JPDO's senior policy committee was formed and is headed by 
        the Secretary of Transportation, as required in Vision 100. The 
        committee includes senior-level officials from JPDO's partner 
        agencies and has met three times since its inception.

  <bullet> The NGATS Institute (the Institute) was created by an 
        agreement between the National Center for Advanced Technologies 
        \7\ and FAA to incorporate the expertise and views of 
        stakeholders in private industry, state and local governments, 
        and academia. The NGATS Institute Management Council, composed 
        of top officials and representatives from the aviation 
        community, oversees the policy and recommendations of the 
        Institute and provides a means for advancing consensus 
        positions on critical NGATS issues. In March 2006, the 
        Institute held its first public meeting to solicit information 
        from the public and other interested stakeholders who are not 
        involved in the council or the IPTs. These types of meetings 
        are designed to address the Vision 100 requirement that JPDO 
        coordinate and consult with the public.

  <bullet> The IPTs are headed by representatives of JPDO's partner 
        agencies and include more than 190 stakeholders from over 70 
        organizations, whose participation was arranged through the 
        Institute.

    Figure 1 shows JPDO's position within FAA and the JPDO structures 
that bring together Federal and non-federal stakeholders, including the 
Institute and the IPTs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    JPDO's organizational structure incorporates some of the practices 
we have found effective for Federal interagency collaborations. For 
example, our work has shown that mutually reinforcing or joint 
strategies can help align partner agencies' activities, core processes, 
and resources to accomplish a common outcome. Each of the eight IPTs is 
aligned with one of the eight strategies outlined in JPDO's integrated 
plan, and each is headed by a partner agency that has taken the lead on 
a specific strategy. Our research has also found that collaborating 
agencies should identify the resources needed to initiate or sustain 
their collaborative effort. To leverage human resources, JPDO has 
staffed the various levels of its organization--including JPDO's board, 
the IPTs, and technical divisions--with partner agency employees, many 
of whom work part time for JPDO. Finally, our work has shown that 
involving stakeholders can, among other things, increase their support 
for a collaborative effort. The Institute provides for involving non-
federal stakeholders, including the public, in planning NGATS.
JPDO Has Begun to Leverage the Resources of Its Partner Agencies for 
        NGATS
    Vision 100 requires JPDO to coordinate NGATS-related programs 
across the partner agencies. To address this requirement, JPDO 
conducted an initial interagency review of its partner agencies' 
research and development programs during July 2005 to identify work 
that could support NGATS. Through this process, JPDO identified early 
opportunities that could be pursued during Fiscal Year 2007 to 
coordinate and minimize the duplication of research programs across the 
partner agencies and produce tangible results for NGATS. For example, 
one identified opportunity is to align aviation weather research across 
FAA, NASA, and the Departments of Commerce and Defense; develop a 
common weather capability; and harmonize and incorporate into NGATS 
those agency programs designed to seamlessly integrate weather 
information and aircraft weather mitigation systems. In addition, the 
Automatic Dependent Surveillance-Broadcast (ADS-B) \8\ and System Wide 
Information System (SWIM) \9\ programs at FAA were identified as 
opportunities for accelerated funding to produce tangible results for 
NGATS. JPDO is currently working with the Office of Management and 
Budget to develop a systematic means of reviewing the partner agencies' 
budget requests so that the NGATS-related funding in each request can 
easily be identified. Such a process would help the Office of 
Management and Budget consider NGATS as a unified Federal investment, 
rather than as disparate line items distributed across several 
agencies' budget requests.
    JPDO's effort to leverage its partner agencies' resources for NGATS 
demonstrates another practice important to sustaining collaborations. 
Our work on collaborations has found that collaborating agencies, by 
assessing their relative strengths and limitations, can identify 
opportunities for leveraging each others' resources and thus obtain 
benefits that would not be available if they were working separately. 
JPDO's first interagency review of its partner agencies' research and 
development programs has facilitated the leveraging of technological 
resources for NGATS. The budget process under development with OMB 
provides a further opportunity to leverage resources for NGATS.
Consistent with Vision 100, JPDO Is Developing an Enterprise 
        Architecture
    Vision 100 requires JPDO to create a multiagency research and 
development roadmap for the transition to NGATS. To comply with Vision 
100, JPDO has been working on an enterprise architecture and expects to 
complete an early version of the architecture by September 2006. Many 
of JPDO's future activities will depend on the robustness and 
timeliness of this architecture development. The enterprise 
architecture will describe FAA's operation of the current national 
airspace system, JPDO's plans for NGATS, and the sequence of steps 
needed for the transformation to NGATS. The enterprise architecture 
will provide the means for coordinating among the partner agencies and 
private sector manufacturers, aligning relevant research and 
development activities, and integrating equipment.
    JPDO has taken several important steps to develop the enterprise 
architecture--one of the most critical planning documents in the NGATS 
effort. For example, JPDO has drafted a concept of operations--a 
document that describes the operational transformations needed to 
achieve the overall goals of NGATS. JPDO has used this document to 
identify key research and policy issues for NGATS. For example, the 
concept of operations identifies several issues associated with 
automating the ATC system, including the need for a backup plan in case 
automation fails, the responsibilities and liabilities of different 
stakeholders during an automation failure, and the level of monitoring 
needed by pilots when automation is ensuring safe separation between 
aircraft. As the concept of operations matures, it will be important 
for air traffic controllers and other affected stakeholders to provide 
their perspectives on this effort so that needed adjustments can be 
made in a timely manner. JPDO officials recognize the importance of 
obtaining stakeholders' comments on the concept of operations and are 
currently incorporating stakeholders' comments into the concept of 
operations. JPDO expects to release its initial concept of operations 
by the end of July.
    Another step that JPDO has taken to develop the enterprise 
architecture is to form an Evaluation and Analysis Division (EAD), 
composed of FAA and NASA employees and contractors. This division is 
assembling a suite of models to help JPDO refine its plans for NGATS 
and iteratively narrow the range of potential solutions. For example, 
EAD has used modeling to begin studying how possible changes in the 
duties of key personnel, such as air traffic controllers, could affect 
the workload and performance of others, such as airport ground 
personnel. According to JPDO officials, the change in the roles of 
pilots and controllers is the most important human factors issue 
involved in creating NGATS. JPDO officials noted that the Agile 
Airspace and Safety IPTs include human factors specialists and that 
JPDO's chief architect has a background in human factors. However, EAD 
has not yet begun to model the effect of the shift in roles on pilots' 
performance because, according to an EAD official, a suitable model has 
not yet been incorporated into the modeling tool suite. According to 
EAD, addressing this issue is necessary, but will be difficult because 
data on pilot behavior are not readily available for use in creating 
such models. Furthermore, EAD has not yet studied the training 
implications of various NGATS-proposed solutions because further 
definition of the concept of operations for these solutions is needed. 
As the concept of operations and enterprise architecture mature, EAD 
will be able to study the extent to which new air traffic controllers 
will have to be trained to operate both the old and the new equipment.
    To develop and refine the enterprise architecture for NGATS, JPDO 
is following an effective technology development practice that we 
identified and applied to enterprise architecture development. This 
phased, ``build a little, test a little'' approach is similar to a 
process we have advocated for FAA's major system acquisition programs. 
This phased approach will also allow JPDO to incorporate evolving 
market forces and technologies in its architecture and thus better 
manage change. Consequently, additional refinements are expected to be 
made to the enterprise architecture.
As Required by Vision 100, JPDO Has Begun Efforts to Estimate the Costs 
        of NGATS
    Vision 100 requires JPDO to identify the anticipated expenditures 
for developing and deploying NGATS. To begin estimating these 
expenditures realistically, JPDO is holding a series of investment 
analysis workshops with stakeholders to obtain their input on potential 
NGATS costs. The first workshop, held in April 2006, was for commercial 
and business aviation, equipment manufacturers, and ATC systems 
developers. The second workshop is planned for August for operators of 
lower-performance aircraft used in both commercial and noncommercial 
operations. The third workshop, planned for early September, will focus 
on airports and other local, state, and regional planning bodies.
    Although these workshops will help JPDO develop a range of 
potential costs for NGATS, a mature enterprise architecture is needed 
to provide the foundation for developing NGATS costs. Several unknown 
factors will drive these costs. According to JPDO, one of these drivers 
is the technologies expected to be included in NGATS. Some of these 
technologies are more complex and thus more expensive to implement than 
others. A second driver is the sequence for replacing current 
technologies with NGATS technologies. A third driver is the length of 
time required for the transformation to NGATS, since a longer period 
would impose higher costs. JPDO's first draft of its enterprise 
architecture, expected in September 2006, could reduce some of these 
variables, thereby allowing improved, albeit still preliminary, 
estimates of NGATS' costs.
    Although the enterprise architecture for NGATS is not yet complete, 
both FAA and its Research, Engineering and Development Advisory 
Committee (REDAC) have developed preliminary cost estimates, which 
officials of both organizations have emphasized are not yet endorsed by 
any agency. FAA estimates that the facilities and equipment cost to 
maintain the ATC system and implement the transformation to NGATS will 
be about $66 billion, or about $50 billion in constant 2005 dollars. 
The annual cost would average $2.7 billion per year in constant 2005 
dollars from Fiscal Year 2007 through Fiscal Year 2025, or about $200 
million more each year than FAA's Fiscal Year 2006 facilities and 
equipment appropriation.
    REDAC's Financing NGATS Working Group has developed a $15 billion 
average annual cost estimate for NGATS that includes costs not only for 
facilities and equipment but also for operations; airport improvement; 
and research, engineering, and development--the remaining three 
components of FAA's appropriation. As table 1 indicates, the working 
group began with FAA's facilities and equipment estimate and went on to 
calculate the remaining costs for FAA to maintain the current ATC 
system and implement the transformation to NGATS. REDAC's estimate for 
NGATS's total cost averages about $1 billion more annually than FAA's 
total appropriations for Fiscal Year 2006.

           Table 1: FAA's and REDAC's Cost Estimates for NGATS
                          (Dollars in billions)
------------------------------------------------------------------------
                                            FAA              REDACa
                                    ------------------------------------
                                      Total   Average   Total    Average
                                      NGATS    annual   NGATS    annual
                                       cost     cost     cost     cost
------------------------------------------------------------------------
Facilities and equipment               $50.5     $2.7    $50.5      $2.7
Operations                                 b        b   $162.1      $8.5
Airport improvement                        b        b    $67.5      $3.6
Research, engineering, and                 b        b    $12.4      $0.7
 development
------------------------------------------------------------------------
    Total                                  b        b   $292.5     $15.5
------------------------------------------------------------------------
Source: GAO analysis of FAA and REDAC information.
a This is the working group's estimate under its ``base case'' scenario,
  which assumes that FAA's operations cost would increase between 2006
  and 2010, but then become constant through 2025 as productivity
  increases offset the higher cost of increased demand. The working
  group also calculated a lower-cost ``best case'' scenario and a higher-
  cost ``worst case'' scenario using differing assumptions of
  productivity gains.
b FAA did not estimate these costs.

    Besides being preliminary, these estimates are incomplete--FAA's 
more than REDAC's because FAA's does not include any costs other than 
those for facilities and equipment. An FAA official acknowledged that 
the agency would likely incur additional costs, such as for safety 
certifications or operational changes responding to new NGATS 
technologies. Additionally, FAA's facilities and equipment cost 
estimate assumes that the intermediate technology development work, 
performed to date by NASA, has been completed. As I will discuss 
shortly, it is currently unclear who will now perform this work, but if 
FAA assumes responsibility for the work, REDAC has estimated additional 
FAA funding needs of at least $100 million a year. Furthermore, neither 
FAA's nor REDAC's estimate includes the other partner agencies' costs 
to implement NGATS, such as those that the Department of Homeland 
Security might incur to develop and implement new security 
technologies. Finally, these estimates treat NGATS's development and 
implementation period as an isolated event. Consequently, the costs 
drop dramatically toward 2025. In reality, officials who developed 
these estimates acknowledge that planning for the subsequent ``next 
generation'' system will likely be underway as 2025 approaches and the 
actual modernization costs could therefore be higher in this timeframe 
than these estimates indicate.
JPDO Faces Leadership, Resource, and Commitment Challenges as It Moves 
        Forward with Planning for NGATS
    JPDO faces several challenges in planning for NGATS, including 
addressing leadership vacancies, leveraging resources and expertise 
from its partner agencies, and convincing non-federal stakeholders that 
the government is fully committed to NGATS.
Two Key JPDO Leadership Positions Are Vacant
    JPDO has not had a permanent director since January 2006 and, with 
the recent resignation of the Secretary of Transportation, the senior 
policy committee is without a permanent chairperson. Our work has shown 
that, to overcome barriers to interagency coordination, committed 
leadership by individuals at the top of all involved organizations is 
critical. Leadership will also be important to provide a ``champion'' 
for JPDO and to sustain the partner agencies' focus on and 
contributions to the transformation to NGATS. Moreover, without a 
chairperson of the senior policy committee, no one within JPDO is 
responsible for sustaining JPDO's collaboration and overseeing its 
work.
    These vacancies raise concerns about the continued progress of JPDO 
and NGATS. After ATO was authorized, we reported that without a chief 
operating officer, FAA was unable to move forward with the new air 
traffic organization--that is, to bring together the ATC system's 
acquisition and operating functions, as intended, into a viable 
performance-based organization (PBO).\10\ This PBO was designed to be 
part of the solution to the chronic schedule delays, cost overruns, and 
performance shortfalls in FAA's ATC modernization program. We believe 
that filling the two vacant positions is critical to ensure continued 
progress for JPDO and NGATS.
Leveraging Resources and Expertise Poses a Challenge over Time
    JPDO officials view leveraging the partner agencies' resources and 
expertise as one of their most significant challenges. According to 
JPDO officials, leveraging efforts have worked well so far, but JPDO's 
need for resources and expertise will increase with the development of 
NGATS, and for at least two reasons, JPDO may have difficulty meeting 
this need. First, JPDO's partner agencies have a variety of missions 
and priorities in addition to NGATS, and their priorities may change. 
Recently, for example, NASA reduced its aeronautics budget and decided 
to focus on fundamental \11\ research, in part because the agency 
believes such research is more in keeping with its mission and unique 
capabilities. These changes occurred even though NASA's current 
reauthorization act requires the agency to align its aviation research 
projects to directly support NGATS goals. In light of the changes, it 
is unclear what fundamental research NASA will perform to support NGATS 
and who will perform the development steps for that research--that is, 
the validation and demonstration that must take place before a new 
technology can be transferred to industry and incorporated into a 
product. JPDO and FAA officials said that not enough is understood 
about NASA's plans to assess the impact of NASA's action on NGATS, but 
many experts told us that NASA's new focus on fundamental research 
creates a gap in the technology development continuum. Some believe 
that FAA has neither the research and development infrastructure nor 
the funding to do this work. As I previously mentioned, REDAC, in a 
draft report, estimated that FAA would need at least $100 million 
annually in increased funding to perform this research and development 
work. REDAC further estimated that establishing the necessary 
infrastructure within FAA could delay the implementation of NGATS by 5 
years.
    Second, JPDO may have difficulty leveraging its partner agencies' 
resources and expertise because it does not yet have formal, long-term 
agreements with the agencies on their roles and responsibilities in 
creating NGATS. According to JPDO officials, they are working to 
establish memorandums of understanding (MOU) signed by the heads of the 
partner agencies that will broadly define the partner agencies' roles 
and responsibilities at a high level. JPDO is also developing more 
specific MOUs with individual partner agencies that lay out 
expectations for support on NGATS components, such as information 
sharing through network-centric operations.
    Obtaining the specialized expertise of some stakeholders poses an 
additional challenge for JPDO. Air traffic controllers, for example, 
will play a key role in NGATS, but their union is not participating in 
JPDO. Currently, the ATC system relies primarily on air traffic 
controllers to direct pilots to maintain safe separation between 
aircraft. Under NGATS, this premise could change and, accordingly, JPDO 
has recognized the need for human factors research on issues such as 
how tasks should be allocated between humans and automated systems and 
how the existing allocation of responsibilities between pilots and air 
traffic controllers might change. The input of current air traffic 
controllers who have recent experience controlling aircraft is 
important in considering human factors and safety issues because of the 
controllers' familiarity with existing operating conditions.
    The air traffic controllers' labor union, the National Air Traffic 
Controllers Association (NATCA), has not participated in NGATS since 
June 2005, when FAA terminated a labor liaison program that assigned 
air traffic controllers to major system acquisition program offices and 
to JPDO. FAA had determined that the benefits of the program were not 
great enough to justify its cost. The NGATS Institute Management 
Council includes a seat for the union, but a NATCA official told us 
that the union's head had been unable to attend the council's meetings. 
According to JPDO officials, the council has left a seat open in hopes 
that the controllers will participate in NGATS as the new labor-
management agreement between NATCA and FAA is implemented.
Convincing Non-Federal Stakeholders That the Government Is Fully 
        Committed to NGATS Presents Another Challenge
    Convincing non-federal stakeholders that the government is fully 
committed to NGATS poses a challenge because, in the past, the 
government has stopped some modernization efforts, including one in 
which an airline had already invested in supporting technologies. 
Specifically, FAA developed a datalink communications system that 
transmitted scripted e-mail-like messages between controllers and 
pilots. One airline equipped some of its aircraft with this new 
technology, but because of funding cuts, among other things, FAA 
canceled the program. Moreover, as we have reported,\12\ some aviation 
stakeholders have expressed concern that FAA may not follow through 
with its airspace redesign efforts and are hesitant to invest in 
equipment unless they are sure that FAA will remain committed to its 
efforts. One expert suggested that the government might mitigate this 
issue by making an initial investment in a specific technology before 
requesting that airlines or other industry stakeholders purchase 
equipment.
    Stakeholders' belief that the government is fully committed to 
NGATS will be important as efforts to implement NGATS technologies move 
forward. Achieving many of the benefits of NGATS will require users of 
the system--airlines and general aviation--to purchase NGATS-compatible 
technologies, such as ADS-B. This new air traffic surveillance system, 
which JPDO has identified as one of the early core technologies for 
NGATS, requires aircraft to be equipped with components that will be 
implemented in two phases. FAA anticipates significant cost savings 
from the implementation of the first phase, but the airlines do not 
expect to benefit until the second phase is complete. The technology 
should then allow pilots to fly more precise routes at night and in 
poor visual conditions. Another early core technology for NGATS, SWIM, 
is also intended to produce benefits for users, but again, it is not 
expected to do so for many years. Non-Federal stakeholders' support for 
these and other NGATS technologies will be important, and their support 
will depend, in part, on their assurance of the government's full 
commitment.
FAA Faces Institutionalization, Expertise, and Resource Challenges as 
        It Transitions to NGATS
    FAA faces challenges in implementing NGATS, including 
institutionalizing recent improvements in its management and 
acquisition processes, acquiring expertise to implement highly complex 
systems, and achieving cost savings to help fund NGATS technologies.
Institutionalizing Recent Improvements in Management and Acquisition 
        Processes Will Be Critical to the Successful Implementation of 
        NGATS
    With the establishment of ATO and the appointment of a Chief 
Operating Officer (COO) for it, FAA put a new management structure in 
place and established more businesslike management and acquisition 
processes to address the cost, schedule, and performance shortfalls 
that have plagued ATC modernization over the years. Under the new 
structure, FAA is a flatter organization, with fewer management layers, 
and managers are in closer contact with the services they deliver. FAA 
has also taken some steps to break down the vertical lines of 
authority, or organizational stovepipes, that we found hindered 
communication and coordination across FAA. For example, the COO holds 
daily meetings with the managers of ATO's departments and holds the 
managers collectively responsible for the success of ATO through the 
performance management system.
    FAA has revised its management processes to increase 
accountability. For example, it has established a cost accounting 
system and made the units that deliver services within each department 
responsible for managing their own costs. Thus, each unit manager 
develops an operating budget and is held accountable for holding costs 
within specific targets. Managers track the costs of their unit's 
operations, facilities and equipment, and overhead and use this 
information to determine the costs of the services their unit provides. 
Managers are evaluated and rewarded according to how well they hold 
their costs within established targets. Our work has shown that it is 
important, when implementing organizational transformations, to use a 
performance management system to assure accountability for change.\13\
    Finally, FAA is revising its acquisition processes, as we 
recommended,\14\ and taking steps to improve oversight, operational 
efficiency, and cost control. To ensure executive-level oversight of 
all key decisions, FAA has revised its Acquisition Management System to 
incorporate key decision points in a knowledge-based product 
development process. Moreover, as we have reported, an executive 
council now reviews major acquisitions before they are sent to FAA's 
Joint Resources Council.\15\ To better manage cost growth, this 
executive council also reviews breaches of 5 percent or more in a 
project's cost, schedule, or performance. FAA has issued guidance on 
how to develop and use pricing, including guidelines for disclosing the 
levels of uncertainty and imprecision that are inherent in cost 
estimates for major ATC systems. Additionally, FAA has begun to base 
funding decisions for system acquisitions on a system's expected 
contribution to controlling operating costs. Finally, FAA is creating a 
training framework for its acquisition workforce that mirrors effective 
human capital practices that we have identified, and the agency is 
taking steps to measure the effectiveness of its training.
    Since 2004, FAA has met its acquisitions performance goal--to have 
80 percent of its system acquisitions on schedule and within 10 percent 
of budget. To sustain this record, FAA will need to institutionalize 
its reforms--that is, provide for their duration beyond the current 
administration at FAA and ATO by ensuring that the reforms are fully 
integrated into the agency's structure and processes at all levels and 
have become part of its organizational culture. Our work has shown that 
successfully institutionalizing change in large public and private 
organizations can take 5 to 7 years or more.\16\
Despite Recent Process Improvements, FAA Faces Challenges in Obtaining 
        the 
        Expertise Needed to Implement a System as Complex as NGATS
    In the past, a lack of expertise contributed to shortfalls in FAA's 
management of ATC modernization projects. Although the personnel 
flexibilities that Congress authorized in 1995 allowed FAA to establish 
criteria for outstanding performance and match industry pay scales for 
needed expertise, industry experts have questioned whether FAA will 
have the technical expertise needed to implement NGATS--a task of 
unprecedented complexity, according to JPDO, FAA, and other aviation 
experts. In 2004, we found that FAA could not ensure that its own best 
practices were consistently used in managing acquisitions and, as a 
result, its major acquisitions were still at risk of cost overruns, 
schedule slippages, or performance shortfalls.\17\ These findings are 
consistent with concerns about the expertise of acquisition managers 
governmentwide. According to a 2005 study by the Merit Systems 
Protection Board,\18\ at least 50 percent of the government personnel 
who currently manage technical contracts reported needing training in 
areas such as contract law, developing requirements, requesting bids, 
developing bid selection criteria and price determinations, and 
monitoring contractor performance.
    Recognizing the complexity of the NGATS implementation effort and 
the possibility that FAA may not have the in-house expertise to manage 
it without assistance, we have identified potential approaches for 
supplementing FAA's capabilities. One of these approaches is for FAA to 
contract with a lead systems integrator (LSI). Generally, an LSI is a 
prime contractor that would help to ensure that the discrete systems 
used in NGATS will operate together and whose responsibilities may 
include designing system solutions, developing requirements, and 
selecting major system and subsystem contractors. The government has 
used LSIs before for programs that require the integration of multiple 
complex systems. Our research indicates that although LSIs have certain 
advantages, such as the knowledge, understanding, skills, and ability 
to integrate functions across various systems, their use also entails 
certain risks. For example, because an LSI may have significantly more 
responsibility than a prime contractor usually does, careful oversight 
is necessary to ensure that the government's interests are protected 
and that conflicts of interest are avoided. Consequently, selecting, 
assigning responsibilities to, and managing an LSI could pose 
significant challenges for JPDO and FAA.
    Another approach that we have identified involves obtaining 
technical advice from federally funded research and development 
corporations to help the agency oversee and manage prime contractors. 
These nonprofit corporations are chartered to provide long-term 
technical advice to government agencies in accordance with various 
statutory and regulatory rules to ensure independence and prevent 
conflicts of interest.
    FAA officials indicated that they are considering at least these 
two approaches to help address any possible gaps the agency may have in 
its technical expertise. Given the complexity of implementing NGATS, we 
believe that FAA's consideration of these approaches to filling any 
gaps in its technical expertise is appropriate. We believe that either 
of these approaches could reduce the risks associated with implementing 
NGATS.
FAA Will Require Resources to Implement NGATS
    The cost of operating and maintaining the current ATC system while 
implementing NGATS will be another important challenge in transitioning 
to NGATS--a system that, as noted, is broader in scope than the current 
ATC system and will require funding for security technologies and 
environmental activities as well as ATC technologies. Although 
additional funding for the current ATC system and for NGATS may come 
from increased congressional appropriations, some industry analysts 
expect that most of the funds for implementing NGATS will have to come 
from savings in operating and maintaining the current ATC system.
    FAA is currently seeking to reduce costs by introducing 
infrastructure and operational efficiencies and expects to use the 
savings from these efforts to help fund the implementation of NGATS. 
For example, FAA has begun to decommission ground-based navigational 
aids, such as compass locators, outer markers, and nondirectional radio 
beacons, as it begins to move toward a satellite-based navigation 
system. In Fiscal Year 2005, FAA decommissioned 177 navigational aids, 
claiming savings of $2.9 million. According to one expert, FAA could 
additionally generate revenue from these sites by leasing them for 
warehouses or cell phone towers. FAA also expects to reduce costs by 
streamlining its operations. For example, it is consolidating its 
administrative activities, currently decentralized across its nine 
regions, into three regions, and anticipates an annual savings of up to 
$460 million over the next 10 years. Our work analyzing international 
air navigation service providers has shown that additional cost savings 
may be possible by further consolidating ATC facilities such as 
terminal radar approach control (TRACON) facilities and ATC centers. 
According to one estimate of potential FAA savings, consolidating the 
existing 21 air route traffic control centers into 6 centers could save 
approximately $600 million per year. Finally, FAA expects to save costs 
through outsourcing. For example, it outsourced its automated flight 
service stations to a private contractor and expects to achieve savings 
of $1.7 billion over 10 years. In addition, it expects savings of $0.5 
billion from 400 staffing reductions that occurred between the time the 
outsourcing began and the time the new contract was actually 
implemented. The agency expects to receive $66 million--the first 
installment of these cost savings--in Fiscal Year 2007.
    Until FAA has completed its estimates of both NGATS costs and the 
cost savings it will be able to achieve between now and 2025, it will 
not be able to determine how far these cost savings will go toward 
financing NGATS. Nonetheless, one analyst has preliminarily estimated 
that FAA's expected savings through infrastructure and operational 
efficiencies will fall far short of the amount needed to finance 
NGATS.\19\ While more information is needed to estimate the amount of 
any shortfall with greater confidence, these preliminary and incomplete 
estimates signal the extent of the resource challenge.
    Mr. Chairman, this concludes my statement. We would be pleased to 
answer any questions that you and members of the Subcommittee may have.
Contact and Staff Acknowledgments
    Individuals making key contributions to this statement include 
Kevin Egan, Elizabeth Eisenstadt, David Hooper, Heather Krause, 
Elizabeth Marchak, Edmond Menoche, Faye Morrison, Taylor Reeves, and 
Richard Scott.
ENDNOTES
    \1\ Although ATO is immediately responsible for modernizing the ATC 
system, we will refer to FAA throughout this statement because it 
encompasses JPDO and is ultimately responsible for the modernization 
effort.
    \2\ Pub. L. 108-176, Vision 100--Century of Aviation 
Reauthorization Act, December 12, 2003.
    \3\ ATC modernization has remained on our high-risk list since 
1995. See GAO, High Risk Series: An Update, GAO-05-207 (Washington, 
D.C.: January 2005).
    \4\ An enterprise architecture is a tool, or blueprint, for 
understanding and planning complex systems. The NGATS enterprise 
architecture will provide the means for coordinating among the partner 
agencies and private sector manufacturers, aligning relevant research 
and development activities, and integrating equipment. The enterprise 
architecture will describe the current national airspace system, NGATS, 
and the sequence of steps needed to implement the transformation to 
NGATS.
    \5\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, D.C.: Oct. 21, 2005) and GAO, Federal Aviation 
Administration: Stronger Architecture Program Needed to Guide Systems 
Modernization Efforts, GAO-05-266 (Washington, D.C.: Apr. 29, 2005).
    \6\ Network-centric systems aim to exploit technical advances in 
information technology and telecommunications to improve situational 
awareness and the speed of decision-making.
    \7\ The National Center for Advanced Technologies is a nonprofit 
unit within the Aerospace Industries Association.
    \8\ ADS-B is a surveillance technology that transmits an aircraft's 
identity, position, velocity, and intent to other aircraft and to ATC 
systems on the ground, thereby enabling pilots and controllers to have 
a common picture of airspace and traffic. By providing pilots with a 
display that shows the location of nearby aircraft, the system enables 
pilots to collaborate in decision-making with controllers, safely 
allowing reduced aircraft separation and thereby increasing capacity 
within the national airspace system.
    \9\ SWIM is expected to help in the transition to network-centric 
operations by providing the infrastructure and associated policies and 
standards to enable information sharing among all authorized system 
users, such as the airlines, civilian government agencies, and the 
military.
    \10\ GAO, National Airspace System: Current Efforts and Proposed 
Changes to Improve Performance of FAA's Air Traffic Control System; 
GAO-03-542 (Washington, D.C.: May 30, 2003).
    \11\ NASA uses the term fundamental to refer to research that 
includes continued long-term, scientific study in core areas such as 
physics, chemistry, materials, experimental techniques, and 
computational techniques to enable new capabilities and technologies 
for individual and multiple disciplines.
    \12\ GAO, National Airspace System: Transformation will Require 
Cultural Change, Balanced Funding Priorities, and Use of All Available 
Management Tools, GAO-06-154 (Washington, D.C.: Oct. 14, 2005).
    \13\ GAO-03-542.
    \14\ GAO, Air Traffic Control: FAA's Acquisition Management Has 
Improved, but Policies and Oversight Need Strengthening to Help Ensure 
Results, GAO-05-23 (Washington, D.C.: Nov. 12, 2004).
    \15\ GAO-05-23.
    \16\ GAO, Results-Oriented Cultures: Implementation Steps to Assist 
Mergers and Organizational Transformations, GAO-03-669 (Washington, 
D.C.: July 2, 2003).
    \17\ GAO-05-23.
    \18\ U.S. Merit Systems Protection Board, Contracting Officer 
Representatives: Managing the Government's Technical Experts to Achieve 
Positive Contract Outcomes (Washington, D.C.: Dec. 2005).
    \19\ Aviation Management Associates, Inc., The ``No New Money'' 
Scenario for the Next Generation Air Transportation System, 
(Alexandria, VA: Oct. 1, 2005).

    Senator Burns. Thank you and we appreciate the good work 
that you've done and the testimony that you've offered this 
committee over the years. It has been very, very good and very 
solid and put in a language that we can all understand.
    Mr. Dillingham. Thank you, Mr. Chairman.
    Senator Burns. We appreciate that very much. Now we have 
Mr. David Dobbs, Assistant Inspector General for Aviation, down 
at the Department of Aviation. Thank you for coming this 
morning. I look forward to your comments.
    Mr. Dobbs. Mr. Chairman and members of the Subcommittee, we 
appreciate----
    Senator Burns. You might want to get into that microphone.
    Mr. Dobbs. I'm sorry. Is this better?
    Senator Burns. And by the way, Senator Snowe has joined the 
Committee. Do you have a statement or?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. I do. I'll just include it in the record.
    Senator Burns. Without objection, that will be done.
    [The prepared statement of Senator Snowe follows:]

    Prepared Statement of Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr.Chairman, for convening this hearing to 
explore the reasons behind some of the delays in modernizing 
our air traffic control system.
    The evolution of the next generation of air traffic control 
systems must not only utilize the cutting edge technology that 
would greatly improve the safety of our crowded skies, but we 
must not overlook or alienate the incredibly skilled workforce 
that is so vital to maintaining and operating that same 
technology.
    The creation of the Joint Planning and Development Office, 
in conjunction with the Air Traffic Organization, is one that 
reflects the vast changes that have taken place within our Air 
Traffic Control System, and the critical need to address those 
same changes. As many of our controllers age and consider 
retirement, and the Federal Aviation Administration fails to 
sufficiently reinvest in their personnel, new technology is 
looked to as a replacement for many of our human resources. I 
will not pass judgment on the validity of this thought process, 
but I do have serious concerns about the potential ``Safety 
Gap'' that could arise. If the technologically based ``Next 
Generation Air Traffic System,'' or NGATS [En-Gatts] is not due 
to be in place until the year 2025, and a startling number of 
our Controllers, 25 percent according to an article in the 
Philadelphia Inquirer, are eligible to retire by the end of 
this year, then where does that leave us insofar as securing 
our skies? At the TRACON in Chicago, for example, nearly half 
of those controllers are eligible to retire. With O'Hare 
Airport as the busiest airport in the country according to the 
FAA's recently released statistics, if only half of those 
controllers in Chicago were to opt for retirement, that would 
result in nearly a 25 percent cut in controller personnel. 
Imagine a potential ``perfect storm'' with increased 
enplanements, more regional and very light jets in the air, and 
fewer controllers watching our skies and directing traffic. 
Worse than gridlock in our skies, it would be an accident 
waiting to happen. A potentially catastrophic accident.
    Our aviation industry is vital to our Nation's economy, and 
the global economy. If we are ill-prepared to accommodate more 
operations, more passengers, and more cargo, we will be left 
behind by other nations better suited to do just that. That is 
unacceptable. But an inability to navigate our skies could have 
a tremendous impact on our industry; delaying the delivery of 
air cargo, escalating numbers of runway incursions, and raising 
the question of safety in the minds of our flying public. This 
sort of hit would be a knock-out blow to many in the aviation 
industry; one they could not survive a second time.
    I am encouraged that the JPDO office is serving as a 
warehouse for all the relevant agencies that, on their own, 
would never be able to come together on such an ambitious 
project. I urge them to speed along any advancements that are 
ready for even partial implementation. However, we must be 
certain that the industry is adequately consulted as we move 
forward on the NGATS proposals. If JPDO's European counterpart, 
SESAR, is actively courting the industry as they advance their 
own new paradigm for air traffic management, we must 
realistically consider following suit. We cannot allow European 
aerospace and aviation interests to drive their modernization 
efforts while we here in America have a bureaucracy developing 
our proposal with little or no input from private industry. I 
believe that amounts to handing over a competitive advantage to 
foreign interests, which must be guarded against in this global 
marketplace.
    America has always been at the forefront of aviation, the 
measuring stick by which other nations evaluate their own 
systems. We must do all we can to retain that position. I look 
forward to the testimony of our esteemed panel today. Thank 
you, Mr. Chairman.

    Senator Burns. Thank you, Mr. Dobbs. You may proceed.

       STATEMENT OF DAVID A. DOBBS, ASSISTANT INSPECTOR 
GENERAL FOR AVIATION AND SPECIAL PROGRAM AUDITS, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Dobbs. Mr. Chairman and members of the Subcommittee, we 
appreciate the opportunity to discuss the JPDO and plans for 
the Next Generation System. We know this is a priority for the 
Subcommittee. Today, I'll limit my testimony to three points. 
First, the important role JPDO plays in leveraging resources. A 
multi-agency approach is critical for a number of reasons. One 
is that 70 percent of FAA's research budget of about $130 
million goes for safety not air traffic management research. 
Two, FAA is requesting $2.5 billion for its capital account, 
which is $50 million less than last year's request and more 
than $500 million less than the authorized level. More 
importantly, FAA's capital account now focuses on keeping 
things running, not new initiatives and only about 55 percent 
of that capital account actually goes for new systems. As 
Administrator Blakey pointed out, despite the tight budget, two 
important projects in 2007 are included in FAA's FY 2007 budget 
request: ADS-B and SWIM. We agree that ADS-B has tremendous 
potential for changing the way that air traffic is managed.
    I would also like to highlight ongoing multibillion-dollar 
projects that will be critical to NGATS. ERAM, with a price of 
$2.1 billion, replaces the brain or the central nervous system 
at facilities that manage high altitude traffic. This year is 
critical for ERAM as FAA plans to spend $1 million a day on the 
program and if not kept on track, there could be cascading 
impacts on FAA's ability to deliver future systems. FAA's FTI 
program is an effort to replace FAA's entire telecommunications 
systems for air traffic. We have raised concerns that FTI will 
not be completed on time. We have made recommendations to FAA 
to help FTI get back on track. Right now, the key issues focus 
on developing an effective transition plan and realistic master 
schedule, improving coordination between the contractor and FAA 
field offices, and updating cost and benefits. FAA is currently 
taking positive steps in addressing these issues.
    My second point is that while the JPDO has made progress, 
considerable work remains to align agency budgets and plans. 
Central to JPDO's mission is the alignment of agency resources. 
This is a complex task, as each agency conducts research for 
their own mission.
    We looked at three of the JPDO's eight integrated product 
teams and found a lot of coordination but so far, little 
alignment on budgets. The Product Team Leaders have no 
authority to commit agency resources and often have no 
products, other than plans. Right now, it is hard to assess 
alignment because JPDO's progress reports do not provide 
details on ongoing research projects or budgets at other 
agencies.
    My third point focuses on actions needed to shift from 
planning to implementation. Mr. Chairman, right now the key 
questions for the JPDO to focus on is what the new office can 
deliver, when, and how much it will cost. Our prepared 
statement outlines a number of actions that we believe will 
help shift JPDO initiatives from a research agenda to 
implementation. I'll briefly touch on a few of them. One is 
getting Congress reliable cost information. Last year, the 
Administration promised that they would provide some clarity on 
the cost issue; that has not been accomplished. Right now, this 
subcommittee and stakeholders need reliable costs for the next 
5 years, which corresponds to the next FAA reauthorization. 
This cost data is needed on three vectors: research and 
development that will be needed to meet FAA's requirements, 
adjustments to existing FAA projects, and costs to implement 
NGATS initiatives. Two, is developing and implementing a 
mechanism for alignment. JPDO is working with OMB to develop an 
integrated budget document that provides a single business case 
for various research efforts. As part of this, JPDO has 
promised to provide OMB with an architecture for the Next 
Generation System as well as a list of programs in other agency 
budgets it intends to leverage. This should be done soon. We 
understand that the JPDO is meeting with OMB later today to 
start this process. Third, is risk management. Given FAA's past 
track record with modernization projects and the potential 
billion dollar investments for NGATS, the JPDO and ATO need to 
articulate what they intend to do differently and what skill 
sets are needed. While it is true that FAA's management of 
major acquisitions has improved, developing and implementing 
the next generation system is an incredibly complex 
undertaking.
    There is a lot of discussion right now in FAA and industry 
about whether a lead systems integrator will be needed to help 
integrate new and ongoing systems and manage the transition. 
Experts tell us that a lead system integrator is most 
successful when the government has a clear understanding of 
what it wants to buy. And finally, conducting sufficient human 
research to support anticipated changes. History has shown that 
insufficient attention to human factors can increase the cost 
of acquisitions and delay much needed benefits. For example, 
the JPDO envisions the controller role changing from direct 
tactical control of aircraft to one of overall traffic 
management. There will also be significant human factor 
concerns for pilots who will rely more on systems on board 
aircraft. Once requirements have been established, the JPDO 
will have to put together a focused, human resource effort that 
integrates both NASA and FAA human factors work.
    Mr. Chairman, that concludes my statement. I'd be happy to 
answer any questions you or members of the Subcommittee may 
have. Thank you.
    [The prepared statement of Mr. Dobbs follows:]

 Prepared Statement of David A. Dobbs, Assistant Inspector General for 
   Aviation and Special Program Audits, Department of Transportation
    Mr. Chairman and members of the Subcommittee:
    We appreciate the opportunity to testify on the Federal Aviation 
Administration's (FAA) Joint Planning and Development Office )(JPDO) 
and the plans for the Next Generation Air Transportation System.
    The JPDO was mandated by Congress to develop a vision for the Next 
Generation Air Transportation System (NGATS) in the 2025 timeframe and 
coordinate diverse agency research efforts. This office was established 
within FAA; also participating are the National Aeronautics and Space 
Administration (NASA), the Department of Commerce, the Department of 
Defense (DOD), and the Department of Homeland Security. Thus far, we 
have focused primarily on the JPDO's air traffic management efforts 
that involve NASA, DOD, and Commerce.
    There are a number of compelling reasons for moving toward the Next 
Generation Air Transportation System. The current Air Transportation 
System has served the Nation well, but FAA reports that the current 
system (or business as usual) will not be sufficient to meet the 
anticipated demand for air travel. Last year, over 700 million 
passengers used the system, and this number is forecasted to grow to 
over 1 billion by 2015.
    Because of the forecasted growth in air travel, the JPDO needs to 
continue to work on what can be done much sooner than the 2025 time 
frame. It will also be important for the JPDO to show tangible benefits 
to airspace users from its efforts. We have made this point before, and 
it was a key theme of the JPDO/industry workshop on costs in April.
    The JPDO's mission is critical given that FAA conducts little long-
term air traffic management research and the fact the most of the 
Agency's current $2.5 billion capital account goes for keeping things 
running. However, the cost of NGATS remains uncertain and much work 
remains to refine costs, align diverse agency budgets, and set 
expectations for airspace users with respect to milestones, equipage, 
and anticipated benefits. In addition, FAA and JPDO need to transition 
from planning to implementation, and we have identified a range of 
actions that will help them do so.
    My remarks today will focus on three points:

  <bullet> JPDO's critical role in leveraging resources in light of 
        recent trends in FAA's Research, Engineering, and Development 
        (RE&D) and Facilities and Equipment (F&E) accounts.

  <bullet> JPDO progress to date in aligning agency budgets and plans, 
        and

  <bullet> Actions that will help the JPDO keep moving forward in both 
        the short and long term and shift from planning to 
        implementation.

The JPDO has an Important Role in Leveraging Resources for the Next 
        Generation Air Transportation System
    The JPDO is expected to develop a vision for the next generation 
system and has established ambitious, much needed goals to accommodate 
three times more air traffic and reduce FAA operating costs. The JPDO 
also expects a shift from today's ground-based system to an aircraft-
based system and to significantly enhance controller productivity 
through automation. To do so, a multi-agency approach--as outlined in 
Vision 100--is critical given the current deficit environment, 
competition for Federal funds, and FAA's tight budget. Moreover, 
leveraging of scarce resources is essential because FAA does not 
conduct much long-term air traffic management research.
FAA's Fiscal Year 2007 Budget Request for Research, Engineering, and 
        Development
    FAA is requesting $130 million for Fiscal Year (FY) 2007, a 
decrease of $6.6 million from last year's appropriated level of $136.6 
million. This includes $18 million specifically for the JPDO. Figure 1 
illustrates the makeup of the Fiscal Year 2007 RE&D request by major 
lines of effort.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As shown above, almost 70 percent of FAA's research budget 
submission, or $88 million, focuses on improving safety--not new air 
traffic management initiatives. This includes projects on fire safety 
and aging aircraft systems, which focus on preventing accidents and 
making them more survivable. The remaining funds are requested for 
efficiency, environmental research, and mission support efforts.
    FAA is also requesting research funds from its airport account for 
safety and efficiency issues. FAA is requesting $17.8 million in Fiscal 
Year 2007 for research in areas of, among other things, airport 
pavement and airport markings. In addition, FAA is requesting $10 
million in Fiscal Year 2007 for cooperative research projects with 
airports, including efforts to enhance safety and improve airport 
lighting.
Perspectives on FAA's Capital Account and Progress and Challenges with 
        Key Modernization Projects
    The Capital Account. FAA's capital account--or the F&E account--is 
the principal vehicle for modernizing the National Airspace System. It 
represents about 18 percent of the Agency's Fiscal Year 2007 budget 
request of $13.7 billion. For Fiscal Year 2007, FAA is requesting $2.5 
billion for the F&E account, which is $50 million less than last year's 
appropriation. This is the fourth consecutive year that funding 
requests for the capital account are below authorized levels called for 
in Vision 100.
    As we have noted in previous reports and testimonies, FAA's 
increasing operating costs have crowded out funds for modernization. 
Further, only about 55 percent of FAA's Fiscal Year 2007 request for 
F&E (or $1.4 billion) will actually go for acquiring air traffic 
control systems, while the remainder will be spent on personnel, 
mission support, and facilities. This is illustrated in Figure 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The majority of FAA's capital account now goes for keeping things 
running (i.e., sustainment), not new initiatives. A review of the top 
10 projects by dollar amount in the Fiscal Year 2007 request shows that 
while some projects will form the platforms for future initiatives, the 
bulk of funds are requested for projects that have been delayed for 
years and for efforts to improve or maintain FAA facilities or replace 
existing radars.
    Over the last several years, FAA has deferred or canceled a number 
of projects as funding for the capital account has remained essentially 
flat. This includes efforts for a new air-to-ground communication 
system, controller-pilot data link communications, and a new satellite-
based precision landing system. FAA has also postponed making decisions 
on projects like the billion-dollar Standard Terminal Automation 
Replacement System.
    In spite of a lack of clarity about the next generation system, FAA 
is requesting F&E funds for two projects that are considered ``building 
blocks'' for the next generation system. These are not new programs and 
have been under development or been funded in previous budgets.

  <bullet> Automatic Dependent Surveillance-Broadcast (ADS-B) is a 
        satellite-based technology that allows aircraft to broadcast 
        their position to others. In Fiscal Year 2007, FAA is 
        requesting $80 million for this. In prior budgets, ADS-B was 
        funded under the Safe Flight 21 Initiative, which demonstrated 
        the potential of ADS-B and cockpit displays in Alaska and the 
        Ohio River Valley. FAA expects to award a contract for the ADS-
        B ground infrastructure in 2007. FAA has a lot of work ahead to 
        quantify and set expectations for the benefits it and airspace 
        users can expect from ADS-B.\1\ Airspace users will have to 
        equip with new avionics to obtain benefits, and FAA may have to 
        rely on a rulemaking initiative to help speed equipage. This 
        illustrates why the JPDO must address complex policy issues as 
        well as research.
---------------------------------------------------------------------------
    \1\ The first phase of ADS-B implementation, known as ADS-B out is 
expected to replace many ground radars that currently provide 
surveillance with less costly ground-based transceivers. But 
implementing ADS-B out is just the first step to achieving the larger 
benefits of ADS-B, which would be provided by ADS-B in. ADS-B in would 
allow aircraft to receive signals from ground-based transceivers or 
directly from other ADS-B equipped aircraft--this could allow pilots to 
``see'' nearby traffic and, consequently, transition some 
responsibility for maintaining safe separation from the controllers to 
the cockpit.

  <bullet> System Wide Information Management (SWIM) is a new 
        information architecture that will allow airspace users to 
        access securely and seamlessly a wide range of information on 
        the status of the National Airspace System and weather 
        conditions. It is analogous to an internet system for all 
        airspace users. FAA is requesting $24 million for this program 
---------------------------------------------------------------------------
        in Fiscal Year 2007.

    Progress and Challenges with Key Air Traffic Control Modernization 
Projects. We are not seeing the massive cost growth and schedule delays 
we have seen with FAA major acquisitions in the past because of this 
Administration's more incremental approach to major acquisitions and 
decisions to defer several complex and challenging efforts.
    Last year, we reported that 11 of 16 major acquisitions accounted 
for cost growth of $5.6 billion.\2\ Most of this cost growth occurred 
before the establishment of the Air Traffic Organization. The cost 
growth was also a reflection of efforts to re-baseline programs, which 
identified costs that had been pent up for years and were not reflected 
in prior cost estimates. We are updating our work on the 16 major 
acquisitions and the challenges they face.
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2005-061, ``Report on the Status of FAA's 
Major Acquisitions: Cost Growth and Schedule Delays Continue To Stall 
Air Traffic Modernization,'' May 26, 2005. OIG reports and testimonies 
can be found on our website: www.oig.dot.gov.
---------------------------------------------------------------------------
    Many efforts are maturing, and completing them within existing cost 
and schedule parameters is critical to allow room for future 
initiatives. Only one ongoing modernization project, FAA 
Telecommunications Infrastructure, has the potential to reduce FAA's 
operating costs, which is a top priority within the Agency. We would 
like to highlight two multi-billion-dollar programs that require 
attention.

  <bullet> En Route Automation Modernization (ERAM) is intended to 
        replace the Host computer network--the central nervous system 
        for facilities that manage high-altitude traffic. FAA is 
        requesting $375.7 million for ERAM, which is this program's 
        peak single-year funding level according to FAA's Capital 
        Investment Plan. With an acquisition cost of $2.1 billion, this 
        program continues to be one of the most expensive and complex 
        acquisitions in FAA's modernization portfolio. The monthly burn 
        rate for ERAM will increase from $28 million a month in Fiscal 
        Year 2006 to $31 million per month in Fiscal Year 2007. This 
        year is critical for ERAM because the system is scheduled to 
        begin real-world testing. Should ERAM experience cost increases 
        or schedule slips, the problems would have a cascading impact 
        on other capital programs and directly affect the pace of 
        efforts to transition to the next generation system.

  <bullet> FAA Telecommunications Infrastructure (FTI). FAA is 
        requesting $28 million in Fiscal Year 2007 toward its effort to 
        replace its entire telecommunications system for air traffic 
        control, including radar and controller voice circuits. Between 
        Fiscal Year 2003 and Fiscal Year 2006, the Congress 
        appropriated $556 million for FTI (from the capital and 
        operating accounts).

        In our recent report to FAA, we concluded that FTI is a high-
        risk program--with a FAA reported lifecycle cost estimate of 
        $2.4 billion ($310 million estimated acquisition costs and $2.1 
        billion estimated operations costs) through 2017.\3\ Only 
        months after being re-baselined in December 2004, the program 
        fell behind its revised schedule and has not recovered.
---------------------------------------------------------------------------
    \3\ OIG Report Number AV-2006-047, ``FAA Telecommunications 
Infrastructure Program: FAA Needs To Take Steps To Improve Management 
Controls and Reduce Schedule Risks,'' April 27, 2006.

        The primary purpose of the FTI program is to lower operating 
        costs. It also forms the basic infrastructure for NGATS 
        initiatives, like SWIM, and is important for FAA's ongoing work 
        with Lockheed-Martin on flight service stations. However, 
        expected benefits from reducing operating costs are eroding 
        because of schedule problems. For example, FAA did not realize 
        $32.6 million in expected savings in Fiscal Year 2005 (due to 
        the limited progress made in disconnecting legacy circuits). In 
        addition, the estimated cost savings of $102 million for Fiscal 
---------------------------------------------------------------------------
        Year 2006 is at risk.

        In our April report, we found that FTI was not likely to meet 
        its planned completion date, December 2007, because FAA had not 
        developed a detailed, realistic master schedule for all 
        critical steps, including identifying when each service will be 
        accepted, when services will be cut over to FTI, and when 
        existing (legacy) services will be disconnected. Without a 
        realistic master schedule, it will be difficult to obtain a 
        binding commitment from the FTI contractor, Harris Corporation, 
        to complete the transition by any specific point in time.

        We recommended, among other things, that FAA develop both a 
        master schedule and an effective FTI transition plan and 
        validate FTI cost, schedule, and benefits. FAA agreed with our 
        recommendations and commissioned the MITRE Corporation \4\ to 
        conduct an independent assessment of FTI's schedule and 
        transition performance to date.
---------------------------------------------------------------------------
    \4\ The MITRE Corporation functions as FAA's federally funded 
research and development center.

        MITRE completed a limited assessment of FTI schedule risk and 
        concluded FTI will not be completed as planned in December 
        2007, but is more likely to be completed later in 2008. Also, 
        MITRE underscores the need to focus Harris' resources and FAA's 
        field resources on achieving timely cutovers and increased 
        disconnects of legacy services, both of which are important for 
        realizing cost-savings. However, we have observed that a 
        significant number of FTI services that have been accepted by 
        FAA could not be cutover, thus requiring considerable re-work 
---------------------------------------------------------------------------
        and causing an increased backlog.

        We are currently reviewing FAA's effort to develop an effective 
        transition plan and a realistic master schedule. We note that 
        FAA's Joint Resources Council--FAA's decision-making body for 
        major acquisitions--is planning to meet in August 2006 to 
        review revised FTI cost estimates against a newly validated 
        schedule. We see several key issues that FAA needs to address. 
        They include determining the number of existing legacy circuits 
        and the funding requirements needed to maintain those circuits 
        until FTI is complete, improving coordination between Harris 
        and FAA field offices, and updating cost and benefits based on 
        actual and projected legacy and FTI network costs.

    It is important to recognize that FAA's existing investments will 
heavily influence NGATS requirements and schedules. In fact, ongoing 
projects, like ERAM and FTI, will form important platforms for JPDO 
initiatives. Enclosure A provides details on selected modernization 
projects that will likely play a key role in moving toward the next 
generation system. FAA will have to assess how JPDO plans affect 
ongoing projects and determine which ones need to be accelerated or re-
scoped.
Progress Is Being Made in Coordinating Diverse Agency Efforts but 
        Considerable Work Remains To Align Agency Budgets and Plans
    The law requires the JPDO to coordinate and oversee research that 
could play a role in NGATS. Central to the JPDO's mission--and making 
it an effective multi-agency vehicle--is alignment of agency resources. 
This is a complex task, and the law provides no authority for the JPDO 
to redirect agency resources. Enclosure B provides information on 
potential agency contributions to the JPDO and each agency's area of 
expertise.
    The Department has played an important role in coordinating various 
efforts by chairing the Senior Policy Committee. This committee was 
established by Vision 100 and includes deputy secretary level 
representatives from the Departments of Commerce and Homeland Security, 
and the Secretary of the Air Force. It also includes the FAA and NASA 
Administrators. This committee provides high-level guidance, resolves 
policy issues, and identifies resource needs. Each participating agency 
conducts research tailored for its specific mission.
    The JPDO's March 2006 progress report to Congress outlined various 
accomplishments to date, including the establishment of multi-agency 
teams and the NGATS institute (a mechanism for interfacing with the 
private sector) as well as a demonstration of network-enabled 
operations for security purposes. However, the report did not provide 
details on specific ongoing research projects at FAA or funding that 
the JPDO expects to leverage at other agencies. Without this 
information, it is difficult to assess progress with alignment of 
budgets.
    The majority of JPDO's work is done through eight Integrated 
Product Teams (IPTs) that focus on eight strategies, such as how to use 
weather information to improve the performance of the National Airspace 
System. The teams are composed of members from FAA, other Federal 
agencies, and the private sector. Enclosure C provides information on 
the JPDO's IPTs.
    The National Research Council recently examined JPDO plans and was 
critical of the IPT structure.\5\ The Council's report found that even 
though the teams have multi-agency participation, they are functioning 
primarily as experts in specific disciplines rather than as cross-
functional, integrated, multidisciplinary teams organized to deliver 
specific products. One of the report's recommendations was that the 
IPTs be reduced in number and made more ``product driven.'' Although we 
have not reached any conclusions on how to best structure the IPTs, we 
do agree that a more product-driven focus would be an important step 
forward.
---------------------------------------------------------------------------
    \5\ National Research Council, ``Technology Pathways Accessing the 
Integrated Plan for a Next Generation Air Transportation System,'' 
2005.
---------------------------------------------------------------------------
    Our audit work on three IPTs shows that there is considerable 
coordination but little alignment of agency budgets to date. Moreover, 
the IPT leaders have no authority to commit agency resources to JPDO 
efforts and often have no products other than plans. The following 
illustrates progress and challenges to date with the three IPTs we 
examined in detail.

  <bullet> The Weather IPT is led by the National Oceanic Atmospheric 
        Administration (NOAA), an agency of the Department of Commerce. 
        FAA, NASA, DOD, and NOAA are all conducting weather research 
        tailored for their specific missions. Thus far, this team's 
        efforts have focused on contributions to FAA's Traffic Flow 
        Management Program (which assists traffic managers to optimize 
        air traffic by working with airlines). NOAA is also helping the 
        JPDO refine its concept of a fully automated system. 
        Integrating new, up-to-date weather forecast systems into 
        planned automation efforts will be challenging.

         We note that JPDO has not yet determined if a considerable 
        amount of applied research and development conducted by NOAA at 
        the Office of Atmospheric Research and the National 
        Environmental Satellite Data and Information Service could be 
        leveraged for next generation initiatives. We have shared our 
        concerns about taking full advantage of weather research 
        conducted by others with the JPDO, which recognizes it can do a 
        better job.

  <bullet> The Shared Situational Awareness IPT is led by DOD. All 
        participating agencies are adopting network-centric systems.\6\ 
        As noted earlier, FAA is developing its own network system 
        called SWIM. While there are considerable opportunities for 
        leveraging net-centric efforts, there is also potential for 
        duplication of effort. Challenges here focus on taking an 
        approach pioneered by DOD and applying it specifically to air 
        traffic control to get benefits in terms of enhanced capacity 
        and delay reduction.
---------------------------------------------------------------------------
    \6\ A net-centric system uses internet protocols to transfer data.

         An active role by DOD is vital because it is both a provider 
        and a consumer of air traffic services. Thus far, work with 
        this IPT has focused almost exclusively on maximizing agency 
        network capabilities in DOD, such as the Global Information 
        Grid, which is a net-centric communication system DOD is 
        developing for global use. Moreover, DOD's real-world 
        experiences and the lessons it has learned in sharing data 
        (from air and ground systems) in actual operations and in real-
        time have not been fully tapped and will prove invaluable in 
        reducing cost and technical risks in developing the next 
---------------------------------------------------------------------------
        generation system.

         Another area where DOD could provide expertise is with sensor 
        fusion \7\ which is the integration of information on an 
        aircraft's position from radar and non-radar sources, such as 
        satellite-based systems. While fusion could help reduce 
        separation between aircraft, it will be technically challenging 
        to integrate radar and satellite-based systems (which have 
        different update rates and levels of accuracy) to manage 
        traffic in high volume airspace, particularly in the vicinity 
        of airports. DOD expertise with target acquisition and sensor 
        fusion for weapons targeting could prove helpful for the JPDO.
---------------------------------------------------------------------------
    \7\ For additional views on sensor fusion or fusion tracking see 
our audit report ``Terminal Modernization: FAA Needs To Address Its 
Small, Medium, and Large Sites Based Upon Cost, Time, and Capability'' 
(AV-2005-016, November 23, 2004).

  <bullet> The Air Traffic Management IPT is led by NASA. It is 
        expected to play a key role by helping develop the automated 
        systems to boost controller productivity. The bulk of this work 
        will be funded by NASA, which has conducted the majority of 
        long-term air traffic management research over the last few 
        years. \8\ FAA has neither planned nor budgeted for this type 
        of research. Major challenges focus on establishing 
        requirements and gaining a full understanding of the risks 
        associated with developing and acquiring these new software-
        intensive systems before making financial commitments. This is 
        important because future automation efforts will be a major 
        cost driver for the Next Generation System.
---------------------------------------------------------------------------
    \8\ For additional details on the FAA/NASA relationship and funding 
profiles, see our testimony entitled ``Observations on the Progress and 
Actions Needed To Address the Next Generation Air Transportation 
System,'' (CC-2006-032, March 29, 2006).

         Even though NASA is restructuring its aeronautical research 
        program and spending less than in the past, the JPDO and NASA 
        are working on several complex concepts for new automation 
        systems (for monitoring multiple aircraft trajectories, 
        tracking separation minima, and responding to weather events) 
        and the timing of research efforts. This work will be funded 
        through NASA efforts on airspace systems (with a Fiscal Year 
        2007 requested funding level of $120 million). However, 
        experience shows that NASA will need a much clearer picture of 
        FAA's requirements (i.e., performance parameters for new 
        automated systems) to better support the next generation 
---------------------------------------------------------------------------
        system.

Several Actions Are Critical for the JPDO To Make Progress in Both the 
        Short and Long Term and Make the Transition From Planning to 
        Implementation
    Key questions for FAA and the JPDO to focus on include what the new 
office can deliver, when, and how much this transition will cost. They 
are central questions in the discussion about how to best finance FAA 
and will shape the size, requirements, and direction of the capital 
program for the next decade.
    Moving to the next generation system is important to meet the 
demand for air travel, change the way FAA provides services, and help 
control operating costs. However, it is also a high-risk effort. To 
make progress and successfully shift from planning to actual 
implementation, several steps are needed.

  <bullet> Leadership. The position of the JPDO Director is currently 
        vacant--FAA needs to find the right person to lead this effort. 
        Leadership will be important to align diverse agency efforts 
        and bridge the gap between the Air Traffic Organization's (ATO) 
        near-term planning horizon and the JPDO's longer-term mission 
        to transform the National Airspace System. We understand that 
        FAA is interviewing candidates and will be making a selection 
        very soon.

  <bullet> Finalizing Cost Estimates, Quantifying Expected Benefits, 
        and Developing a Roadmap for Industry. The JPDO's progress 
        report to Congress did not address funding requirements and 
        complex transition issues. Moving to the next generation system 
        will require significant investments from FAA (new ground 
        systems) and airspace users (new avionics). FAA is conducting 
        workshops with industry to develop program costs.

         We have seen some preliminary estimates developed by the ATO 
        and a working group of FAA's Research, Engineering, and 
        Development Advisory Committee (REDAC), but they have not been 
        finalized or approved by senior FAA management. There are 
        considerable unknowns, and costs depend on, among other things, 
        performance requirements for new automation and weather 
        initiatives and to what extent FAA intends to consolidate 
        facilities. The following Figure illustrates a very preliminary 
        estimate of the implications for FAA's capital account from 
        Fiscal Year 2007 through Fiscal Year 2012--the focus of the FAA 
        reauthorization--from the April JPDO/Industry workshop.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
         These ATO estimates presented that moving forward with NGATS 
        would cost $4.4 billion between Fiscal Year 2007 and Fiscal 
        Year 2012 over and above the current CIP plan. These 
        preliminary numbers do not distinguish between development 
        efforts, adjustments to existing programs, or implementation of 
        new initiatives.

         A key short-term cost factor for NGATS is the level of 
        development funding that will be required to take efforts from 
        other agencies (like NASA) and successfully transition them 
        into the National Airspace System and meet FAA's safety and 
        certification requirements. The REDAC working group is raising 
        concerns about this in light of NASA's restructuring of its 
        aeronautics research portfolio and plans to focus on more basic 
        research. To accommodate changes in NASA investments, the REDAC 
        working group estimated in its draft report that the JPDO will 
        need approximately $100 million annually for development.

         FAA will have to analyze information from the JPDO/industry 
        workshops and the REDAC working group and provide Congress with 
        expected funding requirements and when the funding will be 
        needed. When transmitting this information to Congress, FAA 
        should provide cost data on three vectors--research and 
        development needed (including demonstration projects), 
        adjustments to existing projects and estimates for implementing 
        NGATS initiatives. This will give decision-makers a clear 
        understanding of NGATS costs.

         An important theme from the recent JPDO workshop was the need 
        for FAA to clearly define the expected benefits from NGATS 
        initiatives, particularly for projects that require airspace 
        users to install and equip with new avionics, such as ADS-B. 
        Airspace users have a much shorter horizon for the return on 
        investment from new systems than FAA, and incentives (i.e., tax 
        incentives, financing options, or targeted deployments for 
        users that equip early) will likely be needed to spur equipage.

         At the April workshop, industry participants asked FAA for a 
        ``service roadmap'' that: (1) specifies required equipage in 
        specific time increments; (2) bundles capabilities with clearly 
        defined benefits and needed investments; and (3) uses a 4- to 
        5-year equipage cycle that links with aircraft maintenance 
        schedules. It will be important for FAA to provide industry 
        with this information.

  <bullet> Establishing Connectivity Between JPDO Plans and ATO 
        Efforts. This is important because the JPDO, as currently 
        structured, is a planning and coordinating organization, not an 
        implementation or program-execution office. At the April JPDO/
        industry workshop, industry asked for a much stronger link 
        between ATO and JPDO plans.

         Although the JPDO's progress report discusses new capabilities 
        such as ADS-B and SWIM, the ATO is responsible for managing 
        those efforts and establishing funding levels, schedule, and 
        performance parameters. The ADS-B and SWIM projects are not yet 
        integrated into ongoing communications and automation efforts 
        but need to be. If the JPDO and ATO are not sufficiently linked 
        and clear lines of accountability are not established, cost and 
        schedules for NGATS will not be reliable and expected benefits 
        will be diminished or postponed.

         Linking JPDO and ATO efforts is challenging because NGATS 
        projects cut across the ATO's different lines of business 
        (i.e., terminal and en route) and will require adjustments to 
        ongoing projects managed by different ATO vice presidents.

         For example, SWIM is envisioned as an Agency-wide effort, and 
        planning documents show that SWIM will interface with at least 
        12 ongoing projects, including FTI which is managed by the Vice 
        President for Technical Operations. Also, SWIM will need to be 
        integrated with ongoing projects to revamp systems for 
        controlling high-altitude traffic managed by the Vice President 
        for En Route and Oceanic Services. Projects managed by the Vice 
        President for Terminal Services (to modernize both controller 
        displays used in the vicinity of airports and weather systems) 
        will also be affected. It will be important to establish clear 
        lines of accountability for linking JPDO efforts to ATO 
        programs and resolving differences between the two 
        organizations.

         We shared our concerns about effectively linking the JPDO and 
        ATO and establishing clear lines of accountability with the 
        Chief Operating Officer and the Acting Director for ATO 
        Planning earlier this year. They recognize the need for close 
        coordination and are examining ways to better link the two 
        organizations. One step that is underway is to adjust the 
        Operational Evolution Plan (the Agency's capacity blueprint) to 
        reflect JPDO efforts. This is an important matter that will 
        require sustained management attention.

  <bullet> Developing and Implementing Mechanisms for Alignment. As 
        noted earlier, there is considerable coordination among JPDO 
        participating agencies but little alignment of budgets and 
        plans. There is a need for mechanisms to help the JPDO align 
        different agency efforts over the long haul. This will help 
        identify the full range of research that can be leveraged by 
        the JPDO--not how much NGATS will cost to implement.

         The JPDO recognizes that more needs to be done and is working 
        with the Office of Management and Budget (OMB) to develop an 
        integrated budget document that provides a single business case 
        (a document similar to the ``OMB Exhibit 300'') to make sure 
        efforts are indeed aligned.\9\ As part of this, the JPDO has 
        promised to provide OMB this summer with an architecture for 
        the Next Generation System, as well as a specific list of 
        programs in other agency budgets it intends to leverage.
---------------------------------------------------------------------------
    \9\ OMB Exhibit 300 was established by OMB as a source of 
information on which budgetary decisions could be based so that they 
are consistent with Administration and OMB policy and guidance.

         The JPDO's ongoing efforts to develop an enterprise 
        architecture,\10\ or overall blueprint for the next generation 
        system, will help in setting goals, supporting decisions, 
        adjusting plans, and tracking agency commitments. The 
        architecture will also show requirements from FAA and the 
        Departments of Defense and Homeland Security and where various 
        agency efforts fit in the next generation system. It will prove 
        helpful in the future in resolving difficult policy decisions, 
        including who pays for what elements of the system.
---------------------------------------------------------------------------
    \10\ Enterprise architecture links an organizations strategic plan 
to the programs and supporting systems in terms of interrelated 
business processes, rules, and information needs. This includes the 
transition from the ``as-is'' to the ``to-be'' environment.

         The JPDO is taking an incremental approach to architecture 
        development and plans to have an initial version this summer. 
        However, considerable work remains to link current systems with 
        future capabilities and develop technical requirements, 
---------------------------------------------------------------------------
        particularly for new concepts for automation.

         Until these actions are taken, it will be difficult for the 
        Congress and aviation stakeholders to determine if the JPDO is 
        leveraging the right research, if funding is adequate for 
        specific efforts, or how projects will improve the U.S. air 
        transportation system and at what cost. Therefore, we think the 
        JPDO should include in its periodic reports to Congress a table 
        of specific research projects with budget data for FAA 
        developmental efforts, as well as budget data of other agencies 
        it is leveraging and how that ongoing research is supporting 
        the JPDO.

  <bullet> Developing Approaches for Risk Management and Systems 
        Integration. Given that the transition to NGATS is a high-risk 
        effort potentially involving billions of dollars, the JPDO and 
        FAA need to articulate how problems that affected past 
        modernization efforts will be mitigated and what specific skill 
        sets will be required. The JPDO's recent progress report did 
        not address this issue.

         The central issue focuses on what will be done differently 
        from past modernization efforts with NGATS initiatives to 
        ensure success and deliver much needed benefits to FAA and 
        airspace users. FAA faces a wide range of risks, such as 
        complex software development and complex systems integration 
        and engineering challenges with NGATS initiatives and existing 
        FAA projects.
         To help manage the transition to the next generation system, 
        FAA is considering whether or not a lead systems integrator--a 
        private contractor who would help link new and existing systems 
        and help manage other contractors--will be required. DOD has 
        relied on this approach to guide its development of complex 
        weapon systems. Models for using a lead system integrator 
        throughout the government differ with respect to roles and 
        responsibilities. We note that FAA has relied on systems 
        engineering and integration contractors in the past to help 
        integrate modernization projects, but questions about the 
        roles, responsibilities, and expected costs will need to be 
        examined before a decision is made.

  <bullet> Clarifying and Updating Approaches for Industry 
        Participation as the JPDO Evolves. The JPDO established the 
        NGATS institute specifically to allow for industry 
        participation in shaping the Next Generation Air Traffic 
        Management System. Currently, industry representatives are 
        participating in JPDO IPTs. For example, the JPDO's progress 
        report noted that over 140 industry and private sector 
        participants (from 66 organizations) are involved in IPT 
        planning efforts.

         Industry has expressed concern that participation in JPDO 
        activities might preclude them from bidding on future FAA 
        acquisitions related to NGATS because it may create an 
        organizational conflict of interest. Generally speaking, FAA's 
        Acquisition Management System precludes contractors from 
        competing on production contracts if the contractor either 
        participated in or materially influenced the drafting of 
        specifications to be used in future acquisitions for production 
        contracts or had advanced knowledge of the requirements.

         FAA is aware of industry's concern and is working to ensure 
        that industry participation does not result in organizational 
        conflicts of interest. Recently, the JPDO revised the 
        contracting mechanism with the institute to address this issue. 
        Specifically, the JPDO and the institute have committed to 
        develop procedures related to organizational conflict of 
        interest concerns, and methods to avoid them. Putting these 
        procedures in place will help get and sustain the desired 
        expertise from industry and help prevent problems in the 
        future.

         We think the JPDO needs to continue to foster awareness of 
        potential conflicts of interest among IPTs and its contractors 
        to identify information that might later lead to conflicts of 
        interest. It will be particularly important for FAA and the 
        JPDO to monitor these matters as the role of the JPDO evolves 
        and various efforts shift from planning to implementation.

  <bullet> Examining and Overcoming Barriers to Transforming the 
        National Airspace System That Have Affected Past FAA Programs. 
        Our work on many major acquisitions shows the importance of 
        clearly defined transition paths, having expected costs (for 
        both FAA and airspace users), and determining benefits in terms 
        of reduced delays. This is particularly the case for 
        initiatives that require airspace users to equip with new 
        avionics.

         For example, FAA canceled the controller-pilot data link 
        communications program specifically because of uncertain 
        benefits, concerns about user equipage, cost growth, and the 
        impact on the Agency's operations account. The inability to 
        synchronize data link with other modernization efforts, such as 
        the multi-billion-dollar ERAM program, was also a factor.

         Other important barriers to be overcome include how to ensure 
        new systems are certified as safe for pilots to use and getting 
        the critical expertise in place at the right time. Problems 
        with FAA's multi-billion dollar Wide Area Augmentation System 
        were directly traceable to problems in certifying the new 
        satellite-based navigation system.

         FAA's certification workforce has participated in IPT 
        meetings, but considerable work remains to determine how air 
        and ground components will be certified and the corresponding 
        impact on requirements. This is a complex task. We agree with 
        industry that FAA's certification workforce needs to be 
        actively engaged with JPDO initiatives.

  <bullet> Developing a Strategy for Technology Transfer. Technology 
        transfer--the movement of technology from one organization to 
        another--is a central issue for the JPDO because the law 
        envisions new capabilities developed by other Federal agencies 
        (or the private sector) being transitioned into the National 
        Airspace System. The JPDO will have to pay greater attention to 
        this matter as it moves forward to reduce development times 
        with NGATS initiatives.

         Our past work shows that FAA has experienced mixed results in 
        transitioning systems developed by others into the National 
        Airspace System. For example, FAA ultimately abandoned work on 
        a new controller tool developed by NASA (the Passive Final 
        Approach and Spacing Tool) for sequencing and assigning runways 
        to aircraft because of complex software development and cost 
        issues.

         As we noted in our review of FAA's Free Flight Phase 1 
        Program, the use of ``technology readiness levels'' could be 
        useful to help assess maturity of systems and ease issues 
        associated with the transfer of technology.\11\ Both NASA and 
        DOD have experience with categorizing technical maturity. This 
        could help reduce cost, schedule, and technical risk with 
        implementing JPDO initiatives.
---------------------------------------------------------------------------
    \11\ OIG Report Number AV-2002-067, ``Free Flight Phase 1 
Technologies: Progress to Date and Future Challenges,'' December 14, 
2001.

  <bullet> Conducting Sufficient Human Factors Research To Support 
        Anticipated Changes. The JPDO is planning to make fundamental 
        changes in how the system operates and how controllers manage 
        traffic to accommodate three times more aircraft in the system. 
        Currently, the union that represents controllers is not yet 
        participating in JPDO efforts for a variety of reasons but 
---------------------------------------------------------------------------
        needs to be.

         History has shown that insufficient attention to human factors 
        can increase the cost of acquisition and delay much needed 
        benefits. For example, problems in the late 1990s with FAA's 
        Standard Terminal Automation Replacement System were directly 
        traceable to not involving users early enough in the process.

         The need for focused human factors research extends well 
        beyond the traditional computer-machine interface (such as new 
        controller displays) and has important workforce and safety 
        implications. For example, FAA expects the controller's role to 
        change from direct, tactical control of aircraft to one of 
        overall traffic management. There also will be significant 
        human factors concerns for pilots, who will be expected to rely 
        more on data link communications. It will be important to have 
        sufficient human factors analysis and studies to ensure that 
        the changes envisioned by the JPDO can be safely accommodated.

    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you or other members of this Subcommittee might 
have.
                              Enclosure A
Key Platforms

------------------------------------------------------------------------
            System                        Status and Key Issues
------------------------------------------------------------------------
Terminal Modernization:         FAA has struggled with how to complete
 Standard Terminal Automation    terminal modernization. STARS, which so
 Replacement System (STARS),     far has cost $1.3 billion for only 47
 Common Automated Radar          sites, was envisioned as the
 Terminal System (Common         centerpiece of terminal modernization.
 ARTS): Controller work-         Because of technical problems and
 stations that process           schedule delays with STARS, FAA decided
 surveillance data and display   to deploy another system, Common ARTS,
 it on the screen to manage      as an interim solution at over 140
 air traffic in the terminal     facilities in several configurations.
 environment.                    FAA is rethinking its approach to
                                 terminal modernization and recently
                                 decided to field STARS to only five
                                 additional sites. A decision affecting
                                 the remaining 100-plus sites has been
                                 postponed for over a year. FAA needs to
                                 address problems with aging displays at
                                 four large sites, including Chicago and
                                 Denver, and resolve how it will
                                 complete terminal modernization and
                                 what additional capabilities will be
                                 needed as it works with the JPDO.
------------------------------------------------------------------------
En Route Automation             With an estimated cost of $2.1 billion,
 Modernization (ERAM):           ERAM is one of the largest and most
 Replaces the Host computer      complex acquisitions in FAA's
 hardware and software           modernization portfolio. Progress is
 (including the Host backup      being made with the first ERAM
 system) and associated          deliverable--a backup system for the
 support infrastructure at 20    Host computer. However, the bulk of the
 En Route Centers.               work focuses on development of the
                                 first major ERAM software release,
                                 which involves developing over 1
                                 million lines of code. A number of new
                                 capabilities (e.g., dynamic airspace
                                 management and data link) depend on
                                 future enhancements to ERAM that have
                                 yet to be defined or priced.
------------------------------------------------------------------------
FAA Telecommunications          FTI is FAA's effort to transition from
 Infrastructure (FTI):           multiple telecommunication networks to
 Replaces existing               a single new network for the purpose of
 telecommunications networks     reducing operating costs at more than
 with one new network.           4,400 facilities. As of May 31, 2006,
                                 FAA reported 5,925 FTI services
                                 completed with 14,555 remaining.
                                 According to a recent MITRE study, FTI
                                 is not likely to be completed by
                                 December 2007. Moreover, FAA is still
                                 in the process of determining the
                                 number of existing service requirements
                                 that will need to be maintained until
                                 FTI is complete. As a result, expected
                                 FTI benefits with respect to savings
                                 are eroding. Key issues for FAA include
                                 developing an effective transition plan
                                 and realistic master schedule,
                                 negotiating a contract extension for
                                 the existing legacy system with
                                 Verizon, and revising and validating
                                 FTI cost and benefit estimates.
------------------------------------------------------------------------
Traffic Flow Management (TFM)   Traffic Flow Management Infrastructure
 modernizes the hardware and     products and services are designed to
 software used to manage the     support the Traffic Management
 flow of air traffic.            Specialists and Traffic Management
                                 Coordinators to optimize air traffic
                                 flow across the National Air Space
                                 System. The specialists and
                                 coordinators analyze, plan, and
                                 coordinate air traffic flow through
                                 continuous coordination with the
                                 airlines and the use of surveillance
                                 sources, weather information,
                                 automation, and display subsystems.
------------------------------------------------------------------------

                              Enclosure B
Potential Agency Contributions
    The following table provides perspectives on the wide range of 
research being conducted at agencies that participate in the JDPO for 
their specific missions. We note that only some of the ongoing research 
will be applicable to the JPDO's efforts.

------------------------------------------------------------------------
            Agency                        Key Area of Leverage
------------------------------------------------------------------------
DOD                             DOD has an extensive and diverse
                                 Research and Development (R&D) base,
                                 including research in new aircraft,
                                 composites, imaging systems, and data
                                 exchange systems for all services. DOD
                                 has requested $73 billion overall for
                                 R&D in Fiscal Year 2007. The JPDO is
                                 particularly interested in DOD's
                                 broadband communication networks, such
                                 as the Global Information Grid. DOD
                                 planned upgrades to the Global
                                 Positioning System Constellation will
                                 be critical to civil aviation.
------------------------------------------------------------------------
Commerce/NOAA                   Commerce is requesting $1.1 billion for
                                 research in Fiscal Year 2007. NOAA is a
                                 part of Commerce and is responsible for
                                 the National Weather Service; the
                                 National Environmental Satellite, Data
                                 and Information Service; and Oceanic
                                 and Atmospheric Research. NOAA
                                 requested $533 million in Fiscal Year
                                 2007 for R&D. The JPDO is seeking from
                                 NOAA probability weighted forecast
                                 capabilities, a national uniform
                                 weather database of forecasts and
                                 observations, and transparent automatic
                                 adjusted traffic management for
                                 weather.
------------------------------------------------------------------------
NASA                            For years, NASA has conducted the
                                 majority of long-term Air Traffic
                                 Management research, including
                                 automated controller tools and human
                                 factors work. NASA has requested $724
                                 million for aeronautical R&D in Fiscal
                                 Year 2007. The JPDO is looking to NASA
                                 to develop automated aircraft metering
                                 and sequencing and dynamic airspace
                                 reconfiguration.
------------------------------------------------------------------------
Department of Homeland          DHS contributes expertise in the areas
 Security (DHS)                  of security and netcentric initiatives.
                                 The Agency has requested $1 billion in
                                 Fiscal Year 2007 for Science and
                                 Technology R&D. FAA is looking to DHS
                                 to develop automated passenger and
                                 cargo screening, hardened aircraft
                                 security, and flight control overrides.
------------------------------------------------------------------------

                              Enclosure C
Integrated Product Teams
    IPTs are multi-agency teams that are defining the specific concepts 
and capabilities and are coordinating the actions necessary to make 
possible the transformation in each of the eight strategies articulated 
in the NGATS Integrated Plan. The following provides a listing of the 
JPDO's IPTs and the agency responsible for leading each team.

        1. Develop Airport Infrastructure To Meet the Future Demand--
        led by FAA.

        2. Establish an Effective Security System Without Limiting 
        Mobility or Civil Liberties--led by DHS.

        3. Establish an Agile Air Traffic System--led by NASA.

        4. Establish User-Specific Situational Awareness--led by DOD.

        5. Establish a Comprehensive Proactive Safety Management 
        Approach--led by FAA.

        6. Develop Environmental Protection That Allows Sustained 
        Aviation Growth--led by FAA.

        7. Develop a System-Wide Capability To Reduce Weather Impacts--
        led by Commerce/NOAA.

        8. Harmonize Equipage and Operations Globally--led by FAA.

    Senator Burns. Thank you and I appreciate your report. We 
will be looking at that. Like I mentioned before, we have many, 
many committee meetings on the Hill this morning and Members 
have to attend all of them, it seems. I'm going to lead off 
with the Chairman of the Full Committee, Senator Stevens, and 
he has a few questions and then I will move to Senator 
Rockefeller and as they have other meetings to go to also and 
then to Senator Lott. Then I will kind of bat clean up.
    The Chairman. Thank you very much, Mr. Chairman. Let me 
start with you first, Mr. Dobbs. I think you are pressing the 
agencies too hard and I certainly hope that the OMB and--you 
don't push this agency to make decisions before we know where 
the money is coming from. If we make decisions now, based upon 
what the budget looks like it could afford, we're not going to 
have a modernization program at all. We've got to find some way 
to define how to raise this money and meet with the industry 
and get the participants to understand how much is going to be 
available from the private sector as opposed to how much is 
going to be Federal before we decide what limitations we're 
going to put on these agencies from a budget process. So I hope 
you'll warm them. You are going too fast, to demand what you've 
just demanded over that period of time.
    Mr. Dobbs. No, that wasn't my intent, I think the first 
thing the FAA needs to do is to, as the Administrator said, is 
get the architecture--or blueprint--completed, which will set 
out a list of requirements that FAA will be able to work with 
to determine funding requirements. FAA should have a final cut 
at that very soon, within weeks. This is a very important point 
and I apologize if you misinterpreted my statement.
    The Chairman. Well frankly, I disagree with you because 
what we need to do first is find out if there is a funding 
mechanism that can produce what we need and if so, then get the 
architecture to fit the funding concepts. I don't think you can 
go into this with the point of view of having OMB saying, this 
is the amount of money we've got for the next 10 years. We've 
got to have a funding mechanism in this or the system 
modernization is going to not go forward. So I hope you won't 
really--the way I understand what you've said, was, it is their 
duty to come up with some budgets right now and make the 
architecture fit into the budget.
    Mr. Dobbs. No, I didn't mean to imply that. My comments 
focus on getting a handle on ongoing research.
    The Chairman. I'm glad, if that was not your impression. I 
apologize if that is not your meaning, not what you meant to 
convey.
    Mr. Dobbs. I just want to clarify my remarks. We understand 
that financing is important and that additional resources will 
be needed. With respect to alignment OMB will put together a 
single business case so we can all identify what other agencies 
can contribute in terms of research. This will help FAA 
leverage much needed resources as envisioned by the law. It 
won't set limits with respect to funding for implementation in 
any way. It will just identify in a clearer picture, how NASA 
and DOD research will help the FAA. Hopefully, it will also 
help this committee identify where other resources can be 
leveraged.
    The Chairman. Yes, well we're going to try to do that. Dr. 
Porter, I appreciate your statement. This enterprise 
architecture--am I to understand now that they worked out with 
FAA and other agencies, that NASA is going to be a part of, 
really the center of, developing that architecture?
    Dr. Porter. The architecture is actually developed through 
the JPDO's EAD--EAD stands for----
    The Chairman. Could you close those doors, please? And can 
you pull that mike back a little toward the doctor? I'm not 
hearing you.
    Dr. Porter. Sure. The Engineering and Architecture division 
of the JPDO is actually what is designing the architecture, so 
it is not just NASA but there are members of NASA that are part 
of that JPDO effort. So NASA and FAA personnel, as well as 
members from other agencies, are participating to put that 
architecture together.
    The Chairman. Ms. Blakey, when we look at this from the 
point of view of planning for the future, is this right? JPDO 
is going to be the centerpiece of planning for the whole 
expansion into the modern phase, the re-making of the airway 
system?
    Ms. Blakey. Essentially, yes. It is the planning and 
coordinating office that will bring together the relevant 
agencies. We've talked a lot about, this morning, about the 
airspace and certainly air traffic control and that aspect of 
this is absolutely front and center. It is critical. But as we 
all recognize, security has got to be embedded in this new 
system and therefore, we are coordinating with Homeland 
Security. The needs of the military, are also front and center 
when you would go through this. So it is a very important that 
we work, not just the planning function and coordinating 
function, but that we are also reaching out through the 
Institute and bringing to the fore, the work of the private 
sector. So that is the Institute's agenda and that's the 
functionality it has. It will be doing a great deal of the work 
in terms of systems integration and in terms of the work of 
monitoring and evaluating and eventually quality control.
    The Chairman. I hope you send that chart on the right to 
OMB today with somebody. If they don't understand what's 
coming, we're in real trouble. I do believe, Mr. Chairman, what 
we've got to do is find some way as this goes forward, to have 
more of a meeting of the minds, some roundtable discussions. 
Get away from the hearings and let's try to keep our pace and 
learn what is being developed. I am really concerned about the 
funding. I think the funding is going to be overwhelming and it 
cannot be driven by budget considerations, it has to be driven 
by need and we have to develop a funding mechanism to meet the 
needs of this modernization that is not constrained by the 
budget process. It will, over a period of years, meet the 
budget process but it cannot be constrained in initial years or 
it won't get off the ground. Mr. Dillingham, by the way, we've 
got a town in my state named after you or you carry it's name. 
I'm glad to see a Dillingham here.
    Mr. Dillingham. I was hoping I was a relative but it didn't 
turn out that way.
    [Laughter.]
    The Chairman. It could well be. It could well be. I'm a 
little worried about your comment about BRAC, because BRAC 
thrown into this process now, before we really understand the 
architecture and the funding capabilities, would be a mistake. 
I hope that we get some timing on this, that makes sense in 
terms of really realizing we may have to put some additional 
money into this existing system to let it expand a little and 
pick up some of the strain and move from that level rather than 
to try and build on what we've got now. There is an adjustment 
phase in this modernization program, which I think relates to 
what Ms. Blakey is talking about, about the high-tech concepts 
of bringing it in. Our experience in Alaska was that a lot of 
pilots didn't want to experiment with Capstone. Today, they are 
falling all over themselves to get it and I think we have to 
find ways, to find places to test some of these new systems 
before we put all of our money into them. There is no question 
that ADS-B has worked in our state and I hope it works 
nationally the way it has worked in our state. But without that 
experimental phase, I don't think the South 48, as we call it, 
would ever have gone into ADS-B. We've proven that it works in 
Alaska. There are other components to this new architecture 
that have to be proven, too. That is why I think we really have 
to pace this and pace funding toward the full realization of 
the modernization and set some realistic goals of when this 
must be turned on. I don't think you have one yet, do you, Ms. 
Blakey? Is there a date certain that this system has to be 
operable?
    Ms. Blakey. No, I think we really see it phasing in and 
some of the sort of, if you will, the backbone technologies, 
like ADS-B, coming on earlier. As you know, we are deploying 
ADS-B in places around the country where we really can both use 
the technology to the greatest effect. We're going in now to 
the Gulf of Mexico, where there is no radar coverage and that 
is going to be a very exciting development. So we will see 
these systems prove themselves, develop and then we will be 
able to attach functionality and add on additional technologies 
as we go. We are looking at the year 2025 as being a, if you 
will, a goal, but there is really no end state in this as we 
all know. It evolves over time and certainly the next 10 years 
are going to be very critical.
    The Chairman. By that time, I'll be older than Strom 
Thurman, OK?
    Ms. Blakey. And you'll still be flying in the system, Mr. 
Chairman, I'm confident of that.
    The Chairman. What I want to do is get some timeframe built 
into this so we know where the gates are in terms of the stress 
that cannot be carried by the existing system. Once we know 
where that gate is, then we've got our first target we have to 
meet. I do believe we can meet it if we get rational about 
financing. Financing ought to be up front and should not be the 
constraint on the system, as I see it outlined here this 
morning. Maybe you didn't intend to leave me that impression 
but I have the impression that financing is going to drive 
modernization rather than modernization driving the need for 
finance. I hope that's the way it comes out. Thank you, Mr. 
Chairman.
    Senator Burns. Thank you. Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman. I think that 
is the point, Administrator Blakey. I would just ask you three 
questions. I agree, I took from the IG's statement that a 
certain hostility toward--on the other hand, if you one look 
around government, it is replete with systems that are 
designed, budgeted, failures emerge, more money is added and 
that is the subject of a hearing that nobody ever wants to 
have. But from your point of view, you've got a lot of new 
things you want to do, satellites, all kinds of things. You 
want to get a lot of them done in the next 3-5 years. So my 
question, to give you a chance to answer this, is how do you 
plan to go about that? It would seem to me that money is always 
a problem. You never have enough money. You are always having 
to cut and that's our fault and the White House's fault and not 
your fault because you're the one who suffers from it. How do 
you--it would seem to me that you need to decide what you want 
the most, what you have to have. Then you figure out how much 
it is going to cost, to the best of your ability and then, you 
have to proceed to try and get it with the stakeholders, so to 
speak, onboard with that. The control is that the airlines, 
general aviation, etcetera and then you also have to make that 
they are going to use this stuff, respond to this stuff and you 
know, they are not always willing participations. The trip out 
to Herndon and your place out there as opposed to most other 
places, is very interesting because what you have there, other 
places might not be able to put to use, simply because of the 
lack of training and skills. So in 3-5 years, you want to get 
certain new technologies in. In generic terms, how do you plan 
to do that, with the caveats I've just added? People on board, 
people to use it and do you agree with the idea that you have 
to figure out what you want first and then how much it is going 
to cost, second? And then if we don't give you the money, then 
it is our fault and the White House's fault?
    Ms. Blakey. Well, we're not looking immediately to 
establish fault here, I'll go to what we----
    Senator Rockefeller. I'm not looking for that. I'm just 
trying to be helpful to you.
    Ms. Blakey. I understand. I think that probably the best 
things I can point to in terms of how we intend to do this go 
the following. I absolutely agree 200 percent with your sense 
that you have to accept some things are going to take priority 
and other things you have to set aside. I was delighted when 
Dr. Dillingham pointed out that we have been able to maintain, 
for the last several years, all of our capital investment 
accounts, our major acquisition programs, on budget and on 
schedule. That, given the FAA's previous track record, is no 
mean feat and it was done, in part, by focusing like a laser on 
those programs that are important and not trying to fund every 
single thing that, at one point, was in the portfolio. I think 
that has proven to be extremely successful and our major 
components that are going toward the Next Generation system, 
such as ERAM that Dr. Porter mentioned. The system, if you 
will, the backbone for the En Route system, is on track and on 
budget. So from a very practical standpoint, we are working 
very hard as a business to do this. We also have a great deal 
of confidence in the way that the JPDO is processing with the 
concept of operations--what exactly do you expect the system to 
be able to do? And then having the enterprise architecture, 
which really spells out what the technologies are and how they 
will work together. The final thing I would point to is that we 
have had great success with the highly specific roadmaps. As 
you know, we are running the FAA with a very businesslike 
approach, driven by metrics. Everything from our flight plan, 
which spells out exactly what we've got to accomplish in the 
next year and we report on it quarterly and our bonuses are 
tied to it--right through to the operational evolution plan, 
which is a 10-year plan. For every year, we know what the 
benchmarks are. We either hit them or we don't and we're 
working very hard to again, deliver on those specifics. So 
we're going to use that approach. The operational evolution, 
now partnership, which will continue to be linked right into 
the concept of operations and the enterprise architecture and 
we will be able to see what the benchmarks are. I have no doubt 
about the fact that this is going to be something that we have 
to consult our stakeholders on very closely, because you can 
move faster or more slowly. Some of it is a question of their 
own business case for equipage, for example. Does it make sense 
to put on the aircraft the necessary technologies to take full 
advantage of the kind of satellite-based system we are talking 
about? There are tremendous cost benefits in this but 
businesses are going to have to be a part of that decision.
    Senator Rockefeller. I'm running out of time. Let's suppose 
that it begins to work. You've got to decommission a lot of 
technology.
    Ms. Blakey. Yes.
    Senator Rockefeller. And that's not an easy thing to do, 
legacy technology. People have been living with it forever. Do 
you see that as a problem?
    Ms. Blakey. I'm sure it will be a problem, I think, for two 
reasons. One, people are very wedded to what is and what has 
worked for so long and that is essentially ground-based radar. 
We have a tremendous amount of ground based radar that could be 
decommissioned and it is part of making the business case for 
this system. You do have to substantially move to a satellite-
based system with a good backup. The second thing about it is, 
and it has certainly proven to be an issue in recent 
appropriations discussions in just in the last few weeks, that 
it is extremely difficult to get political backing as we move 
to consolidate and co-locate so that we can pull our costs down 
and allow more room for these new systems. It is a question of 
political will. I think you--as a concept, people tend to favor 
it until it affects their district and their state and that has 
proven challenging.
    Senator Rockefeller. Final--I'll change my final one to go 
back to the first one. I indicated that throughout Federal 
Government--and it really is a grisly story that somebody 
should win a Pulitzer Prize on, of what the Federal Government 
wants, whether it is in the intelligence field or anything and 
then what they end up paying for it, DOD, etcetera. I mean, 
it's just--we've gotten mad about so many things for so long 
that we no longer get mad enough to do anything about it. But 
it occurs to me, when I ask the question, I'm not sure how much 
you have run into that kind of problem, either because you 
haven't made steps this big or because you think that you can, 
in fact, anticipate once you've decided what you want, how much 
something might cost. Just because DOD--something, you know, 
Lockheed Martin runs something up three times the cost because 
they have delays and they didn't do the work in the beginning 
or because there was false bidding or whatever, etcetera. It 
doesn't mean that you have that problem or that you have had 
that problem or that you would have that problem with this. Is 
this more discrete, more definable, that you can avoid those--
this is what it is going to cost, and oh by the way, 3 years 
later, it's going to cost twice as much or whatever.
    Ms. Blakey. Honestly, I think it is always a challenge. I 
am very, very happy with our acquisition track record and the 
fact that we have not allowed requirements creep and other 
kinds of things to begin to inflate costs of current programs. 
That has required a lot of discipline. But honestly, Senator, 
much of this is to come and it would probably be overreaching 
on my part to say that we know we can avoid those kinds of 
problems, particularly when, in some cases here, you are going 
where no one has gone before. Therefore, some of the 
technologies, as you begin to do the demonstrations and deploy 
them, may turn out to not be as promising as we'd hoped and 
those will be sunk dollars. But on the major implementation, I 
do believe that if you are able to apply a highly disciplined 
process to it, that we can learn how to proceed. We've got some 
people who have worked on big programs coming in from Defense 
and from other parts of industry, to help us on this. I think 
we've got a pretty good team from that standpoint.
    Senator Rockefeller. You expect to save money if you get 
this all in place. One thing I start worrying about right away 
is that that saved money go back into investment opportunities 
for the FAA, as opposed to going back into the General 
Treasury. I mean, you may not be here by that time. I just want 
you to tell me that you would never allow such a thing, from 
any town or city in Alabama or anywhere else in the world.
    Ms. Blakey. I'm flexing my muscles. I'll do my best. We all 
are very concerned about the fact that we need to be able to 
invest in the system and I think we all agree that changing our 
system of financing is critical for this. We are right at that 
point. We're going to have a very challenging year in front of 
us because all the taxes and fees that support the aviation 
trust fund are up in a year from this September. So we have got 
literally a matter of months to figure out how we can best set 
up financing so it does allow for the kind of investment that 
is clearly needed. And there are mechanisms that could do that.
    Senator Rockefeller. I thank you and I thank the Chairman.
    Senator Burns. Thank you. Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman. Thank you for having 
this hearing and thank all of the witnesses for being here. 
Madame Administrator, it is good to see you again. I appreciate 
your leadership at FAA and I want to commend you for what you 
are doing in a variety of areas and encourage you to continue. 
I have been interested in this hearing because I do know that 
effort is being put into the future but I am concerned about 
making sure that this is just not a bunch of acronyms and 
meetings that don't really produce anything. We have a problem 
here and it is going to grow with every passing year. So we do 
need to come to some conclusions and get some actions and some 
results. I know that you are being squeezed with budget and I 
know you're trying to implement cost savings, which is never 
easy and actively opposed by some of your own people. But at 
some point, we've got to quit trying--I mean, trying to find 
savings is all very well and good but when you are trying to 
implement a whole new program, the Next Generation, you're 
going to have to figure out how we're going to pay for this. 
One of my big disappointments in this Administration, frankly, 
has been the lack of proper attention to transportation, which 
I think is one of the critical areas for the Federal 
Government. I mean the whole package: highways, bridges, 
airports, air traffic control modernization system, railroads, 
passenger trains, ports and harbors, navigable streams--the 
whole package. I really think it is one of the few things the 
Federal Government has a prime role in and I hope that you will 
push, within the Administration, within the Department of 
Transportation, and on OMB to face up to this task. In December 
2000, I met with the incoming President and his to-be Chief of 
Staff. It was the former Secretary of Transportation. One of 
the subjects we talked about and I thought we were going to 
focus on, was a modern air traffic control system because I was 
concerned about where we were headed and what needed to be 
done.
    Well, this is turning into a speech or lecture, but I just, 
I think we are going to have to face up to this. I think that 
on the money, we're just going to have to find a way not just 
to look for savings, which we always should. If you've got a 
legacy infrastructure that really is a throwback to another 
era, you need to begin to phase that out. You've done some 
things in control towers and so forth--that has led to some 
savings, which we haven't always liked in Congress, including 
me. But I think we're going to have to decide we're going to 
put money into this and I'm not talking about necessarily new 
taxes and fees. I'm talking about General Budget. This is of 
interest to the general public and you're not just going to 
increase fees any further. You're all going to try it and we're 
going to reject it and you're going to talk about more ticket 
taxes and stuff like that. We aren't going to do that. This is 
about modernization of a critical system that is important for 
the future, the economic development and growth of America and 
we're just going to have to toss a Rubicon and decide in the 
big picture? Look, I'm a cheap hulk and all of that, but $18 
billion over a period of years, to do what we need to do is not 
a big amount of money. We're arguing right now on a bill that 
will, over the next 10 years, cost $268 billion and we've 
sloughed it off like it was chicken feed. So I think we need to 
come to terms, in Congress, in the Administration, FAA, 
Department of Transportation, OMB and the White House, we're 
going to have to put money into this and we're not going to 
charge a bunch of new fees to make it happen. It's going to 
come out of the General Treasury. That's my opinion. But let me 
just--I do want to say to you again, you need to think about 
the funding problem, how we're going to do it and you need to 
make some recommendations. The OMB is going to shoot you down. 
We're going to shoot you down so maybe you ought to have a 
multiple choice list and maybe you'll find one or a combination 
of all the above that we can achieve. I agree with Senator 
Stevens that we have to figure out how to pay for this. We're 
going to have to do this. Let's do it right and let's figure 
out how we're going to pay for. So let me just ask a couple of 
questions. How are you doing with the implementation of new ATC 
technologies, for instance?
    Ms. Blakey. For the current situation we are in, I think 
we're going very well, as a matter of fact. One of the things 
that we have concentrated on is looking at procedures and 
looking at ways we can set up operationally to take full 
advantage of what we have out there. That means that we have 
begun putting in place what is called RNAV and RNP procedures 
at a number of our critical airports and they have really 
delivered a tremendous amount of efficiencies. It is just much 
more precise, using satellite-based technologies and 
capabilities that are already built into the aircraft right 
now, today, to get a lot more capability into places like 
Atlanta, for example. Delta has been saving tremendous amounts 
of money using these new routes into Atlanta, just as one 
example. The same thing is going on in Dallas-Fort Worth and I 
could start naming airports around the country where we have 
genuinely increased capacity. When we talk about technologies, 
the ERAM system is hitting its milestones precisely on target. 
Now this is the brain, if you will. It is changing out the host 
for the upper route airspace. But we've had other successes 
that I am very pleased about. The new technology that governs 
aircraft across the oceans--it is now in place both in the 
Atlantic and in the Pacific and it is coming on board in 
Alaska. This is allowing us to know much more precisely where 
aircraft are, way out there when before we really were relying 
on radio technology and very mechanical, procedural things. At 
this point, we have software that is allowing us to space 
aircraft much more precisely coming in to our coasts and it is 
making a big difference. I could mention a few other 
technologies that we are using--URET, which allows controllers 
to probe where an aircraft will be 20 minutes further into the 
system and determine whether or not a much more desirable route 
is available. A year ago, we dropped the vertical separation in 
the airspace. A huge step--the compression of upper airspace 
from 2,000 to 1,000 feet allowed again, a great deal more in 
terms of efficient use of the airspace. The final thing I would 
say, going to these newer technologies, which are reality 
today--I do want to say ADS-B is in place in a number of 
places--UPS is using it in Louisville. In that one airport 
alone, because the aircraft are able to have a very smooth, 
continuous descent approach, which uses a glide as much as 
anything--they are getting a 30 percent reduction in terms of 
noise below 6,000 feet, which is huge for a community and a 34 
percent reduction in emissions and literally, a million fewer 
gallons of jet fuel in a year. Now, these are benefits that are 
very real and tangible and we are delivering them in the system 
today. I point to those statistics because I think they are 
very concrete examples of things that we are putting out, that 
are working and as I say, a delivery of what we had promised at 
the outset.
    May I make one comment, Senator Lott, on your thought about 
financing because I do believe you are quite right. This is 
going to be a big challenge for this coming year and it is not 
necessarily about raising taxes--more money, although to invest 
in this system at some point, there is going to have to be 
additional investment, no question. But it is also about the 
ability to have predictability, have a revenue stream that ties 
the costs and the revenue together and makes it a business-like 
operation that means you do have a sensible investment flow. I 
think, one of the problems we have had over the years in terms 
of making these capital investment programs work, is the 
fluctuations in funding so that you are revved up and then you 
have to step down. Contractors are laid off, things don't 
happen and then you try to jump back up. You have warehoused 
equipment that is not deployed and on it goes. So anything we 
can do as we are thinking about financing reform, to make it 
predictable and tie those costs to the revenue and tie it to 
the investments that we are committed to, I think, will be a 
tremendous improvement regardless of the level of funding.
    Senator Lott. Thank you for your leadership and I know what 
you said made a lot of sense. We look forward to working with 
you on this.
    Ms. Blakey. Thank you.
    Senator Lott. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Lott. I want to follow up 
here with Mr. Dillingham. In your testimony, you review not 
only the management structure but also the interagency 
involvement to this point. What do you believe are the three 
top issues that JPDO must overcome in the short term, to 
fulfill its mission, so to speak?
    Mr. Dillingham. Mr. Chairman, I think the first thing is 
the progress that JPDO has made to date, the progress that FAA 
has made to date, needs to be institutionalized and by that, I 
mean systems and agreements need to be put in place so that 
when you have a change of Administrator at FAA or if you have a 
change of Secretary of Transportation or you have a change of 
leadership in any part of the JPDO organization, that there is 
some continuity there and we don't have to start from scratch. 
We need that commitment. We need it formalized in some way.
    I think the second thing is what everyone has been talking 
about, that is to complete this planning process in an 
innovative way, so that there is a basis for stakeholder 
involvement. There is a basis for estimating the cost of this 
and arranging or putting in place the financing for it. As we 
mentioned, without the financing and some commitment on the 
part of the government, this could go south in a hurry. I think 
another element is something that the Administrator mentioned 
in her testimony--that is the importance of international 
harmonization. It is important for our aviation industry and it 
is important for worldwide transportation that there be a 
harmonized and seamless air transportation system. So those are 
the three top things that I think are important at this point.
    Senator Burns. Right now, is it structured--do they have 
enough autonomy? Do we have an estimated cost of this JPDO in 
order to be effective?
    Mr. Dillingham. Well, the structure that has been put in 
place so far----
    Senator Burns. I think they've got to be autonomous in some 
way or other to survive the change of leadership in the 
Department of Transportation or FAA or any other part, OMB or 
anywhere else.
    Mr. Dillingham. What we understand is happening, Mr. 
Chairman, is that there is in process a Memorandum of 
Understanding between the constituent agencies that will, in 
some way, institutionalize, formalize the relationships as they 
continue to participate. You also heard them mention that they 
are working with OMB, which is very important, in that they are 
trying to have a situation where all of the constituent 
agencies would identify those projects that are NGATS-related 
or Next Generation related and OMB could consider them as a 
package, rather than individual projects. The Administrator 
also mentioned an MOU between the EC and the United States. So 
in fact, these things are beginning to be institutionalized and 
we think that is really critical because of changing 
administrations--you don't want to start from zero again.
    Senator Burns. I agree with that. Dr. Porter, getting 
research to a mature point where the private sector can take 
over is very important. I guess my question would be, does your 
agency plan on assisting the JPDO with development or 
developmental validation like prototyping and demonstration of 
new technologies and this type of thing, on how these new 
technologies will work? What is NASA's plan? How do they fit 
into this JPDO?
    Dr. Porter. That was a very broad question. I think you're 
actually--you're really trying to focus, however, on the 
development of the technologies.
    Senator Burns. That's right, the technologies because I 
know it is--today, technologies are developed in a shorter time 
period, before we even get them in place, why, they are out-of-
date, so to speak. How do we remain agile and versatile so that 
we can take advantage of some of those situations?
    Dr. Porter. What NASA tends to do is invest very heavily in 
the fundamental research that is going to be required to enable 
this NGATS that we are talking about today. There are a lot of 
things that, while we've talked about the technologies that do 
exist today, such as ADS-B that can be taken into the near term 
and put forward, there is a lot that we have to do and NASA is 
uniquely qualified to do it, to answer fundamental questions we 
don't have answers for today. For example, human automation and 
the roles that humans in automation will play as we go to this 
more and more complex system. There are fundamental research 
questions that have to be answered in that regard. That is just 
an example. There are a whole host of them. So this vision that 
has been articulated by the NGATS--I don't want to give the 
impression that we can just turn the switch on and everything 
is already solved and it is just an integration challenge. 
There is a lot that has to be done at the fundamental level in 
research, in order to answer key questions, to enable those 
concepts and technologies that are going to take us there. The 
technologies that exist today that are based on the knowledge 
we have today are not sufficient. There is a lot that still has 
to be done and that is our role and we intend to do that. So if 
we abdicate that responsibility, we would argue that the NGATS 
cannot be achieved because what it is trying to do is truly 
revolutionary. It is not an incremental step forward; it is a 
revolutionary step forward. So our commitment from the air 
traffic management to the safety, to the air vehicle research 
itself that I talked to you about, is very broad and it is very 
committed and it is very committed toward the cutting edge, to 
address the challenges that we face for the vehicles in terms 
of their safety as well as their noise and their emissions and 
their performance that we talked about earlier as well as the 
air traffic management challenges. It is a very, very 
challenging fundamental research issue that we have to address.
    Senator Burns. It seems to me that the private sector will 
have a role to play in this.
    Dr. Porter. Absolutely, absolutely and I believe that the 
Administrator made that clear when she was explaining about the 
NGATS Institute and she referenced the CON OPS, which was 
heavily--the institute was heavily involved in terms of getting 
the feedback back into that as well as the enterprise 
architecture. The reason why that is such a complex challenge 
is that it is not just the government that's devising, that it 
is also with input from the Institute and their members, which 
of course, are some of the world's experts, our industry 
partners.
    Senator Burns. Tell me, Administrator Blakey, where are we 
on the structure of the--and getting people in place, the right 
people in place, as far as the JPDO is concerned?
    Ms. Blakey. I think things are going very well. We've 
certainly got a talented team of people from all the agencies 
that are involved and we've been very pleased about the level 
of commitment that we have seen. I think all the agencies 
really understand that it is in their self-interest as well as 
a critical thing for the Nation, to transform this system. We 
are on the cusp of selecting a new director. I am pleased to 
say that we took this very seriously because we realized the 
challenging aspects of this position and we went out with a 
search firm and looked very thoroughly and we are at the final 
stages of making that selection. I think we will be able to 
announce a new director within days. That is my expectation. 
There obviously are clearances and all those sorts of things 
that we don't entirely control. The other thing I would point 
to is the Institute. The Institute is, I think, becoming a very 
robust organization of our private sector stakeholders who are 
not only collaborating with the JPDO, they have a formal 
structure where they have a governing board, they have a 
director and they also have very significant organizations 
participating in it. In this case, the Association of Airline 
Pilots, ALPA and the ATA, the Air Transport Association, also 
working with the AIA. So you have a very strong institutional 
commitment from industry as well as a lot of individuals. They 
are at the point now where they are going to begin to draw down 
funds from the JPDO for demonstration projects. They will be 
accepting contracts to undertake the projects as well spend the 
contributions they made.
    Senator Burns. Do you think that we have enough dollars in 
there to complete the mission?
    Ms. Blakey. We don't have enough dollars right now to 
complete the mission.
    Senator Burns. Do we have an estimate of what it is going 
to cost or what is going to be our yearly commitment?
    Ms. Blakey. We are working toward that with these workshops 
that we are conducting. We have another one coming up with the 
general aviation community and another coming up with the 
airport community in the next several months. The cost analysis 
that we have already done with the corporate sector, the 
airline community, as well as these other two still to come, I 
think will give us a much more granular sense of cost. It is 
not just the question of Federal dollars invested. It is also 
the question of how quickly the private sector wants to step up 
into this new system with all of the costs and the benefits 
that are going to go to them. There is an estimate that Dr. 
Dillingham mentioned before, that one of the committees that 
has been working closely with us has estimated it will require 
approximately a billion dollars additional investment a year. 
But obviously that can be front loaded, back loaded and some of 
this again, goes to where are the benefits and when do we get 
them?
    Senator Burns. Well, that figure sure caught my attention, 
a billion dollars a year, plus I don't know where we're going 
to find it right now but I believe that we'll have to rely on 
some estimates coming out of the JPDO once it is finally--it is 
finalized and the structure has been set. I think Congress 
should know about that right away. Mr. Dobbs, the Next 
Generation vision includes some migration from ground systems 
to airplanes and right now if I hear anything at all, as I 
travel, and I do a lot of it between here and Montana, mostly. 
We hear that with our airplanes in the air have a lot more 
sophisticated technology than our ground operations. Now to 
implement these ground systems, investments will be required by 
both the FAA and industry stockholders and will require a joint 
public private ownership plan. Do you believe there is 
sufficient industry participation to develop the necessary 
joint ownership of the plan and if not, what steps should be 
taken to strengthen that involvement of private industry? In 
other words, the investment coming in from private sources.
    Mr. Dobbs. Without question, industry participation is 
critical. I think the FAA is definitely on the right track and 
the NGATS institute was set up to get industry participation. I 
think the Administrator mentioned prototype efforts in the Gulf 
of Mexico. The airline industry, for example, has mentioned 
that they would like some clarity about when they need to 
equip. They would like that linked to their maintenance 
schedule and they would like a little bit more information on 
the benefits that they would get from moving forward with ADS-
B. Clearly, ADS-B could be revolutionary with the things that 
it could do in terms of safety and capacity. It is really a 
matter of having the air carriers be able to afford it. So, 
they just need sort of a plan, a roadmap. That is what they 
told us.
    Senator Burns. I don't think you're just going to have the 
air carriers participate. I think there is going to have to be 
other participants, too. Dr. Porter, I forgot to ask you a 
while ago, you know, we were talking about the R&D that goes on 
in NASA. I know that your budget has been drastically cut over 
there and that would tell me that funds for the efforts to go 
to mars have been sort of scaled back. With these scale backs, 
how has that budget, these cuts, how has that affected the work 
that you do in research and development?
    Dr. Porter. You're correct that the budget, of course, has 
been cut, the aeronautics budget, in particular. The overall 
NASA budget has gone up. The importance of what we're doing now 
is ensuring that what we do is of high quality. So regardless 
of budget, we have to ensure that we have principles in place 
that are sound and logical and drive the decisions that we make 
and then we apply our budget accordingly. Some of those issues 
have been brought up earlier today. Those core principles have 
been established. We have put together our program according to 
those principles and now we're confident that given that, we 
can apply a budget in an efficient and logical and cogent 
manner. So it is important, I think, not just to look at budget 
but also to ask, how is that money being spent? And of course, 
both of those elements are important and I think we have a 
smart and efficient way of going forward that allows us to 
address these challenges we talked about, the research 
challenges for NGATS and do that in a manner that uses the 
money well.
    Senator Burns. I was going to say, on NGATS, that won't--
these cutbacks wouldn't affect the work that you are doing in 
that area?
    Dr. Porter. We have firmly--one of our core principles, we 
have three core principles and one of our core principles is to 
focus and make sure we are firmly aligned in the fundamental 
research needs of NGATS. So regardless of budget, that will be 
one of our principles.
    Senator Burns. Mr. Dillingham, I know that GAO has held 
forums and meetings regarding the JPDO for the NextGen System. 
You are also having meetings, I guess, with the Europeans. What 
are the Europeans currently planning and how is their plan 
different from ours?
    Mr. Dillingham. Yes, Mr. Chairman. We have looked at the 
European counterpart known as SESAR. They are in the very early 
planning stage. I think they began their planning stage in 
March of 2006 and we've been planning now, going on 2 years. I 
think that the recent MOU that was signed is sort of a landmark 
kind of occurrence in that it means that the European community 
and the U.S. will be working together more so than they have in 
the past, with a formal understanding of trying to make sure 
that we have international harmonization and standards 
development. So the Europeans are using a different process but 
they are aiming for the same thing and our position has always 
been that it is not the process that's important, it is the 
outcome and right now, the outcomes are aimed at the same 
place.
    Senator Burns. Are they very serious about systems that are 
inter--that will talk to each other?
    Mr. Dillingham. Yes, sir. Interoperability is a main----
    Senator Burns. That's the word I was looking for and it 
didn't come.
    Mr. Dillingham. Right. I practiced it before I came.
    Senator Burns. Maybe I should!
    Mr. Dillingham. It is one of the main elements, both for 
the U.S. and for EC because again, the transportation system, 
the worldwide transportation system, is an economic driver on 
both sides of the ocean. So although there is competition, 
there is cooperation as well.
    Senator Burns. When you're looking for words, you know, the 
human brain is a wonderful thing. It starts working the very 
instant you are born and it does not stop until that red light 
comes on, right here.
    [Laughter.]
    Senator Burns. I just, drawing down to some conclusion 
here, to end this hearing, I'd just like, in your opinion and 
I'd like for all three of you to respond to this. As of right 
now, if you had three things that you wanted addressed today to 
take care of, what would they be? Three things with regard to 
JPDO. What would they be right now, what would be your concerns 
and I'd just start with you, Mr. Dobbs.
    Mr. Dobbs. I think obviously, would be to figure out how to 
finance it. I think, too, it is important to finish the 
enterprise architecture and third, would be to maintain 
stakeholder involvement because you need both the government 
and industry right now. Many participants are volunteers right 
now, from different agencies and industry. We need to maintain 
that involvement over the long haul.
    Senator Burns. Mr. Dillingham?
    Mr. Dillingham. I thought you were going to skip me, Mr. 
Chairman, since I answered one like that.
    Senator Burns. You didn't practice this one, is that it?
    Mr. Dillingham. No, no. I agree with the IG that we need to 
first of all, complete the plan and that plan is the baseline 
for all things that we need to do after that, including cost 
estimation. I think it is also important that we maintain the 
progress that we've made, with regard to keeping acquisitions 
on time and on budget and institutionalize that progress. Also, 
institutionalize the relationship between the constituents of 
the JPDO. I think those things are first and foremost to keep 
us on schedule.
    Senator Burns. Dr. Porter?
    Dr. Porter. OK, they stole all my answers. I think the most 
important thing is the enterprise architecture, which I 
highlighted in my testimony. That is critical and it has to be 
done right. I would say as a sub-bullet to that, we don't want 
to rush that for the sake of meeting a timeline. I think the 
JPDO has done the right thing by saying, let's get it right 
first. If we don't get that right, we're going to spend a lot 
of time on the back end, fixing what we didn't think about up 
front. So I think they are doing a great job and the NGATS 
Institute's involvement is critical, as you mentioned. The 
industry involvement in that endeavor, leveraging the expertise 
that industry has in that is critical. I think the need to have 
the leadership sustained and Administrator Blakey had mentioned 
that we are hopefully going to be hearing about a new director 
soon. That is good because you've got to get that stabilized 
and also sustaining the partnerships. We really do have a great 
partnership among the agencies. That has been working very 
well, but I think Mr. Dillingham's point is a very good, that 
you want to have a mechanism of institutionalizing that. I 
don't really like that word but I think ensuring that is a 
solid commitment that stays forward, regardless of who is 
there. Personalities come and go and you want to have that 
passion and commitment. I've been very impressed by the passion 
and commitment of the current members and we want to sustain 
that. This is going to take a 20-year committed and focused 
effort. I think we all are very cognizant of that and that is 
why there are a lot of people working long hours to ensure this 
sustains. But it does have to be formalized or I guess, 
institutionalized as Gerald had mentioned. So I think I hit 
three points and if not, I'm sure I talked long enough.
    Senator Burns. Well, I would tell you. This is just a 
personal opinion and observation here. I agree with you that 
we've got some awfully good people. The stars are lined up 
right because we've got some awfully good people in the right 
places now. As this becomes one of my top priorities in the 
Congress and as we get this kicked off for the next generation, 
we've been the beneficiaries of strong leadership, especially 
in the Administrator and I'm going to ask her about her three 
things. I just think we've just got some awfully good people in 
the right places right now to get some really powerful things 
done. That's why I--I'm worried more about the process, get it 
in place, don't experience paralysis by analysis and to move 
forward and to be flexible and agile as we do. I just believe 
that we've got those kinds of people here in place now. 
Administrator Blakey?
    Ms. Blakey. Well, thank you and I think----
    Senator Burns. You're the one that has to do all this, you 
know. You're the do part. You're at the jump. You've got the do 
part.
    Ms. Blakey.--the jump do. I figured I'd be the rear end on 
that. Well, I'll tell you. We're certainly all working together 
on this and believe me, the do part has got a lot of partners. 
So I'm grateful for that. I guess what I would say, in addition 
to echoing everything that was said at the table here, is it 
all does come down to leadership on three fronts. I think we do 
need, of course, to have a strong and committed organization 
and the directors. I want to, by the way, thank our Acting 
Director, Bob Pearce, who has stood in and done a yeoman's 
duty. Bob is right here behind us and he has really done a 
wonderful job over the last 6 months. So we have benefited from 
him and I think we will continue to benefit from the strong 
work of the Institute and the JPDO staff. I think it is also 
critical that we have leadership on all of our parts, from the 
Administration and from the Congress, as we address this 
financing issue. It will not be easy. It never is when we're 
talking about trying to change the way we pay for things. I 
mean, it is as straightforward as that. It is all about the 
pocketbook and that is going to make this a tough year where 
leadership is concerned. Folks stepping up, is going to be 
huge. And then the final thing; it is a 20-year vision and goal 
we're pursuing and I have to say that the leadership of this 
committee--I remember where the JPDO came from--remember this 
was in Vision 100? And I must also mention the leadership of 
this President. I wish Senator Lott were here. I would have to 
say that this President has certainly backed the JPDO and has 
backed all of our efforts. The Administration's support has got 
five agencies of government pulling at the same rope and that 
is no small thing. So I hope on all fronts, we'll continue that 
kind of leadership. Thank you.
    Senator Burns. Let me assure our witnesses today that I'm 
going to do everything that I can do to make sure that you get 
great support from the Congress. The more that we communicate 
with colleagues, especially here on the Senate side, on the 
challenge ahead and the more clear they are about this issue 
will enable us, I think, to secure the funds that we will need 
to make--not only develop the new technologies but make the 
transition. As Mr. Dillingham has recounted, it is going to 
cost more money and especially in the transition. So let me 
pledge to you that you'll have as much cooperation and support 
from Congress as I can possibly muster as we move forward and I 
thank you for your testimony. You'll be called upon again. 
There will be other hearings. We'll have other hearings, with 
stakeholders, with the private sector, with other folks that 
will be involved in this here in this hearing room. Then the 
job of putting the organization into a mode of success--let's 
don't structure something that is structured to fail. That's 
what we have to be very, very careful of. So I appreciate the 
testimony of everybody today. I would imagine there will be 
other people on the Commerce Committee that will have 
questions. I would, if you have questions from individual 
members of this committee, if you would respond to the 
Committee and to the individual Senator, I would appreciate 
that. We'll leave the record open for a couple of days right 
now. If you have other statements that you would like to make 
part of the record, why we'll do that also. And again, thank 
you for coming this morning and this hearing is closed.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    As the Aviation Subcommittee has begun to focus on the 
reauthorization of the Federal Aviation Administration (FAA), I believe 
we will find few issues as critical for the future of our National 
Airspace System (NAS) as the need to modernize our air traffic control 
system. In 2003, I was an original cosponsor of the legislation that 
created the Joint Planning and Development Office (JPDO) to spearhead 
this effort, and I have watched with interest as they have been 
established and began their mission.
    While most reports of the progress of the JPDO to date have been 
positive, this is a critical period for the modernization effort and I 
am hopeful that the involved agencies will respond positively to any 
criticism they receive to make this effort a success. We must ensure 
that the industry stakeholders are properly included to help bolster 
this effort and that the JPDO continues to have broad multi-agency 
participation to move forward with the Next Generation Air 
Transportation System (NGATS).
    We also must be certain that this process is as safe as possible 
while providing the promised benefits for our citizens and industry. I 
look forward to working with the witnesses to make certain that the 
JPDO receives the necessary support from Congress to effectively 
modernize our air traffic control system and position the Nation to 
have the world's leading air transportation system in the 21st Century.
                                 ______
                                 
 Prepared Statement of the Aerospace Industries Association of America
    A safe, secure and efficient air transportation system is essential 
to the United States' prosperity, competitiveness, and national 
security. Approximately 10 percent of the U.S. economy is directly tied 
to aviation. The industry is a strong driver in our Nation's economic 
growth, and it will take on increased importance as air traffic triples 
over the next 20 years. But for that to occur, fundamental, 
transformational improvements to our Nation's air transportation 
infrastructure are essential to address the known capacity constraints 
in our current system. Since our current system is operating close to 
the point of gridlock, it is critical that our country develop and 
implement the Next Generation Air Transportation System (NGATS) in a 
timely manner.
    Members of the Aerospace Industries Association are strong 
proponents of the Joint Planning and Development Office (JPDO) and are 
constructively engaged to help make the transformational NGATS a 
reality. The AIA represents more than 100 large companies and 170 
smaller business suppliers, and we operate as the largest trade 
association in the United States across three sectors: civil aviation, 
space systems, and national defense. The export of aerospace products 
provides our Nation's largest trade surplus ($40 billion in 2005), and 
U.S. companies continue to invest heavily in R&D, spending more than 
$50 billion over the last 15 years. Maintaining U.S. aviation 
leadership is critical to our national economic health and national 
security.
    Since the JPDO was created, they have built a consensus around its 
vision for the next generation air transportation system. But now that 
the vision creation stage is nearing completion, JPDO and the 
respective agencies must expeditiously embark on the task of turning 
that vision into an executable implementation plan and ensuring that 
plan is implemented on schedule.
    AIA commends the JPDO leadership and participants for their 
accomplishments in establishing this remarkable enterprise and creating 
a vision for the future. Bringing these organizations together to 
collaborate and leverage individual agency expertise and resources 
gives the United States a powerful opportunity to achieve the goal of 
transformation of the air transportation system. The inclusion of non-
Federal government stakeholders, bringing added viewpoints, knowledge 
and expertise to the JPDO through the NGATS Institute, is also a 
significant accomplishment for both the government and private sectors.
    It is imperative that the JPDO effort succeed. But this enterprise 
is unprecedented and achievement of its goal involves management of a 
process that is highly complex with challenging inter-agency and 
stakeholder integration. Understandably, we are learning as we go and, 
in addition to the successes, we are learning what changes are required 
to achieve the desired result: implementation of NGATS.
    The AIA, like all JPDO participants and stakeholders, is committed 
to the JPDO and its mission. JPDO must succeed. From our evaluation of 
JPDO's process, products, and progress to date, continued attention 
must be focused in the following areas for JPDO to achieve its 
challenging goal.
    Authority: Creating and implementing a national plan that crosses 
over the jurisdictions of numerous agencies and departments is a 
monumentally challenging task. The JPDO's and our country's success in 
this endeavor depends upon the Administration and Congress ensuring 
that the appropriate level of responsibility, authority and imperative 
exist to properly manage and conduct the integrated activities at the 
JPDO and the agencies. Now that a consensus vision has been 
established, the need for adequate JPDO authority is even more crucial 
as it addresses the ``development'' of NGATS: defining and implementing 
the policies, requirements, and system designs for the supporting 
agencies to advance the NGATS construct. JPDO-participating agencies' 
commitment to, and programmatic alignment with, JPDO and NGATS requires 
explicit alignment to the JPDO and NGATS goals, and a demonstrated 
commitment to the associated research and capital needs. To ensure 
success, the JPDO and participating agencies need to be accountable for 
NGATS progress through appropriate Administration and Congressional 
oversight to ensure adherence to programmatic commitments and 
interagency coordination.
    Funding: JPDO and the associated NGATS research, development and 
implementation must be fully funded, as needed and when needed. It is 
critical that Congress and the Administration properly address 
infrastructure commitments. Creative means may be necessary to finance 
and incentivize infrastructure improvements in both government and the 
private sector. R&D for NGATS is heavily frontloaded and the timetable 
is, by necessity, ambitious, both to initiate deployment in the near 
term and for completion by 2025. It is estimated that an additional 
$200-300 million of transitional research is needed each year in vital 
areas such as air traffic modernization, environment and safety in 
order to implement NGATS. Most of NGATS research will be through NASA 
but other agencies will also play a role. Not only must this vitally 
important NASA R&D be appropriately funded, NASA must evidence its 
fiscal and programmatic commitment to this rigorous endeavor. A failure 
to adequately fund and conduct this important research in a timely way 
could result in significant delays or problems developing and 
implementing the NGATS.
    JPDO Leadership: The JPDO has acted without a full time Director 
since early 2006. The interim management team has performed well under 
very difficult circumstances. However, in order to ensure that the JPDO 
moves forward, it is imperative that an effective long-term leader be 
appointed as soon as possible to guide the NGATS effort forward through 
this demanding phase. NGATS Institute has brought over 200 private 
sector participants into the JPDO to execute studies, demonstrations 
and other activities in support of JPDO. JPDO has embraced this 
partnership and should work with the private sector to enhance this 
unique enterprise.
    Program Alignment/Integration/Management: Achievement of NGATS is 
an intricate process, involving several Federal agencies' programmatic 
integration. One of the greatest potential risk areas is the lack of 
sufficient program integration across the various agencies. Agencies' 
relevant programmatic sectors should have strong links to the JPDO to 
ensure continuity and consistency in development between the planning 
at JPDO and the planning and execution performed at the respective 
agencies. The schedules and resource requirements must be realistic, 
accounting for both input and capabilities of both government and 
industry stakeholders. Robust systems integration tools should be 
consistently used. Additionally, clearly visible and traceable 
alignment of Federal funding should be established for this multiagency 
effort. NGATS-related funding must be identified and unimpeachable for 
the mission effort to be undeterred and on schedule. Both JPDO and 
other appropriate personnel should be rewarded for achieving NGATS 
goals.
    In summary, the JPDO effort is an unprecedented government-industry 
partnership. Its uniqueness requires government and industry 
stakeholders to break the bounds of precedent and truly achieve a new 
level of cooperation and partnership. One thing is certain: our entire 
Nation will reap the positive benefits of JPDO/NGATS success. Just as 
certainly, our entire Nation will suffer the negative impacts if the 
JPDO/NGATS effort is allowed to fail.
                                 ______
                                 
  Prepared Statement of the Air Line Pilots Association, International
    I am Captain Duane E. Woerth, President of the Air Line Pilots 
Association, International (ALPA). ALPA represents the professional 
safety and security interests of 61,000 pilots who fly for 40 airlines 
in the United States and Canada. I appreciate the opportunity to submit 
a statement for the record to discuss issues of great importance to the 
FAA, as the Air Traffic Service provider, and the pilots and operators 
that use the system, as we work to collaboratively modernize the 
National Airspace System (NAS) into the Next Generation Air 
Transportation System (NGATS).
    Jim May, President and CEO of the Air Transport Association, and I 
co-chair the NGATS Institute Management Council (IMC). We are charged 
with leading industry involvement and support for NGATS. To that end, 
we provide insight, experience and input to the JPDO with our 16 member 
NGATS IMC and the NGATS Institute Executive Director. The IMC provides 
a broad and impressive set of industry perspectives, expertise, and 
experience--ranging from airlines and airports to the academic 
community.
    I am proud to serve as the IMC Co-Chair with Jim May. Working 
together, this IMC has formed a collective personality and really 
stepped forward to engage the issues and support JPDO. The IMC and 
their member organizations have worked hard to provide the JPDO 
Integrated Product Teams (IPT's) with the industry expertise, 
experience and input they need.
    There are over 200 industry participants working as unpaid 
volunteers on the 8 IPT's. This is a testimony to our commitment to the 
JPDO and this critically important mission to build the NGATS and make 
it a success. Our pilots and our airlines are engaged intensely at all 
levels. We are in it for the long haul to do whatever it takes to get 
it done and get it done right. Success of NGATS is both critical and 
crucial to all of us. We are determined to succeed.
    Over the past 75 years, the NAS has changed greatly. Following the 
collision of two airliners over the Grand Canyon in 1956. the air 
traffic control system transformed from separating flights using radio 
position reports to a system of positive control based on radar. The 
introduction of jet powered airliners made air travel affordable and 
available to the world. With the introduction of the Global Positioning 
System (GPS), navigation is moving from ground-based navigation aids to 
a satellite-based navigation system.
    All of these changes have two things in common. They have made air 
travel safer, and they were successfully accomplished when there was a 
collaborative relationship between the government and the private 
sector. ALPA and the NGATS Institute are actively working with the FAA 
and the JPDO to ensure that NGATS is yet another example of a 
successful collaboration leading to fundamental change in the NAS.
    However, the continued road toward the implementation of NGATS will 
require an additional element--a national resolve. Just like the 
development of the interstate highway system during the 1950s and 
1960s, NGATS is a major technological and transformational step 
forward. National resolve is required to continue the operation of the 
current system while we research, develop, and implement NGATS.
    A sustained funding stream demonstrates national resolve. In 1997, 
recently retired Secretary of Transportation Mineta chaired the 
National Civil Aviation Review Committee (NCARC). NCARC recommended the 
FAA's funding and financing system receive a Federal budget treatment 
that ensured revenues from aviation users and spending on aviation 
services were directly linked and shielded from discretionary budget 
caps. This would ensure that FAA expenditures would be driven by 
aviation demand. While some movement has been made on this issue, this 
recommendation has not been fully implemented. With the Aviation Trust 
Fund expiring in 2007, the issue of a sustained funding stream is even 
more urgent. Without a national resolve, the funding of NGATS is 
uncertain, and will most certainly cost more and take longer to 
implement. Implementing NGATS is in the vital national interest of the 
United States.
    NGATS has the potential to revolutionize the NAS and our air 
transportation system, but only if private industry and government work 
together. Through collaboration, we have made major strides in the 
almost 102 years since the Wright Brothers first flew. However, the 
next 20 years could see major changes in aviation. Forecasted increases 
in air traffic of two to three times today's traffic cannot be met in 
today's NAS. The changes will be not be easy and will require much work 
and effort.
    Through the NGATS IMC, we are supporting the JPDO in developing a 
plan for 2025. Your funding commitment is crucial to the NAS of the 
future. But in the nearer-term, we believe the FAA is under funded and 
needs the resources to deploy foundational technologies such as 
Automatic Dependent Surveillance-Broadcast (ADS-B), Performance Based 
Navigation, more commonly know as RNAV/RNP, and additional airport 
infrastructure including airport surface management.
    ADS-B is a key enabler for the move to space-based navigation and 
surveillance. ADS-B uses the highly accurate GPS position and 
broadcasts it to controllers and other aircraft. As the replacement for 
the traditional surveillance radar, ADS-B reduces the FAA's dependence 
on an expensive radar system that is nearing its service life. Now is 
the time to invest in ADS-B rather than spending money in the future to 
extend the life of an aging technology.
    As the NAS traffic continues to expand, the increased use of space-
based RNAV and RNP procedures will enhance the capacity and efficiency 
of the NAS while maintaining the high level of safety that currently 
exists in our system. RNAV and RNP procedures in the en route 
environment will allow multiple lanes of aircraft to flow throughout 
the system while the development of new RNAV and RNP departure and 
arrival routes will decrease delays in the terminal area. These new 
procedures will provide greater accuracy, result in decreased spacing 
between aircraft, and reduce the impacts of noise and other 
environmental concerns.
    These technologies will not meet our capacity expectations if 
airport infrastructure is not improved. The nations biggest airports 
will need a surface management system to meet the capacity needs. ADS-B 
technology, combined with cockpit moving map displays of the airport 
and enhanced surface displays in the tower, will allow pilots and 
controllers to work together to more efficiently manage traffic in the 
terminal area.
    However, the U.S. cannot develop NGATS in isolation. Aviation is a 
major driver in the world economy. Transportation of passengers and air 
cargo in the global environment must be seamless. Therefore, ALPA is 
working with industry partners and regulatory agencies in North 
America, Europe, and the Far East to ensure airspace operations, 
technologies, and procedures are globally harmonized. With a globally 
harmonized airspace system, America's transportation system and our 
economy will truly benefit in terms of capacity, efficiency, and 
safety.
    In 1931, ALPA's founders chose the motto ``Schedule with Safety.'' 
On July 27, as ALPA celebrates our 75th birthday, the safety of the 
NAS--past, present and future, remains the Line Pilot's number one 
focus.
    I appreciate this opportunity to place this statement into the 
record on this crucial issue to the economic vitality and well being of 
the United States and Canada. The Air Line Pilots Association, 
International is proud to help lead the Aviation Industry in this 
collaborative effort in building the Next Generation Air Transportation 
System. It is imperative that Congress supports the JPDO initiatives 
while continuing to fund the FAA's nearer-term critical infrastructure 
requirements. Your support will enable the collaboration of industry 
and government partners to deliver the next generation air 
transportation system that is vital to our national interests.
                                 ______
                                 
         Prepared Statement of Peter J. Bunce, President/CEO, 
           General Aviation Manufacturers Association (GAMA)
    Chairman Burns and Ranking Member Rockefeller, on behalf of the 
over fifty-five members of the General Aviation Manufacturers 
Association (GAMA), I would like to thank the Subcommittee for the 
opportunity to share our views on the critically important issue of 
modernization of our Nation's air traffic management system.
    Over the past several months the conflicting positions among 
different sectors of the aviation industry have made it clear that much 
work is needed to find common ground as to the future funding of the 
FAA and the Airport and Airway Trust Fund (AATF). It should be noted 
however, that even in this time of great debate, there is one issue on 
which all sides agree--the critical need to transform and increase 
capacity in our Nation's air traffic management system by taking 
advantage of the tremendous technological advances in digital 
information transfer pioneered by the United States military.
    Our most advanced aircraft no longer fly via cables and pulleys. 
Rather, today's high performance general aviation and commercial 
aircraft use fly-by-wire technology and a multitude of other computer 
assisted mechanisms. Why then, do we still rely on ground-based radar, 
a technology created in the World War II era to maintain order in our 
Nation's skies? The United States can and must modernize. If we do not, 
we will be faced with increasing air traffic control delays in the 
congested airspace surrounding our Nation's major airports.
    The United States, however, is not the only government attempting 
to modernize air traffic control services. The European Union is moving 
aggressively to modernize its own infrastructure and set the world 
standard for air traffic management through the SESAR (Single European 
Sky ATM Research) project, which would streamline technological, 
economic and regulatory processes in order to create a single European 
sky from the current patchwork of systems.
    Under SESAR, the EU is applying significant resources to Air 
Traffic Management (ATM) research and implementation. While this is a 
welcome development for global aviation safety, we must recognize that 
this effort challenges U.S. leadership in ATM research and development.
    Mr. Chairman, the modernization of our Nation's air traffic control 
system is critical to the future of the U.S. aviation industry and to 
the well-being of our dynamic economy. Although the flight path to 
modernization has and will continue to face many challenges, we must 
address those challenges head on and persevere in the creation of a new 
state-of-the-art ATM system. As such, my testimony will focus on two 
main areas; the ongoing concern that the Joint Planning and Development 
Office (JPDO) does not have the necessary influence, via budget or 
oversight, to compel its member organizations to complete necessary 
research and development; and the JPDO's progress, plans and budgetary 
needs for the future.
Authority of the Joint Planning and Development Office
    Based on the recommendation of the Commission on the Future of the 
United States Aerospace Industry, the Joint Planning and Development 
Office was created in 2003 as part of the Vision 100--The Century of 
Aviation Reauthorization Act and was tasked with ``improving the level 
of safety, security, efficiency, quality and affordability of the 
National Airspace System and aviation services.'' These goals were to 
be overseen by the multi-agency Senior Policy Committee made up of the 
FAA Administrator, the NASA Administrator, the Secretary of Defense, 
the Secretary of Homeland Security, the Secretary of Commerce, the 
Director of the Office of Science and Technology Policy and other 
designees.
    Unfortunately, the language included in Vision 100 does not go far 
enough to ensure the success of the JPDO and our Nation's Next 
Generation Air Transportation System (NGATS). For example, nowhere in 
the bill does the language provide the necessary authority to any 
single person or body to complete this critical undertaking. Instead, 
the JPDO and its parent FAA are left to ``pass the hat'' amongst the 
relevant Federal agencies in order to provide the necessary funding for 
critical research and development activities. Perhaps in the nascent 
stages of the development of a modernized system this architecture will 
be sufficient, but as we attempt to move forward with implementation 
there must be a clear authority figure in the administrative branch 
capable of directing other government entities to conduct the necessary 
research, regardless of the designated agencies willingness to do so. 
There is no more telling example of this than NASA's projected support 
for the JPDO and NGATS.
    With the confirmation of Dr. Michael Griffin as NASA Administrator 
in April of 2005, NASA made dramatic changes to its structure, by 
transferring millions of dollars from science and aeronautics programs 
in order to beef up the space exploration budget. The consequence of 
this act, especially for NASA aeronautics research, was a reordering of 
priorities. Specifically, NASA has moved away from its traditional 
aeronautics research and has decided to focus more on fundamental 
disciplines. This change in NASA's focus will affect the JPDO by 
limiting the degree to which NASA research will be carried out and thus 
negatively impacting the ability to timely field the technology called 
for in emerging JPDO planning.
    NASA is the most logical research organization to conduct much of 
the needed tasks for JPDO, yet with the combination of the change in 
NASA research philosophy and the current structure of the JPDO, there 
is no mechanism the JPDO can use to ensure NASA completes the required 
research.
    We encourage this Committee to examine the interagency structure of 
the JPDO and make adjustments that would allow for more authority to be 
held by the Secretary of Transportation in order to ensure that other 
government agencies conduct needed research. Without such a change, the 
American people will be forced to wait longer than necessary to reap 
the benefits of a safer, and more efficient air traffic system.
Progress in the Modernization of the National Airspace System
    Mr. Chairman, the debate we must have is not whether we should 
modernize, but rather how, when and at what cost we will be able to do 
so.
    To this point, the JPDO has received funding of nearly $40 million, 
to process the mountain of information necessary to design the Next 
Generation Air Transportation System. Unfortunately, only now is a 
basic concept of operations being publicized for comment.
    In order for the JPDO to continue to garner support from Congress 
and industry, it is time for the planning of the future system to 
become an issue of fact rather than one of speculation.
    For the next 5 to 7 years, the JPDO will require a reasonably 
modest amount of funding to conduct its basic research and development 
work. It is only beyond that window of 5 to 7 years (once equipage is 
possible) that large amounts of funding are likely to be needed. As 
such, any debate regarding the manner of funding for the JPDO and NGATS 
improvements as part of the 2007 FAA reauthorization would be 
premature. Rather, these discussions should take place when the funding 
needs for the next generation system can be more clearly defined.
    In the next 5 to 7 years, the JPDO must develop a clear 
architecture for the new system. Specifically, it must identify the 
improvements the new system will provide. How can we safely increase 
capacity and efficiency of the National Airspace System to keep pace 
with growing travel by air? Will air traffic control and separation be 
facilitated through the use of satellite navigation coupled with data-
link technology or traditional ground based radar? Will critical 
weather data be available on a real-time basis to all in need, 
including pilots in the cockpit?
    Once the JPDO has established the specific goals for the new system 
a discussion of how we will achieve those goals should take place. What 
equipment will be necessary? How much will it cost both the government 
and the aviation industry to equip? How much will the use of new 
technologies save the FAA in the next 20 years? Should equipment be 
leased rather than purchased to provide a better mechanism for periodic 
upgrade?
    Only when we have these areas addressed should we move on to the 
final, and in some ways, most difficult question of how the new system 
should be financed. Many in Congress and industry have begun to discuss 
the means by which to finance the new system, without a clear 
indication of how much the system will cost and what the system will 
look like. Just as no sensible person would hand a builder a stack of 
money before seeing the plans and price for a new home, the aviation 
industry should be told of a modernization plan and its time phased 
cost before financing can be discussed.
Conclusions
    Modernization of the Nation's air traffic control system is an 
issue of critical importance to all those involved in aviation. The 
current air traffic management system is simply not equipped to handle 
the amount of traffic forecast in the years to come. In order to 
maintain the health of our just-in-time economy and our Nation's desire 
to move freely and without delay, we must ensure that a new air traffic 
control system builds capacity rather than constrains use.
    The JPDO is at a crossroads in its existence. Faced with uncertain 
budgets and a lack of budgetary control over its member agencies it 
will be unable to meet the demands of creating the next generation 
system within its current architecture. Congress must address the 
current structure of the JPDO and strengthen its abilities to ensure 
compliance with its basic needs for research and development. Providing 
this increased control over the research budgets of the JPDO member 
agencies will allow for a more efficient and streamlined R&D and 
implementation processes.
    The JPDO continues to assemble the pieces of what will become the 
Next Generation Air Transportation System, but has yet to clearly 
define what the system will be, how it will operate or be equipped and 
how much it will cost. Before we reach conclusions as to how the next 
generation system will be funded (changes to the AATF, bonding, 
leasing) these questions must be answered. Consequently, discussions 
relating to changes in the funding mechanism to support the NGATS and 
the FAA should be postponed until a point when the critical data needed 
to make an informed decision on the future system is available.
                                 ______
                                 
  Prepared Statement of Dave Cote, Chief Executive Officer, Honeywell
    While the United States continues to operate the safest and most 
efficient air transportation system in the world, anticipated continued 
growth in demand for both passenger and cargo services is driving the 
need to modernize the system. Requirements to double or triple capacity 
over the next 15-20 years dictate a major transformation in both 
operational procedures and the supporting technologies. In recognition 
of this need, Congress established the Joint Planning and Development 
Office (JPDO) in 2003 as part of ``Vision 100'' to bring together key 
government and industry stakeholders to lay out a plan for the Next 
Generation Air Transportation System (NGATS).
    Over the past 2 and a half years, the JPDO has been effective in 
developing the necessary levels of interagency collaboration and in 
engaging industry in the process through the NGATS Institute. The 
development of the ``vision'' for NGATS, establishing principles and 
key capabilities, leading to the current effort to define the NGATS 
Concept of Operations is indicative of the success of the JPDO's effort 
to date. Honeywell firmly believes in the importance of modernizing the 
air transportation system and congratulates the JPDO on its 
accomplishments to date.
    Now--as the NGATS project shifts to a more detailed definition 
phase, it is appropriate to consider ways to adjust the process to 
ensure continued success. As we look to the future, Honeywell believes 
the focus should be in two key areas: providing the necessary authority 
for JPDO to execute its mission and strengthening the role of the 
private sector in developing the NGATS.
The JPDO Needs Appropriate Authority to Fully Execute Its Mission
    In Vision 100, Congress tasked the JPDO with creating and carrying 
out a national plan for the development of NGATS. There is clear 
agreement on JPDO's responsibility for laying out the vision for NGATS 
and the supporting agencies responsibility for its implementation. The 
responsibility for the work that bridges the JPDO's vision to the 
agencies implementation is less clear. To be successful, the JPDO must 
be given the appropriate level of responsibility and authority for the 
planning, and research and development of NGATS. This authority must 
extend past the establishment of the vision to include the definition 
of the policies, requirements and system designs needed by the 
supporting agencies to carry out the NGATS implementation.
    The NGATS will be a complex system depending on the integration of 
numerous subsystems for successful and efficient deployment and 
operation. The JPDO needs to have clear responsibility for the system-
level requirements definition and their integration but this can only 
be accomplished with support from the agencies to ensure the alignment 
of NGATS roadmaps and enterprise architectures.
    In addition, clear JPDO responsibility for and oversight of the 
associated research would increase the impact of the limited research 
dollars available for this application. The development process led by 
the JPDO should identify the research required to support the mid-to-
long-term NGATS critical design decisions. Due to the broad scope of 
NGATS and the distributed nature of R&D expertise, this research will 
need to be performed across a number of organizations. Coordinating 
this research through the JPDO will ensure the necessary topics are 
being addressed without duplication of effort and resources.
Strong Industry Engagement is Critical to NGATS Success
    Recognizing the public-private nature of the air transportation 
system, it is essential to have a strong public-private partnership in 
place for the definition of the next generation system. NGATS will be 
comprised of both governmental and private sector systems and 
operations and its successful implementation will require firm 
commitments from a range of industry stakeholders, including users, 
labor, and manufacturers. A key characteristic of the future system 
will be the migration of functionality, and ultimately cost, from the 
ground to the aircraft. Manufacturers of aircraft and aircraft systems 
will need to be involved in the design process to ensure the resulting 
system architecture decisions are both practical and affordable.
    The NGATS Institute was established as a mechanism to facilitate 
industry involvement in the NGATS effort. To date, the Institute has 
been successful in recruiting hundreds of industry volunteers 
representing a broad cross-section of air transportation stakeholders 
to support the JPDO's efforts. These volunteers are primarily assigned 
to one or more of the JPDO's Integrated Product Teams (IPTs) where they 
provide minimal input (normally less than 10 percent) reviewing and 
commenting on JPDO work products. During the early phases of the 
project, in the definition of the vision and high-level concepts, this 
level of participation was both appropriate and effective. As the 
project shifts to more detailed design work, the industry contribution 
must be strengthened.
    Many stakeholders have asked about the benefits of engaging a Lead 
Systems Integrator (LSI) in the NGATS effort. While this remains a 
possibility for the future deployment phase of NGATS, it is not the 
correct model for involving industry in the JPDO's current NGATS system 
definition. The near-term work of the JPDO is to establish the system-
level requirements, functional allocation between subsystems, and the 
supporting architecture. The involvement of the industry with JPDO in 
the NGATS system design is that of a strong supporting partner to 
ensure all the necessary experience and ideas are included in the 
design decisions. This effort should be non-competitive in nature with 
publicly-vetted results.
    While our focus is on the development of the U.S. NGATS, we can't 
lose sight of the international nature of the air transportation 
system. Europe is aggressively moving forward with their Single 
European Sky in a strong public-private partnership, both to create a 
world-class air transportation system and to increase the global 
competitiveness of the European aerospace industry. They are currently 
working to define the Joint Undertaking that will be used for the 
development phase of the Single European Sky and are actively 
recruiting non-EU countries as investing partners in this endeavor. 
Other regions with rapid aviation growth, notably China and India, are 
interested in international collaboration on future operational 
concepts and technology solutions. Strengthening the public-private 
partnership in the U.S. will both accelerate the implementation of 
NGATS in the U.S. and increase its visibility with international 
partners, ultimately supporting continued U.S. competitiveness in the 
global market.
Summary
    The modernization of our Nation's air transportation system is 
critical for continued economic growth and enhanced quality of life. 
Honeywell is committed to the successful implementation of NGATS and 
stands ready to support the JPDO and its member agencies as they move 
forward with the development of this important system.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Hon. Marion C. Blakey
    Question 1. Currently, pilots can fly Visual Flight Rules (VFR) and 
they do not talk to air traffic controllers or file flight plans, etc. 
As you work to develop the next generation ATC system, is there any 
plan to operationally change VFR as we know it today? If so, what does 
the general aviation community think about this?
    Answer. One of the principal challenges in the development of NGATS 
is to insure the seamless integration of VFR traffic into the airspace 
operations of the future. This will include commercial and business 
aviation traffic at much higher levels with additional entrants such as 
Very Light Jets and Unmanned Aerial Systems. VFR traffic will be 
accommodated in the NAS operations of the future. For example, if VFR 
traffic needs to fly in the area of heavy IFR traffic, such as the 
Class B airspace around some of the Nation's larger airports, they will 
be afforded specific areas and corridors which will facilitate their 
efficient movement while not limiting the capacity of IFR traffic.

    Question 2. If you plan to operationally change VFR--will there be 
mandates/necessary equipage changes for the existing (and newly 
introduced) general aviation aircraft fleet? What stage are you in the 
planning and when will it be developed?
    Answer. There may be some additional requirements for equipage for 
both safety and security reasons. For example, ADS-B, when fully 
implemented, will rely primarily on an aircraft's participation in the 
system to insure aircraft and those providing air traffic management 
can see and provide separation between aircraft. For national security 
reasons, there will be a need to positively identify aircraft that are 
not providing position updates. With that in mind, we are looking at 
mechanisms to facilitate cost effective equipage of general aviation 
aircraft.

    Question 3. Given the fact that the JPDO is tasked with developing 
plans that ultimately result in a National Airspace System capacity 
increase of three times (3x), what is the JPDO doing to ensure that VFR 
operations, and the freedoms described above, exist in the future 
airspace system? Will the JPDO develop plans and strategies that ensure 
VFR operations are not required to file flight plans, remain in 
constant ATC communications, or obtain ATC clearance at more airports?
    Answer. Requirements for VFR traffic in the NextGen system will be 
driven by the type of airspace that aircraft will be operating in. We 
are confident we can accommodate VFR traffic in lower density, lower 
altitude environments much like we do today. Similarly, to operate in 
Class B airspace, which involves higher density traffic, there will be 
additional requirements for that airspace.

    Question 4. We know you have taken a number of steps, as required 
by law, to include industry in the airspace modernization effort 
including the creation of IPTs and the NGATS Institute. However, the 
mere creation of these entities does not ensure the proper utilization 
of private industry. Do you believe the FAA is working effectively with 
the aviation community in identifying appropriate costs, initiatives 
and time frames in the FAA modernization plan? How do you believe this 
effort could be improved?
    Answer. We believe that inputs from a variety of industry 
stakeholders are crucial in NGATS plan development. General aviation 
has been involved in our Integrated Product Teams at the grassroots 
level and is serving on our 16 member Institute Management Council 
(IMC). The IMC includes representatives from the major stakeholders in 
the aviation industry. All have a direct voice into the NGATS planning 
process. This includes not only the participation in our IPTs and the 
recent GA cost workshop, but also in being asked to provide comments 
and input on the Concept of Operations and the Enterprise Architecture 
documents.

    Question 5. What is the FAA's current timeline for short-term and 
long-term modernization efforts? What specific modernization 
initiatives could be undertaken immediately? What types of initiatives 
would require a longer time frame and why?
    Answer. Some of the key enabling technologies have already been 
identified. For example, ADS-B is a foundation upon which we intend to 
build space-based navigation, via RNAV and RNP procedures. This shift 
will allow us to save significantly on ground-based infrastructure 
costs. An example of several important enabling key initiatives that 
will require longer period for full implementation are En Route 
Automation Modernization (ERAM) and System Wide Information Management 
(SWIM). ERAM is an open architecture information system that will 
enable future capabilities to more efficiently handle traffic growth. 
SWIM when it matures will insure everyone is provided a mutual 
situation awareness of traffic in the NAS. Together they will give us 
the capability for 4 dimensional traffic flow management and will 
enable us to increase the capacity of the NAS multifold.

                                  <all>

</pre></body></html>
